App. 1
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

CALLAN CAMPBELL, JAMES H. CHADWICK,
JUDITH STRODE CHADWICK, KEVIN C.
CHADWICK, INDIVIDUALLY AND THROUGH
HIS COURT-APPOINTED ADMINISTRATORS,
JAMES H. CHADWICK AND JUDITH STRODE
CHADWICK, KEVIN JUNSO, NIKI JUNSO,
TYLER JUNSO ESTATE, THROUGH KEVIN
JUNSO, ITS PERSONAL REPRESENTATIVE,
Plaintiffs-Appellants
v.
UNITED STATES,
Defendant-Appellee
-----------------------------------------------------------------------

2018-2014
-----------------------------------------------------------------------

Appeal from the United States Court of Federal
Claims in No. 1:15-cv-00717-PEC, Judge Patricia E.
Campbell-Smith.
-----------------------------------------------------------------------

Decided: August 1, 2019
-----------------------------------------------------------------------

STEVEN R. JAKUBOWSKI, Robbins Salomon & Patt,
Ltd., Chicago, IL, argued for plaintiffs-appellants.
JOHN JACOB TODOR, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, argued for defendant-appellee. Also

App. 2
represented by Joseph H. Hunt, Robert Edward
Kirschman, Jr., Franklin E. White, Jr.
-----------------------------------------------------------------------

Before NEWMAN, LOURIE, and DYK, Circuit Judges.
DYK, Circuit Judge.
This case arises out of the 2009 bankruptcy of
General Motors Corporation (“Old GM”).1 The plaintiffs compose a putative class of individuals who had
asserted personal injury claims against Old GM, and
whose successor liability claims were extinguished
during bankruptcy. Relying on our decision in A & D
Auto Sales, Inc. v. United States, 748 F.3d 1142 (Fed.
Cir. 2014), the plaintiffs sued the United States on behalf of themselves and others similarly situated in the
Court of Federal Claims (“Claims Court”), alleging
that the extinguishment of their claims without just
compensation violated the Takings Clause of the Fifth
Amendment. The Claims Court dismissed the plaintiffs’ claims, concluding that they were barred by the
statute of limitations and that the plaintiffs had, in
any event, failed to state a claim. Because we hold, as
to the claims alleging coercion of Old GM, that the statute of limitations had run when the plaintiffs ﬁled
their complaint and, with respect to the plaintiffs’
other claims, that the Claims Court also lacks jurisdiction, we afﬁrm.

1

“Old GM” refers to the GM entity in existence prior to the
sale of assets pursuant to 11 U.S.C. § 363.

App. 3
BACKGROUND
I
In A & D, a group of former automobile dealerships sued the United States, raising Fifth Amendment takings claims based on the extinguishment of
the plaintiffs’ franchise agreements with Old GM in a
bankruptcy sale pursuant to 11 U.S.C. § 363. 748 F.3d
at 1147. That section gives a bankruptcy trustee the
power to use, sell, or lease the property of a debtor in
bankruptcy. In particular, § 363(f ) (the provision at
issue here) provides that “[t]he trustee may sell property . . . free and clear of any interest in such property
of an entity other than the estate” under certain conditions. 11 U.S.C. § 363(f ) (emphasis added).
In A & D, the plaintiffs alleged that the government had conditioned its continued ﬁnancial assistance to Old GM on the company’s submission for
approval of a proposed sale order that terminated the
plaintiffs’ franchise agreements. 748 F.3d at 1148. The
plaintiffs contended that this purported coercion effected a regulatory taking under the Fifth Amendment. Id. at 1149. The Claims Court denied the
government’s motion to dismiss for failure to state a
claim but certiﬁed the case for interlocutory appeal
pursuant to 28 U.S.C. § 1292(d)(2). Id. at 1150.
On appeal, we held that the government may, in
some circumstances, be liable for a regulatory taking
of property where the government pressures a third
party (there, allegedly Old GM) to take an “action
that affects or eliminates the property rights of the

App. 4
plaintiff.” Id. at 1153. We determined that such conduct
may give rise to a taking where the government’s action was “direct and intended” and where the “the third
party is acting as the government’s agent or the government’s inﬂuence over the third party was coercive
rather than merely persuasive.” Id. at 1154. We did not
decide whether the government’s actions with respect
to Old GM were coercive or otherwise satisﬁed the conditions for takings liability.2 Id. at 1155–56. We explained that to state a claim, the plaintiffs needed to
have pled that their “property suffered a diminution in
value or a deprivation of economically beneﬁcial use”
as a result of the government’s action. Id. at 1157. We
determined that the plaintiffs’ allegations were insufﬁcient to show that their franchise agreements had
value absent the government action and remanded to
the Claims Court to permit the plaintiffs to amend
their complaint “to include speciﬁc allegations establishing loss of value” and thereafter to determine
whether a compensable taking had occurred. Id. at
1158–59.
II
Relying on A & D, on July 9, 2015, the plaintiffs
here sued the government in the Claims Court alleging
2

Even if coercion had been established, that would merely
make the third party’s action the equivalent of government action. The plaintiffs would still be required to engage in the Penn
Central analysis and to establish a diminution in the value of
their property. See Penn. Cent. Transp. Co. v. New York City, 438
U.S. 104 (1978).

App. 5
that the government had coerced Old GM to include
in its proposed bankruptcy sale order provisions extinguishing the plaintiffs’ property interests pursuant to
§ 363 of the Bankruptcy Code.
The plaintiffs are a group of individuals who alleged that they are victims of accidents involving GM
vehicles (or are the family members or estates of such
individuals), and had personal injury claims against
Old GM. The plaintiffs alleged that under Michigan
law they possessed successor liability claims at the
time the § 363 sale closed. Michigan law provides that
where there is a sale of assets from one entity to another such that there exists “a continuity of enterprise
between a successor and its predecessor[,] . . . a successor [may be forced] to ‘accept the liability with the beneﬁts’ of such continuity.” Foster v. Cone-Blanchard
Mach. Co., 597 N.W.2d 506, 510 (Mich. 1999) (quoting
Turner v. Bituminous Cas. Co., 244 N.W.2d 873, 883
(Mich. 1976)).
Under Michigan law,
a prima facie case of continuity of enterprise
exists where the plaintiff establishes the following facts: (1) there is continuation of the
seller corporation, so that there is a continuity of management, personnel, physical location, assets, and general business operations
of the predecessor corporation; (2) the predecessor corporation ceases its ordinary business operations, liquidates, and dissolves as
soon as legally and practically possible; and
(3) the purchasing corporation assumes those

App. 6
liabilities and obligations of the seller ordinarily necessary for the uninterrupted continuation of normal business operations of the
selling corporation.
Id. The plaintiffs’ complaint here sets out facts supporting each of these factors. Though the government
disputes whether the plaintiffs’ successor liability
claims constitute a cognizable property interest for the
purposes of a Fifth Amendment taking, we assume,
without deciding, that they do.
Here, Old GM ﬁled for bankruptcy on June 1, 2009,
and ﬁled a motion seeking court approval to sell substantially all its assets to a new corporation, referred
to as “New GM,” pursuant to 11 U.S.C. § 363. In re
Gen. Motors Corp., 407 B.R. 463, 479–80, 483 (Bankr.
S.D.N.Y. 2009). To facilitate the sale, the government
provided ﬁnancing to Old GM for the bankruptcy and
the company’s ongoing operations. See id. at 473, 479.
In return, the government received $8.8 billion in
debt and preferred stock of New GM and approximately 60 percent of its equity. Id. at 482. According to
the bankruptcy court, without the government’s ﬁnancing, Old GM would have “face[d] immediate liquidation.” Id. at 484. According to the plaintiffs’
complaint, “on the eve of Old GM’s bankruptcy ﬁling,
the [g]overnment . . . condition[ed] the closing of the
[s]ale on the . . . inclusion of . . . provision[s]”

App. 7
concerning successor liability.3 J.A. 1037; see also Appellant Br. 8.
Because of the government’s insistence, according
to the complaint, the proposed sale order thus included
“a number of provisions making explicit ﬁndings that
New GM is not subject to [the plaintiffs’] successor liability [claims].” Gen. Motors Corp., 407 B.R. at 500.
Those provisions provide, in relevant part:
Except for the Assumed Liabilities, . . . the
Purchased Assets shall be transferred to the
Purchaser . . . free and clear of all liens,
claims, encumbrances, and other interests of
any kind or nature whatsoever . . . including
rights or claims based on any successor or
transferee liability. . . .
[A]ll persons and entities . . . holding liens,
claims, encumbrances, and other interests of
any kind or nature whatsoever, including
rights or claims based on any successor or
transferee liability, . . . are forever barred, estopped, and permanently enjoined. . . .
J.A. 449–50, ¶¶ 7, 8 (emphases added). Allegedly, the
government’s ﬁnancing was “expressly conditioned
upon approval of this motion [seeking approval of the
proposed sale order] by July 10.” Gen. Motors Corp.,
407 B.R. at 484.

3

This is somewhat inconsistent with other allegations of the
complaint stating that extinguishment of the plaintiffs’ claims
was not important to the government.

App. 8
The bankruptcy court approved Old GM’s proposed sale order on July 5, 2009, and “permit[ted] GM’s
assets to pass . . . free and clear of successor liability
claims.” Id. at 505. The court determined that it would
not “gamble on the notion that the U.S. Government
didn’t mean it when it said that it would not keep funding GM.” Id. at 493. In approving the sale, the court
explained that “GM is hopelessly insolvent” and that
“if GM liquidates, there will . . . be nothing for stockholders . . . [or] unsecured creditors.” Id. at 520.
Paragraph 70 of the sale order provided that the
order “shall be effective as of 12:00 noon, EDT, on
Thursday, July 9, 2009.” J.A. 475. The § 363 sale closed
thereafter on July 10, 2009.
III
The plaintiffs appealed the bankruptcy court’s order to the United States District Court for the Southern District of New York. See In re Motors Liquidation
Co., 428 B.R. 43 (S.D.N.Y. 2010). Somewhat confusingly, the district court both afﬁrmed the bankruptcy
court’s decision and determined that the appeal was
moot. Id. at 64. Because the plaintiffs had failed to
seek a stay of the § 363 sale pending appeal, and the
§ 363 sale had closed, the court concluded that the
plaintiffs’ appeal was statutorily moot under § 363(m)
of the Bankruptcy Code. Id. at 56–60. The court entered an order stating that “the appeal is denied as
moot, and the judgment of the Bankruptcy Court is
AFFIRMED.” Id. at 64. Though the district court

App. 9
explained that it was “not unsympathetic to the plight
of the [plaintiffs],” it noted that the plaintiffs’ “position
in the bankruptcy appears to be neither better not
worse than that of any other unsecured contingent
creditor.” Id. at 63. The district court concluded that
had the § 363 sale not occurred, Old GM would have
proceeded to liquidation and the plaintiffs “and other
unsecured creditors would have received nothing.” Id.
at 63–64.
IV
The Claims Court dismissed the plaintiffs’ complaint on October 30, 2017, without deciding the question of whether the alleged class should be certiﬁed.
The court held that the plaintiffs’ complaint was not
timely because it was not ﬁled within the Tucker Act’s
six-year statute of limitations. In reaching this conclusion, the court stated that “[t]he complaint’s speciﬁc
references to government coercive action . . . all point
to activity that predates the Sale Order issued by the
bankruptcy court.” J.A. 7. In other words, the court
determined that the plaintiffs’ takings claim had accrued, at the latest, on July 5, 2009—more than six
years before the date on which the plaintiffs ﬁled their
complaint in the Claims Court.
In the alternative, the Claims Court held that dismissal was proper because the plaintiffs had failed to
identify a cognizable property interest. It characterized the plaintiffs’ successor liability claims as being
“too contingent” to compose a property interest that

App. 10
would be subject to a compensable taking under the
Fifth Amendment. J.A. 18 The court explained that the
plaintiffs’ purported property interests were “entirely
contingent upon two discretionary acts of the federal
government: (1) a government ﬁnancial intervention
so that a New GM could be created; and[ ] (2) a government intervention so that Old GM could ﬁle for bankruptcy requesting a 363 sale.” J.A. 18. The Claims
Court also concluded that the plaintiffs lacked a cognizable property interest because § 363 predated the
creation of the plaintiffs’ purported property interests
(the successor liability claims) and therefore that the
possibility of extinguishment in bankruptcy “inhered”
in the title to the plaintiffs’ claims. J.A. 22. The court
did not reach the question of whether the plaintiffs had
sufﬁciently alleged a diminution in the value of their
property as a result of the government’s action.
On November 27, 2017, the plaintiffs ﬁled in the
Claims Court a combined motion for reconsideration,
motion to amend the judgment, and motion for leave to
ﬁle a second amended complaint. The proposed second
amended complaint, in the words of the Claims Court,
“reshaped[d] the description of plaintiffs’ takings
claims and the facts already alleged” and contained
additional factual allegations. J.A. 24. The plaintiffs
added facts purporting to demonstrate that government coercion continued after the bankruptcy court
entered the § 363 sale order. The plaintiffs’ complaint
essentially added more detail about the government’s
claimed pressure on the bankruptcy court and the district court. The Claims Court considered the alleged

App. 11
facts presented in the plaintiffs’ second amended complaint but determined that the revised allegations
were insufﬁcient to change the result and denied the
motion, reafﬁrming both of its initial grounds for dismissing the plaintiffs’ complaint.
The plaintiffs appealed to this court.4 We have jurisdiction under 28 U.S.C. § 1295(a)(3). We review the
Claims Court’s decision to dismiss for lack of jurisdiction de novo. Diaz v. United States, 853 F.3d 1355, 1357
(Fed. Cir. 2017).
DISCUSSION
I
We agree with the Claims Court that the plaintiffs’
complaint was untimely insofar as the complaint alleged coercion of Old GM. The Tucker Act’s statute of
limitations provides that “[e]very claim of which the
United States Court of Federal Claims has jurisdiction
shall be barred unless the petition thereon is ﬁled
within six years after such claim ﬁrst accrues.” 28
U.S.C. § 2501. The Supreme Court has held that the
Claims Court’s six-year statute of limitations is jurisdictional. See John R. Sand & Gravel Co. v. United
States, 552 U.S. 130 (2008).
The plaintiffs here ﬁled their complaint alleging
Fifth Amendment takings claims in the trial court on
4

We note that the government’s brief before this court does
not comply with Federal Rule of Appellate Procedure 32(a)(1)(A)
because it was ﬁled double-, rather than single-sided.

App. 12
July 9, 2015. The question is when the alleged taking
occurred. The plaintiffs alleged in their complaint, and
reafﬁrmed during oral argument, that the primary
conduct which caused the taking was the government’s
coercion of Old GM to secure approval from the bankruptcy court of a proposed sale order extinguishing
the plaintiffs’ successor liability claims. Speciﬁcally,
the plaintiffs alleged that the government “directed”
that the sale order “exclude all Personal Injury Products Liability Claims.” J.A. 398, ¶ 83. In other words,
that the government “condition[ed] the closing of the
Sale on inclusion of a provision within the Sale Order
that expressly extinguished the rights of any Personal
Injury Claimant to assert successor liability claims
against New GM.” J.A. 403, ¶ 107. The plaintiffs contended that Old GM was “[l]eft with no option but to
comply with the [g]overnment’s mandate or face certain liquidation,” and Old GM consequently ﬁled for
bankruptcy and submitted to the bankruptcy court a
proposed sale order that “left behind the [plaintiffs’]
Personal Injury Products Liability Claims.” J.A. 399–
400, ¶¶ 88, 98. In light of these allegations, we focus
our accrual analysis on the government’s alleged coercion of Old GM.
The parties present three possible dates on which
the plaintiffs’ takings claims may have accrued. The
government argues that the claims accrued at least on
July 5, 2009, when the bankruptcy court approved and
entered the sale order (“Entry Date”). The plaintiffs
argue to the contrary that their claims did not accrue
until either July 9, 2009, the date on which the § 363

App. 13
sale became effective (“Effective Date”), or July 10,
2009, the date on which the § 363 sale closed (“Closing
Date”). The plaintiffs contend that the Entry Date cannot constitute the date on which their claims accrued
because the value of the plaintiffs’ successor liability
claims had not yet been extinguished as of July 5, 2009.
We conclude that under the plaintiffs’ theory as to the
coercion of Old GM, the alleged taking occurred on July
1, 2009—when Old GM ﬁled the proposed sale order
with the bankruptcy court.
The standards for claim accrual in physical takings and regulatory takings cases are distinct, and this
distinction is important. As the Supreme Court has
held, “it [is] inappropriate to treat cases involving
physical takings as controlling precedents for the evaluation of a claim that there has been a ‘regulatory taking’, and vice versa.” Tahoe-Sierra Pres. Council, Inc. v.
Tahoe Reg’l Planning Agency, 535 U.S. 302, 323 (2002)
(footnote omitted).
In the case of a physical taking, claim accrual is
relatively simple to pinpoint. “A physical taking generally occurs when the government directly appropriates
private property or engages in the functional equivalent of a ‘practical ouster of [the owner’s] possession.’ ”
Katzin v. United States, 908 F.3d 1350, 1361 (Fed. Cir.
2018) (alteration in original) (quoting Washoe Cty. v.
United States, 319 F.3d 1320, 1326 (Fed. Cir. 2003)); see
United States v. Dow, 357 U.S. 17, 24–25 (1958) (occupation of property signaled claim accrual, not the later
transfer of a deed). For example, in Casitas Municipal
Water District v. United States, 708 F.3d 1340 (Fed. Cir.

App. 14
2013), this court held that the plaintiffs’ physical takings claim had accrued not when the National Marine
Fisheries Service issued an opinion, which, if followed,
would have resulted in the diversion of some of the
plaintiffs’ water, but rather whenever an actual diversion of water occurred. Id. at 1358–59; see also Nw. La.
Fish & Game Pres. Comm’n v. United States, 446 F.3d
1285, 1290–91 (Fed. Cir. 2006) (where the damage of a
purported physical taking occurs by a continuing process of physical events, the damages must be “quantiﬁable and present”).
In the case of a regulatory taking, however, the
taking may occur before the effect of the regulatory action is felt and actual damage to the property interest
is entirely determinable. As the Supreme Court recently stated in a regulatory takings case, “a property
owner has a claim for a violation of the Takings Clause
as soon as [the] government takes his property for public use without paying for it” without regard to posttaking remedies that may be available. Knick v. Township of Scott, 139 S. Ct. 2162, 2170 (2019). In other
words, “because a taking without compensation violates the self-executing Fifth Amendment at the time
of the taking, the property owner can bring a federal
suit at that time.” Id. at 2172. For example, in Branch
v. United States, 69 F.3d 1571 (Fed. Cir. 1995), a bankruptcy trustee challenged the FDIC’s assessment of
liability and consequent seizure of a bank’s assets pursuant to the Financial Institutions Reform, Recovery,
and Enforcement Act. Id. at 1574. This court held that
“[t]he seizure and closure of [a] bank, once the bank

App. 15
became insolvent, did not constitute a taking.” Id. at
1575. Rather, it was the “FDIC’s assessment of liability,” which directly caused the insolvency, that was
the purported taking and therefore marked the date of
accrual. Id.
In Goodrich v. United States, 434 F.3d 1329 (Fed.
Cir. 2006), a regulatory takings case, the question was
whether the issuance of a Forest Service Record of Decision (“ROD”) and a ﬁnal Environmental Impact
Statement (“EIS”) resulted in accrual of the plaintiff ’s
takings claim. Id. at 1331. We held that it did. We determined that the ROD and ﬁnal EIS were sufﬁciently
ﬁnal to accrue takings liability because they “are ﬁnal
agency statements of ofﬁcial position that are published [by the agency] only after years of analysis and
consultation with affected parties.” Id. at 1335. We explained that the claim accrues when the agency action
is complete, “regardless of whether damages are ‘complete and fully calculable.’ ” Id. at 1336 (quoting Fallini
v. United States, 56 F.3d 1378, 1382–83 (Fed. Cir.
1995)). Here, assuming that the plaintiffs’ claims had
value in the ﬁrst place, despite the likelihood of no recovery if Old GM had liquidated, the ﬁling of the proposed bankruptcy sale order clearly inﬂicted an injury
on the plaintiffs by diminishing the value of their
claimed property rights.
Notably, the court in Goodrich made clear that
where a regulatory taking is alleged, it is the ﬁnal decision of the government actor alleged to have caused
the taking that triggers accrual of a takings claim, not
the ultimate impact of that decision. In Goodrich,

App. 16
though “it took the Forest Service over three years to
implement [the ROD] transferring Kennedy’s cattle to
the Whitetail Allotment”—i.e., for the government’s
decision to be implemented—the court nevertheless
determined that the issuance of the ROD, rather than
the physical appropriation by cattle of water was “a
better place to deem any taking occurred.” Id.
The plaintiffs argue that the government’s pressure of Old GM was not complete (that is, not “ﬁnal”)
at the Entry Date. According to the plaintiffs, the government could have changed its mind regarding the
plaintiffs’ successor liability claims at any point before
the § 363 sale closed on July 10, 2009. But the plaintiffs do not cite any authority in support of their theory
that a government actor’s ability to change its mind
prevents claim accrual. To the contrary, in Ladd v.
United States, 630 F.3d 1015, 1023–24 (Fed. Cir. 2010);
Barclay v. United States, 443 F.3d 1368, 1378 (Fed. Cir.
2006), cert. denied, 549 U.S. 1209 (2007); and Caldwell
v. United States, 391 F.3d 1226, 1234–35 (Fed. Cir.
2004), cert. denied, 546 U.S. 826 (2005), in the context
of an alleged physical taking effected by an action
taken pursuant to the National Trail Systems Act, we
held that the government’s issuance of Notices of Interim Trail Use or Abandonment (“NITUs”) effected a
taking even though the NITUs could have been vacated by the agency or set aside by a court.
Similarly, in Cuban Truck & Equipment Co. v.
United States, 333 F.2d 873 (Ct. Cl. 1964), our predecessor court rejected a somewhat similar theory.
There the plaintiffs asserted a takings claim seeking

App. 17
compensation for the value of certain vehicles. Id. at
875. The alleged taking was effected when the German
government (at the insistence of the United States)
directed a quasi-public company in possession of the
vehicles to “exclude from sale or delivery [those vehicles] at its depots” (“the freeze”). Id. at 878 (footnote
omitted). The takings claim was held to accrue on the
date of the freeze. The plaintiffs argued for a later accrual date because the German government could have
unilaterally decided to lift the freeze. Id. at 879. Our
predecessor court held that this possibility did not impact the date of accrual. Id. Though Ladd, Barclay,
Caldwell, and Cuban Truck are physical takings cases,
we conclude that their reasoning is equally applicable
in the regulatory takings context. The possibility that
the government or a third party would change its mind
does not affect the date on which the plaintiffs’ takings
claims accrued.
Such a takings theory, moreover, would be unworkable. Agencies generally have broad power to reconsider their decisions. Medtronic, Inc. v. Robert Bosch
Healthcare Sys., Inc., 839 F.3d 1382, 1385 (Fed. Cir.
2016). Thus, determining accrual based on the possibility the government actor would change its mind
would make the date of accrual entirely indeterminate
in many situations.
The plaintiffs also contend that the Entry Date
cannot serve as the date of accrual because the order
“could have been overturned in advance of the ‘Effective Date’ by a ‘higher body’ (i.e., the District Court
at the July 9, 2009 hearing on whether to stay the

App. 18
effectiveness of the Sale Order[)].” Appellant Br. 23. We
disagree. This argument ignores the fact that the government action purported to have effected a taking is
the government’s coercion of Old GM, not the bankruptcy court’s order. Any action by the bankruptcy
court or any higher judicial body merely goes to the
ultimate effect of the alleged government taking. Such
collateral action does not alter the ﬁnality of the government’s action for the purpose of accrual of a takings
claim. See Palazzolo v. Rhode Island, 533 U.S. 606, 618
(2001) (“The central question in resolving the ripeness
issue . . . is whether petitioner obtained a ﬁnal decision
from the [government] determining the permitted use
for the land.”); Williamson Cty. Reg’l Planning Comm’n
v. Hamilton Bank of Johnson City, 473 U.S. 172, 186
(1985) (“[A] claim that the application of government
regulations effects a taking of a property interest is not
ripe until the government entity charged with implementing the regulations has reached a ﬁnal decision
regarding the application of the regulations to the
property at issue.”). As the Supreme Court in Williamson made clear, “the ﬁnality requirement is concerned
with whether the initial decisionmaker has arrived at
a deﬁnitive position on the issue that inﬂicts an actual,
concrete injury.”5 473 U.S. at 193 (emphasis added).

5

This aspect of Williamson remains good law under Knick.
See 139 S. Ct. 2162 (2019).

App. 19
II
The plaintiffs also argue that the government effected a taking by pressuring the bankruptcy court and
the district court to approve the proposed sale order,
citing colorful language from a book by Steve Rattner
(the leader of the government team responsible for assessing the viability of Old GM’s restructuring plans)
that the government’s threats were “the ﬁnancial
equivalent of holding a gun to the head’ of the courts.”
Appellant Br. 5, 12. These actions allegedly occurred
during the bankruptcy court’s and district court’s consideration of the proposed sale order, i.e., within the
limitations period. But the coercion that could give rise
to a regulatory takings claim does not include “coercion” of the court system by making an argument for a
particular result. It is well established that the Claims
Court “cannot entertain a taking[s] claim that requires
the court to scrutinize the actions of another tribunal.”
Petro-Hunt, L.L.C. v. United States, 862 F.3d 1370,
1386 (Fed. Cir. 2017) (alteration in original) (quoting
Shinnecock Indian Nation v. United States, 782 F.3d
1345, 1353 (Fed. Cir. 2015)); accord Allustiarte v.
United States, 256 F.3d 1349, 1351–52 (Fed. Cir. 2001).
In Allustiarte, we considered a similar claim that
several plaintiffs had suffered a “taking of their property at the hands of the bankruptcy trustees and
courts.” 256 F.3d at 1351. We held that the Claims
Court lacked jurisdiction over such an action because
it “would require the court to scrutinize the actions of
the bankruptcy trustees and courts” and we noted that
“permit[ting such] collateral attacks on bankruptcy

App. 20
court judgments would ‘seriously undercut[ ] the orderly process of the law.’ ” Id. at 1351–52 (second alteration in original) (quoting Celotex Corp. v. Edwards,
514 U.S. 300, 313 (1995)). We explained that “[t]he
proper forum for [the plaintiffs’] challenges . . . lies in
the Ninth Circuit [the appropriate appellate forum in
Allustiarte], not the [Claims Court].” Id. at 1352.
The same reasoning applies here. The plaintiffs’
allegations that the government coerced the bankruptcy court and the district court amount to no more
than a mine-run challenge to the bases for those court’s
decisions regarding the sale order. The supposed coercion here was not extra-judicial, as was the case in
A & D. The plaintiffs cannot maintain a collateral attack on the decisions of the bankruptcy court and district court on a takings theory. The proper forum for
such a challenge is the judicial appellate process.
To the extent that the plaintiffs argue that there
was a taking because § 363 did not permit the extinguishment of their successor liability claims, we disagree that this is a cognizable takings action. As we held
in Lion Raisins, Inc. v. United States, 416 F.3d 1356
(Fed. Cir. 2005), a plaintiff ’s claim that “it is entitled to
prevail because the agency acted in violation of a statute . . . [does] not give the plaintiff the right to litigate
that issue in a takings action rather than in the congressionally mandated . . . review proceeding.” Id. at
1369 (emphasis omitted) (quoting Rith Energy, Inc. v.
United States, 247 F.3d 1355, 1366 (Fed. Cir. 2001)); see

App. 21
also Petro-Hunt, 862 F.3d at 1386.6 We see no difference, in this regard, between a takings claim based on
an agency action allegedly in violation of a statute and
that of a federal court. Again, the plaintiffs’ remedy
based on their challenge to the lawfulness of the § 363
sale was to pursue their successor liability claims
through the usual appeal process, as they attempted to
do. See Motors Liquidation Co., 428 B.R. 43.
III
The plaintiffs brieﬂy contend that, at worst, they
should now be permitted to amend their complaint to
6

We note that the circuits appear to be split on the issue of
whether a bankruptcy court has authority to extinguish successor liability claims pursuant to a § 363 sale. Compare Precision
Indus., Inc. v. Qualitech Steel SBQ, LLC, 327 F.3d 537, 545–46
(7th Cir. 2003) (concluding that the “right to possess . . . property
as a lessee qualiﬁes as an interest for the purposes of section
363(f )” but limiting the deﬁnition of “interest” to include only a
“right to the property itself ” rather than “a right that is connected
to or arising from the property”); and In re Wolverine Radio Co.,
930 F.2d 1132, 1147 n.23 (6th Cir. 1991) (questioning whether
“general unsecured interests fall within the scope of those interests that can be discharged pursuant to section 363(f )”), with In
re Trans World Airlines, Inc., 322 F.3d 283, 288–93 (3d Cir. 2003)
(citing 3 Collier on Bankruptcy ¶ 363.06[1]) (holding that a sale
free and clear of successor liability claims based on employment
discrimination was authorized under § 363); and In re Leckie
Smokeless Coal Co., 99 F.3d 573, 575, 581–82 (4th Cir. 1996) (afﬁrming sale free and clear of successor liability for claims under
Coal Act). See generally Charles Jordan Tabb, Law of Bankruptcy
450–51 (4th ed. 2016) (noting that the “prevailing trend” is that
courts ﬁnd that a § 363 sale can be made free and clear of successor liability claims but that there is no consensus). We need not
decide this issue because its outcome does not affect our analysis.

App. 22
cure any deﬁciency identiﬁed by this court as the plaintiffs in A & D were permitted to do. But the plaintiffs
here already amended their complaint once as of right
and then sought leave to amend their complaint again
in conjunction with their motion requesting that the
Claims Court reconsider its dismissal of this case. The
Claims Court denied the plaintiffs’ request to amend
their complaint, deeming it futile in attempting to
overcome the deﬁciencies on which the Claims Court’s
dismissal was based. We agree with the Claims Court
and therefore likewise decline the plaintiffs’ request to
amend. The proposed second amended complaint
simply supplies additional detail about the extent and
timing of the alleged pressure on the bankruptcy court
and district court. There are no new allegations in the
proposed second amended complaint that would alter
the date of accrual concerning the claim based on coercion of Old GM or that bolster the plaintiffs’ theory
concerning coercion of the courts.
CONCLUSION
We conclude that the plaintiffs’ takings claims
based on the alleged coercion of Old GM accrued when
Old GM submitted the proposed sale order to the bankruptcy court on July 1, 2009, and that the plaintiffs’
complaint in this respect was untimely because it was
ﬁled more than six years after their claims accrued.
With respect to the plaintiffs’ claims that the government had coerced the bankruptcy court and the district
court, we conclude that the plaintiffs’ claims are not
within the Claims Court’s jurisdiction. Under the

App. 23
circumstances, we need not decide the question of
whether the plaintiffs have sufﬁciently alleged a loss
of value of their alleged property interests. Accordingly,
we afﬁrm.
AFFIRMED

App. 24
In the United States Court of Federal Claims
No. 15-717C
(E-Filed: October 30, 2017)
CALLAN CAMPBELL,
et al.,
Plaintiffs,
v.
THE UNITED STATES,
Defendant.

)
)
)
)
)
)
)
)

Takings; Statute of
Limitations, 28 U.S.C.
§ 2501 (2012); Claims
Accrued More Than Six
Years Before Suit Was
Filed; No Cognizable
Property Interest.

Steve Jakubowski, Chicago, IL, for plaintiffs. Robert M.
Winter and Catherine A. Cooke, Chicago, IL, of counsel.
John J. Todor, Senior Trial Counsel, with whom were
Chad A. Readler, Acting Assistant Attorney General,
Robert E. Kirschman, Jr., Director, Franklin E. White,
Jr., Assistant Director, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, for defendant.
OPINION
CAMPBELL-SMITH, Judge.
The court has before it defendant’s motion to dismiss, ECF No. 8, which is brought pursuant to Rules
12(b)(1) and 12(b)(6) of the Rules of the United States
Court of Federal Claims (RCFC). This motion has been
the subject of extensive brieﬁng by the parties: (1)

App. 25
Plaintiffs’ Response, ECF No. 13; (2) Defendant’s Reply,
ECF No. 14; (3) Defendant’s First Supplemental Brief,
ECF No. 19; (4) Plaintiffs’ First Supplemental Brief,
ECF No. 21; (5) Defendant’s Response to Plaintiffs’
First Supplemental Brief, ECF No. 22; (6) Plaintiffs’
Response to Defendant’s First Supplemental Brief,
ECF No. 23; (7) Plaintiffs’ Second Supplemental Brief,
ECF No. 27; (8) Defendant’s Response to Plaintiffs’
Second Supplemental Brief, ECF No. 28; and, (9) Plaintiffs’ Reply in Support of Plaintiffs’ Second Supplemental Brief, ECF No. 32. The parties were also given
an opportunity to present oral argument on defendant’s motion, which was held on April 12, 2016 by the
judge to whom this case was originally assigned. Interestingly, the parties never briefed the statute of limitations issue which commands the dismissal of plaintiffs’
claims.1
This takings case stems from the bankruptcy of
General Motors Corporation in the summer of 2009.2
The bankruptcy court order encompassing the terms
that underlie plaintiffs’ claims issued on July 5, 2009.
1

At oral argument, plaintiffs’ counsel asserted that defendant “agrees” with plaintiffs’ position regarding claim accrual. Oral
Argument Transcript (Tr.) at 52, 125. The court’s determination
of its jurisdiction over a suit does not depend on the parties’ view
of jurisdictional facts. See, e.g., Lambropoulos v. United States,
18 Cl. Ct. 235, 237 n.6 (1989) (“The parties cannot stipulate to
jurisdiction if it does not otherwise exist.” (citing Wheeler v.
United States, 3 Cl. Ct. 686, 689 (1983))).
2
This court’s jurisdiction over takings claims is founded on
the Tucker Act, 28 U.S.C. § 1491(a)(1) (2012). Murray v. United
States, 817 F.2d 1580, 1582-83 (Fed. Cir. 1987).

App. 26
Sale Order, ECF No. 4-1. This suit was ﬁled on July 9,
2015. Because plaintiffs’ claims accrued on or before
July 5, 2009, they are untimely pursuant to 28 U.S.C.
§ 2501 (2012), the six-year statute of limitations for
takings claims brought in this forum. As explained
more fully below, defendant’s motion to dismiss this
case on jurisdictional grounds is GRANTED. In the
alternative, the complaint would also be dismissed for
failure to state a claim upon which relief may be
granted.
I.

Standard of Review for Motions Brought Under RCFC 12(b)(1)

When reviewing a complaint to determine its jurisdiction over a plaintiff ’s claims, this court must presume all undisputed factual allegations to be true and
construe all reasonable inferences in favor of the plaintiff. Scheuer v. Rhodes, 416 U.S. 232, 236 (1974), abrogated on other grounds by Harlow v. Fitzgerald, 457
U.S. 800, 814-15 (1982); Reynolds v. Army & Air Force
Exch. Serv., 846 F.2d 746, 747 (Fed. Cir. 1988) (citations
omitted). However, plaintiffs bear the burden of establishing subject matter jurisdiction, Alder Terrace, Inc.
v. United States, 161 F.3d 1372, 1377 (Fed. Cir. 1998)
(citing McNutt v. Gen. Motors Acceptance Corp. of Ind.,
298 U.S. 178, 189 (1936)), and must do so by a preponderance of the evidence, Reynolds, 846 F.2d at 748 (citations omitted). If jurisdiction is found to be lacking,
this court must dismiss the action. RCFC 12(h)(3).

App. 27
II.

Standard of Review for Motions Brought Under RCFC 12(b)(6)

It is well-settled that a complaint should be dismissed under RCFC 12(b)(6) “when the facts asserted
by the claimant do not entitle him to a legal remedy.”
Lindsay v. United States, 295 F.3d 1252, 1257 (Fed. Cir.
2002). When considering a motion to dismiss brought
under RCFC 12(b)(6), “the allegations of the complaint
should be construed favorably to the pleader.” Scheuer,
416 U.S. at 236. The court must not mistake legal conclusions presented in a complaint, however, for factual
allegations which are entitled to favorable inferences.
See, e.g., Papasan v. Allain, 478 U.S. 265, 286 (1986)
(“[W]e are not bound to accept as true a legal conclusion couched as a factual allegation.”) (citations omitted). The allegations of the complaint must state a
plausible claim for relief to survive a motion to dismiss
ﬁled under Rule 12(b)(6). See, e.g., Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) (“To survive a motion to dismiss, a complaint must contain sufﬁcient factual matter, accepted as true, to ‘state a claim to relief that is
plausible on its face.’ ” (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007))).
III.

Statute of Limitations, 28 U.S.C. § 2501

It is well-established that claims in this court
must be brought within six years of their accrual and
that this time limit is jurisdictional. See, e.g., Young v.
United States, 529 F.3d 1380, 1384 (Fed. Cir. 2008) (citing 28 U.S.C. § 2501 and John R. Sand & Gravel Co. v.
United States, 552 U.S. 130, 133-39 (2008)). “It is a

App. 28
plaintiff ’s knowledge of the facts of the claim that determines the accrual date.” Id. at 1385 (citations omitted); see Hopland Band of Pomo Indians v. United
States, 855 F.2d 1573, 1577 (Fed. Cir. 1988) (“[A] cause
of action against the government has ‘ﬁrst accrued’
only when all the events which ﬁx the government’s
alleged liability have occurred and the plaintiff was or
should have been aware of their existence.” (citing Kinsey v. United States, 852 F.2d 556, 557 n.* (Fed. Cir.
1988))). Binding precedent holds that equitable tolling
is not available to extend the limitations period in section 2501. John R. Sand & Gravel, 552 U.S. at 133-34,
139.
IV.

Factual Background

The amended complaint provides a detailed narrative of plaintiffs’ claims. Distilled to their essence,
the takings claims asserted here are as follows:
The Government’s demand that [plaintiffs’]
rights to assert successor liability claims
against [New General Motors (“New GM”)] be
extinguished in the [bankruptcy court’s] Sale
Order violated the Takings Clause of the Fifth
Amendment to the United States Constitution[.]
Am. Compl. ¶ 9, ECF No. 4. As a point of logic, for the
bankruptcy court to have complied with the government’s demand as memorialized in the July 5, 2009
“Sale Order,” the demand must have been made prior
to the issuance of that order, not afterward. Thus, any

App. 29
government action constituting a “demand” of the
bankruptcy court could not have been presented after
July 5, 2009, but, at the latest, must have been presented on or before July 5, 2009. Herein lies plaintiffs’
statute of limitations problem.
In this background section, the court presents a
brief review of the chronology of events asserted in the
complaint, as illuminated by the briefs plaintiffs ﬁled
in this case and by plaintiffs’ representations at oral
argument. The court will also discuss the procedural
history of the General Motors bankruptcy, but only to
the extent that this procedural history provides the
necessary facts for the resolution of defendant’s motion. The court reserves for the “jurisdictional analysis”
section of this opinion its discussion of claim accrual.
A. Plaintiffs’ Claims before the Bankruptcy
Court
Plaintiffs are either victims of accidents which occurred while driving General Motors vehicles, or the
family members or estates of those accident victims.3
ECF No. 4, at 8-11. Three speciﬁc accidents are referenced in the complaint, although the location of the accidents is not speciﬁed. The accident victims resided in
Pennsylvania, Louisiana and Utah, respectively. Id. All
3

The court limits its discussion of plaintiffs’ claims to the
named plaintiffs in this suit, but does not ignore the fact that this
litigation was brought as a class action. Given the court’s resolution of defendant’s motion to dismiss, plaintiffs’ request that their
suit be certiﬁed as a class action is moot.

App. 30
of the accidents occurred before the General Motors
bankruptcy in 2009. Id.
These plaintiffs’ legal claims against General Motors might best be described, collectively, as personal
injury tort claims, at least until General Motors became the subject of bankruptcy proceedings. Id. at 3;
see ECF No. 27, at 10 (describing plaintiffs’ claims, prebankruptcy, as “underlying personal injury product liability tort claims”).
The status of plaintiffs’ claims in early 2009, or
any details as to where such claims might have been
litigated cannot be discerned from the complaint. At
oral argument, plaintiffs’ counsel asserted that before
General Motors’ petition for bankruptcy was ﬁled,
“most of [plaintiffs’] claims had already been ﬁled . . .
[i]n state court.” Oral Argument Transcript (Tr.) at 84.
Plaintiffs’ counsel also asserted that in 2009, ﬁnal
judgment had not issued in favor of a claimant for the
vast majority of plaintiffs’ personal injury tort claims.
Id. at 113.
General Motors (“Old GM”) ﬁled its bankruptcy
petition on June 1, 2009. ECF No. 4, at 3. By that time,
the United States Treasury had provided Old GM with
several infusions of cash: (1) $13.4 billion in December
2008; (2) $6 billion on or about March 30, 2009; (3)
$2 billion in April 2009; and, (4) $4 billion in May 2009.
Id. at 12, 16-18. Soon after the bankruptcy petition was
ﬁled, the United States provided additional monies to
Old GM, so that the federal secured investment in Old
GM reached a level of $52.7 billion. Id. at 22.

App. 31
Plaintiffs, competing against the United States
and other Old GM creditors, were represented in Old
GM bankruptcy proceedings by the same counsel that
represents them here. Sale Opinion, ECF No. 4-2, at 3.
Plaintiffs do not dispute that their claims, in terms of
bankruptcy proceedings, were “unsecured.” ECF No. 4,
at 5-6; see ECF No. 23, at 4 (describing plaintiffs’ personal injury tort claims as “unsecured claims against
Old GM”). According to the complaint, plaintiffs’ claims
before the bankruptcy court are “estimated” to have
had a value of $300 million. ECF No. 4, at 34-35. Plaintiffs allege that they have received, and will receive, far
less than that amount from Old GM. Id. at 3 (alleging
that plaintiffs have received “a fraction of their stipulated allowed amount” established during the bankruptcy proceedings). Generally, the complaint
estimates that just compensation for these plaintiffs
under a takings theory would total no less than $200
million, not counting interest. Id. at 49.
B. Alleged Coercion by the United States Exerted Upon Old GM and the Bankruptcy
Court
Plaintiffs’ takings claims rest on allegations that
the United States took actions to obtain a particular
restructuring of Old GM by the bankruptcy court
which disfavored plaintiffs’ claims. As a threshold matter, nothing in the complaint alleges a judicial taking
by the bankruptcy court itself.4 Thus, the court has
4

The court agrees with defendant that binding precedent excludes from this court’s jurisdiction claims alleging that a judicial

App. 32
examined the complaint thoroughly for allegations of
government action that coerced Old GM and the bankruptcy court into a restructuring of Old GM that disfavored plaintiffs. As a starting point, the court turns to
plaintiffs’ description of the restructuring of Old GM.
The Old GM bankruptcy effected a sale of “substantially all” of Old GM’s assets to “New GM,” pursuant to 11 U.S.C. § 363(b),(f ) (2012). ECF No. 4, at 3. In
this type of sale, a “363 sale,” the acquiring entity may,
if certain conditions are met, obtain particular assets
from the bankruptcy petitioner and, at the same time,
avoid some of the liabilities of the petitioner. Id. Pursuant to these provisions, New GM obtained most of
Old GM’s assets free of plaintiffs’ personal injury tort
claims, and also obtained these assets “free and clear,”
11 U.S.C. § 363(f ), of plaintiffs’ “successor liability”
claims which could have been brought against New
GM. Id. at 4-5, 23.
Plaintiffs rely heavily on Michigan state law for
their deﬁnition of successor liability claims. ECF No. 4,
at 26-28; ECF No. 21, at 1-7. In essence, for plaintiffs’
purposes a successor liability claim is a personal injury
or product liability tort claim that is also viable against
a successor corporation that has acquired the assets of
the tortfeasor corporation. ECF No. 21, at 6-7.
Generally, the complaint alleges that the United
States “demanded that the order approving the [363]
taking occurred in the bankruptcy context. See ECF No. 8, at 2627 (citing Allustiarte v. United States, 256 F.3d 1349, 1351-52
(Fed. Cir. 2001)).

App. 33
Sale (the “Sale Order”) include a provision that enjoined [plaintiffs] from pursuing successor liability
claims against New GM, and the Bankruptcy Court included precisely such a provision in the [July 5, 2009]
Sale Order.” ECF No. 4, at 4. The government action
that is alleged to have effected the taking is the exertion of the federal government’s inﬂuence over both
Old GM and the bankruptcy court in order to obtain
the Sale Order extinguishing plaintiffs’ successor liability causes of action. Id. at 21-26, 28-31. The complaint describes the effect of the Sale Order in this
heading: “The Sale is Approved by the Bankruptcy
Court and the Rights of [Plaintiffs] to Assert Successor
Liability Claims Are Extinguished by the Sale Order.”
Id. at 30.
Referring to the federal government’s exertion of
inﬂuence, the complaint employs forceful language.5
The government is alleged to have “directed” Old GM
to exclude successor liability claims from the assumption of liabilities by New GM. Id. at 21. The government also “went the extra step of conditioning the
closing of the [363] Sale” on extinguishing plaintiffs’
successor liability claims against New GM. Id. at 26.
Further, plaintiffs were “singled out” by the government’s “arbitrary demand” that they bear more than
their fair share of Old GM’s ﬁnancial problems. Id. at
41, 43. The extinguishment of their successor liability
causes of action, which, according to plaintiffs, were
5

Plaintiffs’ briefs employ similar language. For example,
plaintiffs state that the government’s demand is effectuated by
“the most coercive of means.” E.g., ECF No. 13, at 7.

App. 34
property under the Fifth Amendment’s Takings Clause
jurisprudence, was the “direct and proximate result of
the Government’s actions.”6 Id. at 48. Applying the analytical framework developed recently by the United
States Court of Appeals for the Federal Circuit, plaintiffs’ takings claims allege government “coercion” of
third party actors, as opposed to a taking which is effected through direct government action. See A & D
Auto Sales, Inc. v. United States, 748 F.3d 1142, 115356 (Fed. Cir. 2014) (discussing the “coercion” theory for
a takings claim arising in the context of Old GM’s
bankruptcy).
The complaint’s speciﬁc references to government
coercive action, however, all point to activity that predates the Sale Order issued by the bankruptcy court.
These government actions began in the fall of 2008,
ECF No. 4, at 12, and achieved a signiﬁcant milestone
by May 30, 2009, id. at 21, when Old GM incorporated
the successor liability extinguishment provision in the
proposed Sale Agreement slated for ﬁling in the bankruptcy court on June 1, 2009. On June 1, 2009, another
milestone was met when the government’s proposed
conditions for the 363 Sale were incorporated in Old
GM’s bankruptcy ﬁlings that day. Id. at 22. A few days
later, terms of the Sale Agreement (that would later be
incorporated in the Sale Order) were altered to beneﬁt
6

The parties disagree as to whether plaintiffs’ successor liability claims are property so as to support a takings claim. The
court addresses this issue when it considers, in the alternative,
dismissal of this suit under RCFC 12(b)(6), although defendant
frames the issue as plaintiffs’ “lack of standing.” ECF No. 8, at 25.

App. 35
the automobile dealers, not plaintiffs. Id. at 29. The ﬁnalized version of the Sale Agreement submitted to the
bankruptcy court was dated June 26, 2009. ECF No. 41, at 53.
Lastly, just before entering the Sale Order on July
5, 2009, the bankruptcy court held a three-day evidentiary hearing, beginning on June 30, 2009 and ending
on July 2, 2009. ECF No. 4-1, at 2. Plaintiffs allege that
attorneys representing the United States were “on the
record” before the bankruptcy court, presumably in
briefs and/or at the evidentiary hearing. ECF No. 4, at
31. Attorneys for the United States are indeed listed as
counsel in the Sale Opinion which also issued on July
5, 2009. ECF No. 4-2, at 2. To the extent that coercive
government action could have occurred in the context
of the three-day hearing, that action would have been
completed on July 2, 2009. Assuming, arguendo, that
the United States continued to advocate for the extinguishment of plaintiffs’ successor liability claims up
until the day the Sale Order issued, those advocacy activities could not have extended past July 5, 2009,
when the Sale Order issued.7

7

How these facts determine claim accrual in this case will be
discussed in the jurisdictional analysis section of this opinion, infra.

App. 36
C. Subsequent History of the Sale Order and
Opinion8
The Sale Order ﬁled by the bankruptcy court on
July 5, 2009, established, in relevant part, the court’s
authorization for the 363 Sale, and granted injunctive
relief extinguishing plaintiffs’ successor liability
claims. ECF No. 4-1, at 1-2, 22-23. The Sale Opinion,
also entered on July 5, 2009, set forth the bankruptcy
court’s legal analysis of the 363 Sale and, in relevant
part, set forth the considered basis for the extinguishment of plaintiffs’ successor liability claims. ECF No.
4-2, at 58-69; see also In re Gen. Motors Corp., 407 B.R.
463, 499-506 (Bankr. S.D.N.Y. 2009) (subsequent history omitted). According to the complaint, the 363 Sale
closed on July 10, 2009. ECF No. 4, at 33. Old GM’s
bankruptcy proceeded thereafter at a more leisurely
pace, and a plan for the reorganization of Old GM went
into effect on March 31, 2011. Id. The court must go
beyond the complaint, however, to recount the pertinent litigation history of the Sale Order and Opinion
issued on July 5, 2009. The court notes, as evidence of
the scope and complexity of the General Motors bankruptcy, that some portions of this bankruptcy case continue to be litigated today. See, e.g., In re Motors

8

The court takes judicial notice of publicly available judicial
opinions in the General Motors bankruptcy litigation. See, e.g.,
Church of Spiritual Tech. v. United States, 26 Cl. Ct. 713, 726 &
n.26 (1992) (taking judicial notice of proceedings in other courts
relevant to the case at bar), aff ’d, 991 F.2d 812 (Fed. Cir. 1993)
(Table).

App. 37
Liquidation Co., No. 09-50026 (MG), 2017 WL 4417584,
at *1 (Bankr. S.D.N.Y. Oct. 4, 2017).
1. Review of the Sale Order and Opinion
Sought by Plaintiffs
Plaintiffs concede that they did not seek an immediate stay of the Sale Order from the bankruptcy judge.
ECF No. 13, at 27-28. Nor did they seek a stay of the
Sale Order from the district court. See In re Motors
Liquidation Co., 428 B.R. 43, 50-51 (S.D.N.Y. 20 10)
(noting that requests for a stay had been ﬁled by another group of plaintiffs with both the bankruptcy
court and the district court, but that the “Campbell Appellants,” i.e., the plaintiffs in the instant suit, did not
request a stay of the Sale Order in either forum). Instead, plaintiffs asked the bankruptcy judge to certify
a direct appeal to the United States Court of Appeals
for the Second Circuit. Id. at 50. That request was denied on July 7, 2009. In re Gen. Motors Corp., 409 B.R.
24, 29 (Bankr. S.D.N.Y. 2009).
Plaintiffs then ﬁled a timely appeal of the Sale Order and Opinion with the district court, which was denied as moot on April 13, 2010. In re Motors
Liquidation Co., 428 B.R. at 64. According to the district court, once the unstayed Sale Order was appealed,
the only possible rationale for undoing the 363 Sale
would have been that New GM was not a good faith
purchaser of Old GM’s assets. Id. at 54. Because plaintiffs did not argue in their appeal that New GM was
not a good faith purchaser, their failure to obtain a stay

App. 38
of the Sale Order rendered their appeal moot. Id. For
this and other reasons, plaintiffs’ appeal before the district court was denied, and the Sale Order and Opinion
were afﬁrmed. Id. at 64. Although the district court expressed some sympathy for the Campbell Appellants,
the court stated that the relief they requested would
“unravel” the 363 Sale and result in a “liquidation in
which they and other unsecured creditors would have
received nothing.” Id.
2. Extensive Litigation of the Terms of
the Sale Order after It Was Entered on
July 5, 2009
For context, the court provides a few examples of
the subsequent history of the Sale Order and Opinion.
An unsecured bondholder appealed the Sale Order on
multiple grounds, including an allegation that the federal government had taken his property interest by exerting inﬂuence over the terms of the 363 Sale. In re
Motors Liquidation Co., 430 B.R. 65, 95-96 (S.D.N.Y.
2010). This contention was rejected by the district
court. Id. at 95-97. In another facet of the case, the
breadth of the injunctive relief offered to New GM by
the Sale Order was litigated by the United Auto Workers union. In re Motors Liquidation Co., 457 B.R. 276,
293 (Bankr. S.D.N.Y. 2011). In yet another strand of
this litigation, the injunction included in the Sale Order was construed recently not to bar the claims of certain injured claimants. In re Motors Liquidation Co.,
829 F.3d 135, 157-58 (2d Cir. 2016), cert. denied sub
nom. Gen. Motors LLC v. Elliott, 137 S. Ct. 1813 (2017).

App. 39
This is just the tip of the iceberg of the subsequent history of the Sale Order and Opinion. The court observes
that the validity of the Sale Order and the interpretation of its various provisions have been vigorously and
continuously litigated from July 6, 2009 onward.
V.

Jurisdictional Analysis

When confronted with the statute of limitations
obstacle to this suit, the court considered whether the
solicitation of additional briefs on this precise issue
would have been appropriate. But this is not a case in
which the jurisdictional facts underlying the claims in
a complaint have not been adequately explained.
Plaintiffs have ﬁled two complaints and ﬁve briefs in
this case setting forth every pertinent fact required for
the court’s jurisdictional analysis. The General Motors
bankruptcy, as noted supra, has also produced a plethora of judicial opinions, including a decision from the
Federal Circuit discussing the precise type of claim
presented here, a government taking by the coercion of
third parties in the Old GM bankruptcy. A & D Auto,
748 F.3d at 1153-56. In these circumstances, another
round of brieﬁng focused solely on the accrual of plaintiffs’ takings claims in this suit would have offered no
additional helpful information to the court.
Moreover, the court cannot countenance further
delay in determining its jurisdiction over this suit. Defendant’s motion to dismiss this suit on jurisdictional
grounds was fully briefed as of January 19, 2016. Oral
argument was held by the judge previously assigned to

App. 40
this case on April 12, 2016, almost three months later.
Supplemental brieﬁng ensued exploring questions of
law inherent in plaintiffs’ unusual takings claims.
Plaintiffs and the government are entitled to a jurisdictional ruling on an amended complaint ﬁled more
than two years ago.
Further, the court observes that plaintiffs are now
proceeding before a third judicial forum in their quest
to obtain relief related to the extinguishment of their
successor liability claims against New GM by the
bankruptcy court in its Sale Order. To conserve the
parties’ and the federal judiciary’s resources, the court
is obliged to rule on its own jurisdiction in the most
expeditious manner. Because the factual record is very
well-developed, it is time for a jurisdictional ruling; the
parties may seek appellate review of the court’s claim
accrual analysis if, in their view, the court has erred.
Finally, the court observes that an alternative ground
for dismissal has been exhaustively briefed by the parties and is ripe, if not overripe, for decision.
A. A Takings Claim Must Identify the Government Action Which Constitutes the
Taking
Plaintiffs’ takings claims assert coercion by the
United States to induce the extinguishment of their
successor liability claims in the bankruptcy court’s
July 5, 2009 Sale Order. Am. Compl. ¶ 9, ECF No. 4.
Plaintiffs also assert that the accrual of their takings
claims did not occur until the 363 Sale closed on July

App. 41
10, 2009. Id. ¶ 168. Plaintiffs’ allegation as to the accrual of their takings claims, a conclusion of law, is neither correct nor entitled to deference. Papasan, 478
U.S. at 286.
The Federal Circuit has held that a takings plaintiff must “pinpoint what step in the sequence of events
. . . constituted conduct that the government could not
engage in without paying compensation.” Branch v.
United States, 69 F.3d 1571, 1575 (Fed. Cir. 1995). This
“step” is not necessarily the moment when the value of
property is destroyed – the diminishment in value of
the plaintiff ’s property may occur later, at another step
in the sequence of events. In Branch, for example, the
taking, if any, did not occur when a newly-insolvent
bank was seized and closed, but beforehand, when the
Federal Deposit Insurance Corporation assessed the
formerly-healthy bank with more than $1 billion in liability due to the insolvency of a sister bank owned by
the same holding company. Id. at 1574-75. This court is
tasked with ﬁnding in the complaint the government
action from which the alleged taking was the “direct
result.” Id. at 1575.
A similar analysis was performed in Acceptance
Insurance Cos. v. United States, 583 F.3d 849, 855-57
(Fed. Cir. 2009) (Acceptance) (citing Branch, 69 F.3d at
1575, among other authorities). The plaintiff in that
case attempted to point to a series of government actions, “collectively,” as a taking of the plaintiff ’s portfolio of insurance contracts. Id. at 854. The Federal
Circuit expressly rejected the plaintiff ’s identiﬁcation
of “the alleged taking as consisting of several distinct

App. 42
actions viewed in concert.” Id. at 855. Rather, the Federal Circuit found that the taking, if any, occurred
when a government authority refused to permit a speciﬁc sale to a speciﬁc purchaser of that portfolio of insurance contracts. Id. at 855-56. Subsequent actions,
such as the government’s alleged control of the sale of
individual insurance contracts to other purchasers,
were irrelevant to the takings analysis. Id. at 854-57.
The court identiﬁed the speciﬁc government action
that the plaintiff alleged had directly caused the taking of its property interest, and disregarded subsequent events such as the alleged loss of the plaintiff ’s
“entire . . . insurance business.” Id. at 855.
Guided by Acceptance and Branch, this court has
examined plaintiffs’ amended complaint closely to
identify the government action alleged to have directly
caused the extinguishment of their successor liability
claims against New GM. In the court’s view, the government action that directly caused that extinguishment occurred no later than July 5, 2009. Much like
the complaint reviewed in Acceptance, one speciﬁc government action predominates throughout plaintiffs’ allegations that a taking occurred. That particular
action was the coercion of Old GM and the bankruptcy
court into including the extinguishment of plaintiffs’
successor liability claims against New GM in the bankruptcy court’s July 5, 2009 Sale Order.

App. 43
B. Allegations that Coercive Government Action Directly Extinguished Plaintiffs’ Successor Liability Claims in the Sale Order
The complaint distinctly identiﬁes the government action that allegedly “took” plaintiffs’ property
interest. As noted supra, the “nature of this action” section of the complaint states that “[t]he Government’s
demand that [plaintiffs’] rights to assert successor liability claims against New GM be extinguished in the
Sale Order violated the Takings Clause of the Fifth
Amendment to the United States Constitution.” Am.
Compl. ¶ 9, ECF No. 4. The complaint goes on to state
that “the Government went the extra step of conditioning the closing of the Sale on [the] inclusion of a provision within the Sale Order that expressly extinguished
the rights of any Personal Injury Claimant to assert
successor liability claims against New GM.” Id. ¶ 107.
The government action is again identiﬁed near the
conclusion of the “factual allegations” section of the
complaint as follows: “[T]he Government refused to
yield one iota in its demand that the Sale Order contain broad language extinguishing all rights to assert
successor liability claims against New GM.” Id. ¶ 123.
The same government action is identiﬁed in plaintiffs’ opposition to defendant’s motion to dismiss. In
that brief, plaintiffs state that “[t]he Government conditioned its willingness to close the Sale on the GM
Bankruptcy Court’s including a provision in the Sale
Order extinguishing [plaintiffs’] rights to assert successor liability claims against New GM.” ECF No. 13,
at 10. Later in that brief, plaintiffs allege that their

App. 44
“takings claim is rooted in the Government’s coercive
demand that the Sale Order extinguish Plaintiffs’
rights to assert successor liability claims against New
GM.” Id. at 35. Plaintiffs conclude that “[t]he Complaint sufﬁciently alleges how the character of the Government’s actions went too far by requiring that the
Sale extinguish the Personal Injury Claimants’ successor liability rights.” Id. at 43.
In a supplemental brief ﬁled later in this litigation, plaintiffs focus their takings allegations quite
narrowly on the government’s coercion of third parties
to include particular provisions in the Sale Order, explaining:
Plaintiffs, however, do not allege the Sale itself was a taking of their unsecured claims
against Old GM. Instead, they allege a taking
occurred because of the Government’s coercive condition, targeted at Personal Injury
Claimants, that it would close the [363] Sale
only if the Sale Order included a provision
that enjoined these claimants from pursuing
successor liability claims against New GM.
ECF No. 23, at 4. Finally, in the most recent brief ﬁled
by plaintiffs, the government action once more identiﬁed is the coercion of third parties by the government
as to the terms of the Sale Order:
[T]he Government arbitrarily demanded that
personal injury claimants’ successor liability
claims be eliminated through the Sale Order. . . . Clearly, then, Plaintiffs’ injuries are
“fairly traceable” to the Government’s

App. 45
conduct, thus establishing the requisite causation for constitutional standing.
ECF No. 32, at 17-18. All of the allegations in the complaint and plaintiffs’ briefs are consistent. The government action alleged to have directly caused the taking
is the coercion of third parties to include an extinguishment provision in the July 5, 2009 Sale Order.
The takings claims in this case, ﬁled on July 9,
2015, are founded on allegedly coercive acts by the government that obtained a Sale Order that disadvantaged plaintiffs. Such coercive acts could not have
persisted later than July 5, 2009, the date the Sale Order issued. For this reason, plaintiffs’ claims accrued
on July 5, 2009 and are barred by the six-year statute
of limitations established by section 2501.
C. No Direct Causation Link between Government Action and the Extinguishment of
Rights to Pursue Successor Liability
Claims against New GM after July 5, 2009
The court has reviewed the complaint, plaintiffs’
briefs, and the opinions discussing the extinguishment
of successor liability claims against New GM issued by
both the bankruptcy court and the district court. Nowhere has the court found the slightest rational inference that the United States took any action targeting
the property interest alleged by plaintiffs after July 5,
2009. To be sure, the sequence of government actions
in the bankruptcy proceedings continued through July
10, 2009, when a government-controlled entity, New

App. 46
GM, participated as a party to the closing of the 363
Sale. Am. Compl. ¶ 3, ECF No. 4. However, any government action taken from July 6 to July 10, 2009 is not
the government action that directly caused the taking
alleged in this case. That complained of action, discussed supra, was the government’s demand that the
Sale Order include terms which would extinguish successor liability claims against New GM once the 363
Sale closed. Plaintiffs, pursuant to Acceptance and
Branch, cannot include every step in the sequence of
government actions to “collectively” frame their takings claim. A prior speciﬁc step, taken by the government no later than July 5, 2009, marks the point in
time when plaintiffs’ claims accrued.
D. No Coercion by the Government after July
5, 2009
The court is mindful, too, that the elements of a
taking founded upon the coercion of third parties in the
Old GM bankruptcy have been set forth in a binding
precedential opinion issued by the Federal Circuit.
These elements are not present in any action taken by
the United States after July 5, 2009. For example, a
clear line was drawn between the persuasion of third
parties by the federal government, which cannot create
a taking, and coercive action directed to third parties,
which may constitute a taking in certain circumstances. A & D Auto, 748 F.3d at 1154 (citations omitted). Here, no coercion could have occurred after July
5, 2009 because the conditioning of the 363 Sale upon
the extinguishment of plaintiffs’ successor liability

App. 47
claims against New GM had already occurred in the
Sale Order.9 Because no coercion, and thus no taking,
occurred after July 5, 2009, plaintiffs’ takings claims
accrued no later than July 5, 2009.
E. No Judicial Taking of Plaintiffs’ Successor
Liability Claims
The complaint does not contain an allegation that
the bankruptcy court’s actions in Old GM’s bankruptcy
constituted a judicial taking. To the extent that plaintiffs’ complaint could be read to include such an allegation, the court ﬁnds that the injunctive relief provided
New GM by the Sale Order could not have effected a
judicial taking under the binding precedent of Allustiarte v. United States, 256 F.3d 1349, 1351-52 (Fed. Cir.
2001). That holding forecloses the prosecution of a takings claim in this court which would require a review
of the effect of a bankruptcy court’s rulings on a plaintiff ’s property rights. Id.; cf. A & D Auto, 748 F.3d at
1153 (commenting that bankruptcy law, in existence
before contractual rights were obtained by the plaintiffs in that suit, defeated any inference that the automobile dealers possessed a compensable property
interest that could be taken by the bankruptcy court).
Thus, even if plaintiffs had asserted a judicial takings
claim, such a claim would be beyond this court’s jurisdiction. Cf. Tr. at 79 (plaintiffs’ counsel) (stating that

9

It is difﬁcult to imagine that there was even any persuasive
activity by the United States taking place once the Sale Order
issued.

App. 48
on these facts, it was “possible” that a judicial taking
had occurred).
As part of its accrual analysis, however, the court
notes that, as of July 5, 2009, the Sale Order was the
most direct cause of the extinguishment of plaintiffs’
successor liability claims. The terms of the Sale Order
were enforced by the bankruptcy court thenceforward,
and it was the bankruptcy court that ruled on various
appeals seeking relief from the Sale Order. To the extent that there could have been a taking of plaintiffs’
successor liability claims against New GM after July
5, 2009, the government actor capable of such action
was the bankruptcy court, not the federal ofﬁcials who
participated in the closing of the 363 Sale. For all of the
above reasons, plaintiffs’ takings claims accrued on or
before July 5, 2009, and are barred by this court’s sixyear statute of limitations.
VI.

Property Interest Analysis

Although defendant’s property interest arguments
focus on plaintiffs’ standing to bring this suit, ECF No.
8, at 22-25, and thus question this court’s jurisdiction
over plaintiffs’ takings claims, the court believes the
property interest issue is better addressed as the complaint’s failure to state a claim upon which relief may
be granted. Indeed, in Adams v. United States, 391 F.3d
1212 (Fed. Cir. 2004), the case upon which defendant
extensively relies for its property interest arguments,
the Federal Circuit afﬁrmed the dismissal of a takings
complaint for failure to state a claim upon which relief

App. 49
might be granted. Id. at 1214. Because plaintiffs have
included a nonfrivolous allegation that they possessed
a property interest that was taken by government action, disputes over the sufﬁciency of that property interest go more to the plausibility of their claims, under
RCFC 12(b)(6), than to jurisdictional concerns. See,
e.g., Jan’s Helicopter Serv., Inc. v. F.A.A., 525 F.3d 1299,
1309 (Fed. Cir. 2008) (holding that when “complaints
contain nonfrivolous allegations that [the plaintiffs]
fall within a protected class under the Fifth Amendment, the Court of Federal Claims has jurisdiction to
consider those complaints under the Tucker Act”).
A. The Property Interest Alleged by Plaintiffs
in the Complaint
As the court has discussed earlier in this opinion,
the complaint identiﬁes plaintiffs’ property interest
that was allegedly taken by the government. Although
there are various descriptive statements of the property interest of concern in the complaint, the most succinct and accurate characterization of plaintiffs’
property interest can be found in this phrase: the
“rights to assert successor liability claims against New
GM.” Am. Compl. ¶ 9, ECF No. 4. The parties hotly dispute whether plaintiffs’ property interest is cognizable
as property for purposes of a takings claim. The court
has considered all of the parties’ arguments, and concludes that the property interest identiﬁed in the complaint is not a cognizable one that supports a takings

App. 50
claim in this court.10 See, e.g., Adams, 391 F.3d at 1218
(requiring that this court ﬁrst determine “whether the
claimant possessed a cognizable property interest in
the subject of the alleged taking for purposes of the
Fifth Amendment”) (citation omitted).
It is important to distinguish the personal injury
tort claims against Old GM, which survived the Sale
Order, and the successor liability claims against New
GM, which did not. Most of plaintiffs’ brieﬁng acknowledges this distinction. See, e.g., ECF No. 13, at 9 (question presented by this case) (“Are the Personal Injury
Claimants’ rights to assert successor liability causes of
action against New GM compensable property interests within the meaning of the Fifth Amendment?”); id.
at 13 (“First, the Government fails to distinguish between Plaintiffs’ underlying tort claims against Old
GM and the wholly separate right to assert successor
liability claims against New GM. It is the latter that
were extinguished in the Sale Order, not the former.”);
ECF No. 23, at 4 (“[I]t is the impairment of Plaintiffs’
successor liability claims against a non-debtor, New
GM – not the impairment of their unsecured claims
against the debtor, Old GM – that forms the gravamen
of the Complaint.”); id. (“Plaintiffs, however, do not allege the Sale itself was a taking of their unsecured
claims against Old GM.”); see also Tr. at 101 (plaintiffs’

10

In the interests of efﬁciency, the court addresses only the
most pertinent arguments in this regard presented by the parties
during the course of this litigation.

App. 51
counsel) (describing plaintiffs’ property interest as the
“right to bring a successor liability claim”).
As brieﬁng continued, however, plaintiffs’ description of their property interest became more convoluted,
as they presented the following:
Here, the underlying “legally protected” property interests that establish Plaintiffs’ constitutional standing to assert a takings claim
against the Government are the personal injury products liability claims held by each
Plaintiff and each member of the putative
class. It is these claims for debilitating, even
deadly, injuries to their bodies that were protected by the successor liability claims they
had the right to assert against New GM and
it is these claims that the Government caused
to be extinguished in the Sale in contravention of the Takings Clause.
ECF No. 27, at 4. This is a very elaborate argument,
indeed. Plaintiffs appear to allege, at least in this brief,
that it was the ﬁrst property right (the tort claims
against Old GM), protected by a second property right
(the successor liability claims against New GM), that
was taken by the Sale Order.
Plaintiffs’ characterization of their property interest then evolves even further in their ﬁnal brief. In that
brief, plaintiffs merge all of their property interests
into a vague and general “right to compensation”:
Plaintiffs’ legally-protected interest is their
right to compensation – from any source – for

App. 52
personal injuries caused by product defects in
cars manufactured by Old GM.
ECF No. 32, at 8. Unfortunately for plaintiffs, neither
the facts alleged in the complaint, nor the takings jurisprudence guiding this court, support their increasingly tangled efforts to identify the property interest
that was taken by the government.
The focus of the complaint is on the provisions in
the Sale Order that extinguished plaintiffs’ rights to
bring successor liability claims against New GM. Am.
Compl. ¶¶ 9, 107, 123, ECF No. 4. The alleged taking
in the complaint is of a clearly deﬁned property interest; and that right to bring successor liability claims
against New GM is the only property interest in these
circumstances which ﬁts within the coercion framework established by A & D Auto. See 748 F.3d at 115253 (holding that the conditioning of the government’s
bail-out of the auto companies upon the termination of
the plaintiffs’ franchise agreements was possibly a taking of the auto dealers’ property interests in those terminated agreements). Here, the extinguished “rights
to bring successor liability claims against New GM,”
Am. Compl. ¶ 9, ECF No. 4, are analogous, in many respects, to the terminated franchise agreements in A &
D Auto, and this is the particular property interest underlying plaintiffs’ takings claims.

App. 53
B. State Law Property Interest in Rights to
Bring Successor Liability Claims
Plaintiffs rely on Michigan state law as a tool for
understanding the dimensions of plaintiffs’ property
interest in their successor liability claims. Am. Compl.
¶ 157, ECF No. 4; ECF No. 21, at 1-7; Tr. at 49, 80, 128.
Defendant does not agree that Michigan state law is
controlling here. ECF No. 22, at 1-3. The court need
not decide this issue. In the circumstances of the
General Motors bankruptcy, as explained below, any
state law right to bring successor liability claims was
limited by federal bankruptcy law and the highly
contingent nature of plaintiffs’ property interest. See
Bair v. United States, 515 F.3d 1323, 1327 (Fed. Cir.
2008) (“Despite the statements in a number of Supreme Court cases referring to the creation of property
interests by state law, the Court has recognized that
state-created property interests may be limited by
federal laws, even in the area of real property.”);
Adams, 391 F.3d at 1219 (“ ‘[E]xisting rules or understandings that stem from an independent source,’ such
as state, federal, or common law, create and deﬁne the
dimensions of property interests for purposes of establishing a cognizable right and hence a potential
taking.” (quoting Lucas v. S.C. Coastal Council, 505
U.S. 1003, 1030 (1992))). For the sole purpose of its
property interest analysis, however, the court accepts
plaintiffs’ inference that Michigan state law deﬁnes

App. 54
their rights to bring successor liability claims against
New GM.11
C. Bankruptcy Law Governing Section 363
Sales Predates Plaintiffs’ Personal Injury
Claims and Their Rights to Bring Successor Liability Claims against New GM
As a threshold matter, the named plaintiffs in this
suit base their claims on accidents which occurred, respectively, in 1994, 2004 and 2006. Am. Compl. ¶¶ 2026, ECF No. 4. Section 363(b) of the Bankruptcy Code,
which authorized the 363 Sale in this case, predates
those events, and any claims which might be founded
on those accidents, by a number of years. See, e.g., In
re Chrysler LLC, 405 B.R. 84, 94 (Bankr. S.D.N.Y. 2009)
(subsequent history omitted) (noting that asset sales
have been authorized under section 363(b) since 1978).
Although the enactment date of section 363(b) is not
dispositive for the property interest analysis required
11

Plaintiffs state:
[T]here are no individualized issues of law. Each Class
member had successor liability rights against New GM
that were extinguished in the 363 Sale. Regardless of
which of the 50 states that Class member lived or was
injured, each Class member also had the right to assert
successor liability claims against New GM in Michigan,
which was New GM’s principal place of business and
which recognizes rights to assert successor liability
claims under a multitude of theories, none of which are
unique to any particular member of the Class. . . .
Am. Compl. ¶ 157, ECF No. 4. The complaint does not specify
where plaintiffs’ personal injury tort claims against Old GM were
ﬁled.

App. 55
here, see A & D Auto, 748 F.3d at 1152-53 (stating that
it was the date of the challenged government action,
not the date the bankruptcy law was enacted, that determined what law “inhered” in the title of the property
owned by the takings plaintiffs in that suit), existing
bankruptcy law at the time Old GM ﬁled for bankruptcy, under the particular circumstances of this case,
plays a greater role than it did in A & D Auto.
D. Plaintiffs’ Asserted Property Interest Is
Too Contingent to be Cognizable under
Takings Jurisprudence Binding upon This
Court
One of the key differences between A & D Auto
and this case is that plaintiffs here assert a highly contingent property interest, instead of a contract-based
property interest that was ﬁrmly enshrined in takings
jurisprudence, as was the case in A & D Auto. 748 F.3d
at 1152 (citing cases). Plaintiffs’ “rights to bring successor liability claims against New GM,” Am. Compl.
¶ 9, ECF No. 4, are entirely contingent upon two discretionary acts of the federal government: (1) a government ﬁnancial intervention so that a New GM could be
created; and, (2) a government intervention so that Old
GM could ﬁle for bankruptcy requesting a 363 sale.
Until these two discretionary acts occurred, the property interest asserted by plaintiffs in their complaint
did not exist, because there was no New GM to sue.
Thus, applying A & D Auto, the challenged government action in this suit was contemporaneous with

App. 56
plaintiffs’ emergent right, created through the government bail-out of General Motors and the bankruptcy
proceedings, to bring successor liability claims against
New GM. In these circumstances, the powers accorded
the bankruptcy court by section 363 inhered in and
limited plaintiffs’ property interest, because that
highly contingent interest, from its inception, was targeted for – and was subject to – extinguishment by the
conditions that the government imposed on the 363
Sale. A highly contingent property interest of this kind
cannot support a takings claim.
E. Analogous Cases of Highly Contingent
Property Interests
Plaintiffs have had the opportunity to ﬁle ﬁve
briefs, and present oral argument, where they could
have identiﬁed even one case where a successor liability claim was found to be a cognizable property interest
in support of a takings claim. But, plaintiffs have
brought no such case to the attention of the court, even
in the broader context of mergers and corporate sales.
As to the more speciﬁc context of bankruptcy proceedings, plaintiffs have again failed to muster a single
case citation that shows that an unsecured successor
liability claim was held to be cognizable property for
the purpose of a takings analysis. Nor has the court
found any judicial decision which concluded that the
right to bring unsecured successor liability claims
against the purchaser in a 363 sale – such as the one
at issue in this case – is a property interest sufﬁcient
to support a takings claim.

App. 57
The government observes that a district court
judge reviewing the 363 Sale rejected the proposition
that unsecured claims in that proceeding constituted a
property interest sufﬁcient to support a takings claim.
See In re Motors Liquidation Co., 430 B.R. at 96 (citation omitted). A similar expression of this view of takings law can be found in another bankruptcy case. See
In re Chrysler LLC, 405 B.R. at 111-12 (holding that
“an unsecured claim [does not satisfy the] necessary
prerequisite to a Fifth Amendment Takings Clause
claim in the bankruptcy context”) (citation omitted).
These categorical holdings do not necessarily comport
with A & D Auto, which found that contract-based
rights, which appear to have been treated as unsecured
claims in the Old GM bankruptcy, were indeed property interests protected by the Fifth Amendment. 748
F.3d at 1149, 1153. The court notes, too, that a bankruptcy court in Michigan has found that one type of
unsecured claim in bankruptcy proceedings encompassed a property interest sufﬁcient to support a takings claim. In re City of Detroit, 524 B.R. 147, 270
(Bankr. E.D. Mich. 2014). From this review of takings
jurisprudence, the fact that a property interest is protected only by an unsecured claim in bankruptcy proceedings is not dispositive for the takings analysis, at
least in this circuit.
Unfortunately for plaintiffs, however, binding
precedent in this circuit removes highly contingent
property interests, such as the one that underlies the
takings claim in this suit, from the ambit of the Takings Clause. The court cites just a few examples in this

App. 58
regard. The guiding principle in these cases is that federal law, including bankruptcy law, may inhere in and
limit property interests that otherwise exist under
state law. Bair, 515 F.3d at 1327-31. Indeed, the fact
that the federal law predated the creation of the state
law property interest is generally dispositive, even
when the government action enforcing or triggering
the federal law postdates the creation of the state law
property interest.12 See id. at 1329 (“The federal statute thus limited the petitioners’ later-arising, statecreated property interests, even though the state liens
arose before the [federal secured] progress payments
were made and the enforcement of the federal statute
reduced the value of the state liens.”) (footnote omitted). Following Bair, here plaintiffs’ “rights to bring
successor liability claims against New GM,” Am.
Compl. ¶ 9, ECF No. 4, were “preempted” by section
363 and were not “compensable” under takings jurisprudence in this circuit. Id. at 1331.
Adams, the case extensively relied upon by defendant, is also instructive. The Federal Circuit
acknowledged that a cause of action may sometimes
constitute a property interest for purposes of the
12

As noted above, in A & D Auto, this general principle did
not apply. 748 F.3d at 1152-53 (citing Bair, 515 F.3d at 1331). But
this case is distinguishable from A & D Auto because the property
interest here did not exist until the government intervened in Old
GM’s ﬁnancial troubles, directed the restructuring of Old GM’s
debts, created New GM, and conditioned the 363 Sale on the extinguishment of plaintiffs’ right to bring successor liability claims
against New GM, which coincides with the time that plaintiffs’
property interest arose, allegedly, under state law.

App. 59
Takings Clause. 391 F.3d at 1225-26. The cause of action must, however, “protect[ ] a legally-recognized
property interest.” Id. at 1226 (citation omitted). When
the cause of action protects an interest in land, undoubtedly a property interest that supports a takings
claim, the cause of action is itself a property interest
for takings purposes. Id. (noting one such cause of action, which “was to recover compensation for an interest in land, a property interest cognizable under
established takings jurisprudence because land is, beyond question, property under state and common law”
(citing Alliance of Descendants of Tex. Land Grants v.
United States, 37 F.3d 1478, 1481 (Fed. Cir. 1984))).
Where, however, the cause of action is not protecting a
“recognized” property right, it is not itself a compensable property interest. Id.
When the plaintiffs in Adams failed to cite “any
precedent ﬁnding such a [cognizable] property interest
in a claim of Government liability before an administrative agency,” which was the type of cause of action
at issue in that case, they failed to establish that their
cause of action was a property interest sufﬁcient to
support a takings claim. Id. Here, too, plaintiffs have
failed to cite any precedent for ﬁnding that successor
liability claims constitute a property interest sufﬁcient
to support a takings claim.13 See supra. Just as in
13

Plaintiffs’ reliance on Abrahim-Youri v. United States, 139
F.3d 1462 (Fed. Cir. 1997) is misplaced, for two reasons. First, the
issue on appeal in Abrahim-Youri was not whether the takings
plaintiffs in that case possessed a compensable property interest,
but whether they had suffered an avoidable economic loss because
of the alleged taking, and whether they had reasonable

App. 60
Adams, 391 F.3d at 1214, 1226, plaintiffs’ takings
claims must be dismissed for failure to state a claim
upon which relief may be granted.
Finally, the Acceptance decision clearly establishes that a highly contingent property interest is not
afforded the protections of the Takings Clause. The
Federal Circuit determined that the alleged taking in
that case was a speciﬁc action of the United States Department of Agriculture’s Risk Management Agency
(RMA). The alleged taking was effected by “the RMA’s
rejection of the proposed sale to Rain & Hail [LLC] of
[plaintiff ’s] portfolio of insurance policies.” Acceptance,
583 F.3d at 855-56. The court then identiﬁed the property interest that was taken by the RMA’s rejection of
that sale. Id. at 856-57. Simply put, the property interest was “Acceptance’s ability to freely sell [its] insurance portfolio to Rain & Hail.” Id. at 857.
Relying on a number of cases where a right to sell
property or a right to enjoy property in a particular
way was limited by federal law, the Acceptance court
held that the plaintiff ’s right to sell its portfolio to a
particular buyer was not unfettered, even though a
property right embodied in a contract might otherwise,
under state law, be freely sold or assigned. Id. at 85759. The court stated, for example, that “because the
RMA had the authority to deny the sale of the policies
at issue, Acceptance, through [its subsidiary], did not
expectations as to the investment value of their property. Id. at
1468. Second, Abrahim-Youri contains no mention of successor liability claims.

App. 61
possess the unfettered right to sell or otherwise transfer the policies, thus precluding the existence of a cognizable property interest.” Id. at 858 (citations
omitted). The Federal Circuit concluded that the property interest alleged to have been taken was contingent on a discretionary decision of the RMA, and
therefore was not compensable under the Takings
Clause:
In other words, when the RMA decided to disapprove of the sale to Rain & Hail, there was
no right to freely alienate the policies extant
in Acceptance[ ] with which that decision interfered. Essentially, Acceptance asks us to
recognize a cognizable property right in a decision by the RMA not to exercise its authority
to reject the sale of insurance policies subject
to the crop insurance regulatory scheme. We
decline to do that.
Id. Acceptance thus stands for the proposition that
when a property interest is contingent on a favorable
decision of a federal agency, it is not a cognizable property interest under the Takings Clause.
Here, plaintiffs assert a property interest in their
“rights to bring successor liability claims against New
GM.” Am. Compl. ¶ 9, ECF No. 4. At the time that the
property interest arose, the government possessed the
discretion to extinguish, or not extinguish, that property interest as a condition of the 363 Sale. Once the
government exercised its discretion, plaintiffs’ highly

App. 62
contingent property interest was extinguished.14 Following Acceptance, federal bankruptcy law, particularly the powers accorded the bankruptcy court by
section 363, and the federal government’s discretionary right to condition its investment in New GM on the
extinguishment of plaintiffs’ successor liability claims
against New GM, inhered in plaintiffs’ property interest such that plaintiffs’ property interest was not a cognizable property interest under the Takings Clause.
VII. Conclusion
For the reasons stated in this opinion, plaintiffs’
claims must be dismissed for lack of subject matter jurisdiction because they were untimely ﬁled under 28
U.S.C. § 2501. Even if this suit had been timely ﬁled,
the complaint fails to state a claim upon which relief
may be granted. Accordingly, defendant’s motion to dismiss, ECF No. 8, is GRANTED. The clerk’s ofﬁce is directed to ENTER ﬁnal judgment for defendant

14

As plaintiffs noted at oral argument, the bankruptcy court
had no choice but to accept the government’s conditions for the
363 Sale, because the alternative was economically unacceptable.
Tr. at 96, 98-99, 130-31. The bankruptcy judge appears to have
shared this view of the facts. See, e.g., In re Gen. Motors Corp.,
409 B.R. at 32-34 (predicting dire economic consequences if the
363 Sale did not close within the timeframe speciﬁed by the government); cf. In re Motors Liquidation Co., 457 B.R. at 285 (noting
that “[a]s is customary in 363 transactions, the [Sale] Order,
which was 50 pages long, was drafted by the movants (and, perhaps other parties in interest) for [the bankruptcy judge’s] review,
approval, and ultimate entry”).

App. 63
DISMISSING plaintiffs’ amended complaint, without
prejudice.
IT IS SO ORDERED.
s/ Patricia Campbell-Smith
PATRICIA CAMPBELL-SMITH
Judge

App. 64
In the United States Court of Federal Claims
No. 15-717C
(E-Filed: March 23, 2018)
CALLAN CAMPBELL,
et al.,
Plaintiffs,
v.
THE UNITED STATES,
Defendant.

)
)
)
)
)
)
)
)
)

Motion for Reconsideration, RCFC 59; Motion
for Leave to File an
Amended Complaint,
RCFC 15(a); Reconsideration Denied; Futile
Request to Amend
Complaint Denied.

Steve Jakubowski, Chicago, IL, for plaintiffs. Robert M.
Winter and Catherine A. Cooke, Chicago, IL, of counsel.
John J. Todor, Senior Trial Counsel, with whom were
Chad A. Readler, Acting Assistant Attorney General,
Robert E. Kirschman, Jr., Director, Franklin E. White,
Jr., Assistant Director, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, for defendant.
OPINION
CAMPBELL-SMITH, Judge.
The court has before it plaintiffs’ combined motion
for reconsideration, motion to amend the judgment,
and motion for leave to ﬁle a second amended complaint, ECF No. 35, which is brought pursuant to Rules
59 and 15(a) of the Rules of the United States Court of

App. 65
Federal Claims (RCFC). The motion has been fully
briefed. See Def.’s Resp., ECF No. 37; Pls.’ Corrected
Reply, ECF No. 39. For the reasons set forth below,
plaintiffs’ motion is DENIED.
I.

Procedural Background

Plaintiffs now rely on a proposed Second Amended
Class Action Complaint, ECF No. 35-1, to clarify their
claims and to add additional factual allegations which,
in their view, justify reconsideration of the dismissal of
their claims by this court, see ECF No. 35 at 6 (stating
that the proposed Second Amended Complaint “clariﬁe[s]” the claim accrual issue in this case), 7 (noting
the “additional jurisdictional facts contained in the
Second Amended Complaint”), 10 (referencing the
facts that “the Second Amended Complaint now establishes”), 13 (relying on the “new jurisdictional facts
ple[ ]d in the Second Amended Complaint”), 14 (stating
that the Second Amended Complaint will remedy “a
lack of adequate factual exposition”); see also ECF No.
39 at 5 (acknowledging plaintiffs’ prior “lack of precision in alleging [their] takings claims”). The court observes that not only does the proposed Second
Amended Complaint supply additional allegations of
fact, it also reshapes the description of plaintiffs’ takings claims and the facts already alleged. For the
court’s consideration of plaintiffs’ motion for reconsideration, the court relies, in part, on the allegations contained in plaintiffs’ proposed Second Amended
Complaint, but also relies on prior representations to
this court found in the First Amended Class Action

App. 66
Complaint, ECF No. 4, and the briefs that plaintiffs
have ﬁled during the course of this litigation.
Familiarity with the court’s opinion that is the
subject of plaintiffs’ motion, Campbell v. United States,
134 Fed. Cl. 764 (2017) (Campbell), is presumed. The
overall issue presented in the three complaints proffered by the plaintiffs in this suit is whether the government’s speciﬁc conditions placed on its ﬁnancial
bail-out of General Motors Corporation constituted a
taking of these plaintiffs’ personal injury claims. Plaintiffs’ personal injury suits ﬁled against Old GM were
greatly affected by the General Motors bankruptcy in
2009. Id. at 767-68. Further, in the GM bankruptcy proceedings plaintiffs’ opportunity to bring successor liability suits against New GM were extinguished. Id. at
772-73, 775.
This case was dismissed for lack of subject matter
jurisdiction because the original complaint was not
ﬁled within six years of claim accrual. Id. at 773. The
court found that the “coercive” government action that
was alleged to have caused the taking of plaintiffs’ successor liability claims could not have extended past the
date when the bankruptcy court issued its Sale Order
on July 5, 2009. Id. Because plaintiffs’ suit was ﬁled on
July 9, 2015, more than six years later, it was untimely
ﬁled under 28 U.S.C. § 2501 (2012).
In the alternative, the court held that plaintiffs’
claims would necessarily have been dismissed for failure to state a claim upon which relief may be granted.
Campbell, 134 Fed. Cl. at 779. The only property right

App. 67
asserted by plaintiffs to have been taken was a highly
contingent right to bring successor liability claims that
“was not a cognizable property interest under the Takings Clause.” Id. Thus, even if plaintiffs’ claims had
been timely ﬁled, the complaint would have been dismissed, in any event, for failure to state a plausible
takings claim. Id. at 774, 779.
II.

Standard of Review for Motions Brought under
RCFC 59

Pursuant to the rules of this court, a plaintiff may
be granted reconsideration of the court’s disposition of
a case “for any reason for which a new trial has heretofore been granted in an action at law in federal court
[or] for any reason for which a rehearing has heretofore
been granted in a suit in equity in federal court.” RCFC
59(a)(1)(A)-(B). “The decision whether to grant reconsideration lies largely within the discretion of the
[trial] court.” Yuba Natural Res., Inc. v. United States,
904 F.2d 1577, 1583 (Fed. Cir. 1990) (citations omitted).
The motion for reconsideration “must be based on a
manifest error of law or mistake of fact and must show
either: (1) that an intervening change in the controlling law has occurred; (2) that previously unavailable
evidence is now available; or (3) that the motion is necessary to prevent manifest injustice.” First Fed. Lincoln Bank v. United States, 60 Fed. Cl. 501, 502 (2004)
(citations omitted).

App. 68
III. Standard of Review for Motions Brought under
RCFC 15(a)(2)
Plaintiffs’ motion is also brought under RCFC
15(a)(2), which states that “[t]he court should freely
give leave [to amend a pleading] when justice so requires.” Id. Leave to amend a pleading should not be
granted, however, when the proposed amendment
would be futile. Foman v. Davis, 371 U.S. 178, 182
(1962). Amendment of a complaint to present claims
outside of this court’s jurisdiction would be futile. E.g.,
Marchena v. United States, 128 Fed. Cl. 326, 332
(2016), aff ’d, 702 F. App’x 988 (Fed. Cir. 2017) (table);
Ishler v. United States, 115 Fed. Cl. 530, 541 (2014);
Van Vorst v. United States, 85 Fed. Cl. 227, 233 (2008);
Emerald Coast Finest Produce Co. v. United States, 76
Fed. Cl. 445, 452 (2007); Saladino v. United States, 62
Fed. Cl. 782, 795 (2004).
In addition, when the proposed amended complaint fails to state a claim upon which relief may be
granted, the court should deny the motion to amend as
futile. E.g., Leider v. United States, 301 F.3d 1290, 1299
n.10 (Fed. Cir. 2002); Mitsui Foods, Inc. v. United
States, 867 F.2d 1401, 1404 & n.4 (Fed. Cir. 1989) (citing Foman, 371 U.S. at 182); Marchena, 128 Fed. Cl. at
334. The appropriate test for futility, when there is a
question as to whether the proposed amended complaint states a claim upon which relief may be granted,
is the plausibility test delineated by the Supreme
Court in Ashcroft v. Iqbal, 556 U.S. 662 (2009) (Iqbal)
and Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007)
(Twombly). E.g., A & D Auto Sales, Inc. v. United

App. 69
States, 748 F.3d 1142, 1159 (Fed. Cir. 2014); Marchena,
128 Fed. Cl. at 333. Under this test, the allegations of
the proposed amended complaint must state a plausible claim for relief. See, e.g., Iqbal, 556 U.S. at 678 (“To
survive a motion to dismiss, a complaint must contain
sufﬁcient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’ ”) (quoting
Twombly, 550 U.S. at 570).
IV.

Discussion
A. Claim Accrual

Plaintiffs’ briefs do not argue that the Campbell
opinion contained factual errors regarding the chronology of events relevant to claim accrual. Nor do plaintiffs dispute this court’s ﬁnding that the type of
“taking” at issue in their claims is the alleged coercion
of third parties by the federal government during the
GM bankruptcy. Instead, plaintiffs contend that the
court’s legal analysis of the claim accrual question was
ﬂawed due to an incomplete presentation of facts in the
First Amended Complaint, and because the court’s analytical framework was incorrect.
The court has carefully considered the new allegations of fact in the proposed Second Amended Complaint, as well as plaintiffs’ arguments based on those
factual allegations and takings jurisprudence, and
ﬁnds no reason to conclude that plaintiffs’ takings
claims accrued on July 9 or July 10, 2009, rather than
on July 5, 2009. Once the bankruptcy court entered the
Sale Order on July 5, 2009, any alleged government

App. 70
coercion of third parties, as “coercion” is deﬁned in this
context by A & D Auto, 748 F.3d at 1153-56, ceased. The
court turns to the principal arguments presented by
plaintiffs on the topic of claim accrual.1
1. July 10, 2009 363 Sale Closing Date Proposed as the Accrual Date
As previously asserted in their First Amended
Complaint, ECF No. 4 at 39, plaintiffs aver that their
takings claims accrued on July 10, 2009, the closing
date of the 363 Sale which conveyed many of Old GM’s
assets to New GM, ECF No. 35 at 9-12.2 In support of
this accrual date, plaintiffs argue, ﬁrst, that precedential takings cases require that the government exert
“effective control” over property before a taking can occur and the related takings claim can accrue. Plaintiffs
rely on Cuban Truck & Equipment Co. v. United States,
333 F.2d 873, 878 (Ct. Cl. 1964), and Turney v. United
States, 126 Ct. Cl. 202, 214 (1953), for this proposition.
1

The court has considered all of plaintiffs’ arguments but
limits its discussion here to the most substantial arguments
raised in plaintiffs’ briefs. Although plaintiffs rely, in part, on decisions issued by this court to establish precedent, the court’s focus here is primarily on authorities which provide binding
precedent. See, e.g., W. Coast Gen. Corp. v. Dalton, 39 F.3d 312,
315 (Fed. Cir. 1994) (“Court of Federal Claims decisions, while
persuasive, do not set binding precedent for separate and distinct
cases in that court.”) (citations omitted).
2
As explained in Campbell, in a “363 sale” under 11 U.S.C.
§ 363(b), (f) (2012), “the acquiring entity may, if certain conditions
are met, obtain particular assets from the bankruptcy petitioner
and, at the same time, avoid some of the liabilities of the petitioner.” 134 Fed. Cl. at 768.

App. 71
ECF No. 35 at 10-11; ECF No. 39 at 12-13. Both of
these cases involved physical property (trucks or radar
equipment) over which the United States military exercised some amount of physical control. The accrual
of the takings claims in Cuban Truck and Turney is not
at all analogous to the accrual of plaintiffs’ takings
claims based on the government’s alleged, non-physical coercion of third parties; the holdings in those two
cases in no way militate for an accrual date of July 10,
2009, for plaintiffs’ takings claims in this case.
Plaintiffs next turn, ECF No. 35 at 10-12; ECF No.
39 at 12, to the Dickinson line of cases, where the accrual of a takings claim may be “postponed” if the
“damages from [the] taking only gradually emerge.”
Nw. LA Fish & Game Pres. Comm’n v. United States,
446 F.3d 1285, 1290-91 (Fed. Cir. 2006) (citing United
States v. Dickinson, 331 U.S. 745, 749 (1947)). According to the United States Court of Appeals for the Federal Circuit, this claim accrual rule applies in cases
where the taking is effected by “continuous physical
processes.” Id. at 1291 (citing Applegate v. United
States, 25 F.3d 1579, 1582 (Fed. Cir. 1994)). This accrual rule is often referred to as the stabilization doctrine. Id. at 1290-91. Because plaintiffs here allege a
taking that does not involve a continuous physical process, the stabilization doctrine, and the cases cited by
plaintiff that follow Dickinson, have no applicability to
the accrual of their takings claims.

App. 72
2. July 9, 2009 Stay Denial Date Proposed
as the Accrual Date
Plaintiffs also contend that their takings claims
accrued no earlier than July 9, 2009, when the emergency motion for a stay pending appeal – ﬁled by the
“Asbestos” claimants in the GM bankruptcy – was denied by the district court. ECF No. 35 at 12-14; ECF
No. 35-1 at 41; see also In re Motors Liquidation Co.,
428 B.R. 43, 51 (S.D.N.Y. 2010) (giving the history of
the Campbell and Asbestos claimants’ efforts to challenge the extinguishment of their successor liability
claims against New GM before the 363 Sale closed on
July 10, 2009). In broad strokes, plaintiffs argue that
because the July 5, 2009 Sale Order was not effective
until July 9, 2009, and because the government defended against attempts to stay the Sale Order and the
363 Sale through July 9, 2009, government coercion of
third parties did not cease on July 5, 2009 – contrary
to the court’s holding in Campbell. ECF No. 35 at 1214. Plaintiffs’ arguments are not persuasive.
The court begins with the “effective date” argument. The court, when it issued Campbell, was not unaware of the fact that the Sale Order that issued on
July 5, 2009, included a provision citing July 9, 2009,
as the effective date. Indeed, the effective date of the
Sale Order was highlighted by the bankruptcy court as
a modiﬁcation of the draft Sale Order proposed by Old
GM. See ECF No. 4-1 at 48; ECF No. 4-2 at 95 n.143.
As the bankruptcy court observed, the four-day period
between July 5, 2009, and July 9, 2009, was speciﬁcally
designed to provide a (limited) opportunity for

App. 73
appellate review of the Sale Order. ECF No. 4-2 at 95
n.143. As this court noted in its prior opinion, a variety
of challenges to the Sale Order were ﬁled during this
time-frame. Campbell, 134 Fed. Cl. at 770. None of
these challenges prevented the Sale Order from becoming ﬁnal on July 9, 2009, or prevented the 363 Sale
from closing on July 10, 2009.
Even when the factual allegations presented in
the proposed Second Amended Complaint are taken
into account, the four-day window of time provided for
appellate review in the Sale Order is not an indication
that government coercion of Old GM and the bankruptcy court extended past July 5, 2009.3 The court
continues to view the entry of the Sale Order on July
5, 2009, as the actualization of the government’s efforts
to extinguish plaintiffs’ successor liability claims as a
condition of the 363 Sale, and as the accrual date for
plaintiffs’ takings claims. Plaintiffs’ revisions to the
First Amended Complaint cannot alter the true nature
of plaintiffs’ takings claims. See, e.g., James v. Caldera,
159 F.3d 573, 579 (Fed. Cir. 1998) (stating that the jurisdictional inquiry “does not end with the words of the
complaint, however instructive they may be, for [the
court] still must ‘look to the true nature of the action
in determining the existence or not of jurisdiction’ ”
3

Plaintiffs have added the district court as another named
target of the government coercion that effected the takings alleged in the proposed Second Amended Complaint. ECF No. 35-1
at 8-9, 37, 39-41. The court notes this allegation, but does not view
the government’s actions vis-à-vis the district court to constitute
coercion. See infra.

App. 74
(quoting Katz v. Cisneros, 16 F.3d 1204, 1207 (Fed. Cir.
1994))).
Pursuant to A & D Auto, the government may be
liable for a taking when its coercive actions “condition”
government ﬁnancing on the extinguishment of legal
rights, and when the company’s survival depends on
its acceptance of that ﬁnancing with those conditions.
748 F.3d at 1154. The coercion alleged in all of plaintiffs’ complaints, no matter how phrased, is bounded by
this precedent. The only government actions which
conform to the A & D Auto coercion scenario are those
in which Old GM and the bankruptcy court were coerced into structuring the 363 Sale so that plaintiffs’
successor liability claims were extinguished. Those allegedly “coercive” actions terminated, at the latest, on
July 5, 2009.
Plaintiffs also rely on the litigation of claims in the
GM bankruptcy between July 5, 2009, and July 9, 2009,
as evidence of coercive conduct extending beyond July
5, 2009. In their proposed Second Amended Complaint
plaintiffs allege a multitude of facts that show, perhaps, that the extinguishment of their successor liability claims remained a live issue in Congress and, in
particular, before the district court through July 9,
2009.4 ECF No. 35-1 at 37-41. To characterize the
4

The court notes that plaintiffs’ only challenge to the Sale
Order ﬁled during this four-day period – asserted as a request for
a direct appeal to the United States Court of Appeals for the Second Circuit – was denied by the bankruptcy court on July 7, 2009.
In re Motors Liquidation Co., 428 B.R. at 50-51 & n.9. The date
July 7, 2009, like July 5, 2009, is outside this court’s six-year

App. 75
government actions that took place in these settings as
continued coercion of the type described in A & D Auto
is erroneous. What plaintiffs describe in these paragraphs of their proposed Second Amended Complaint
is merely a four-day episode in the ongoing participation of the United States in the long-lived GM bankruptcy proceedings.
As the court noted in Campbell, that litigation has
not yet concluded. 134 Fed. Cl. at 770 (citation omitted); see also In re Motors Liquidation Co., No. 0950026 (MG), 2018 WL 491783 (Bankr. S.D.N.Y. Jan. 18,
2018). Plaintiffs cannot depend on the government’s
participation in the GM bankruptcy as a perpetual
claim accrual-delaying mechanism. Any coercive activity by the United States that would ﬁt within the analytical framework provided by A & D Auto terminated,
at the latest, on July 5, 2009.
3. Plaintiffs’ Challenge to the Court’s Analytical Framework for Claim Accrual
Plaintiffs also contend that the court’s analytical
framework for its claim accrual ruling was ﬂawed. In
particular, plaintiffs suggest that neither Branch v.
United States, 69 F.3d 1571 (Fed. Cir. 1995), nor Acceptance Insurance Cos. v. United States, 583 F.3d 849
(Fed. Cir. 2009) (Acceptance), was correctly applied in
limitations period. Plaintiffs rely on a challenge to the Sale Order
ﬁled by the Asbestos claimants on July 8, 2009, to further delay
the accrual of their own claims beyond July 7, 2009. ECF No. 351 at 39.

App. 76
Campbell. ECF No. 35 at 12; ECF No. 39 at 11-12.
Plaintiffs’ argument regarding these two cases is cursory, is unsupported by citation to any cases which discuss Branch or Acceptance, and fails to persuade. The
court ﬁnds nothing in plaintiffs’ discussion of Branch
or Acceptance that invalidates the analytical framework for claim accrual that was set forth in Campbell.
In their reply brief, plaintiffs attempt to buttress
their attack on the court’s reading of Branch and Acceptance by citing to a wide range of takings jurisprudence. Curiously, plaintiffs ignore three precedential
cases cited by the government in its response brief. See
ECF No. 37 at 11-12 (citing Goodrich v. United States,
434 F.3d 1329 (Fed. Cir. 2006); Fallini v. United States,
56 F.3d 1378 (Fed. Cir. 1995); All. of Descendants of
Tex. Land Grants v. United States, 37 F.3d 1478 (Fed.
Cir. 1994)). These cases were speciﬁcally offered in support of the court’s claim accrual analysis, and of the
court’s ruling that plaintiffs’ takings claims accrued on
July 5, 2009. Id.
Rather than address the binding precedent of
these cases and defendant’s reliance on this precedent,
plaintiffs largely focus in their reply brief on one of this
court’s decisions cited by defendant, and then draw the
court’s attention to a number of precedential takings
cases. Whether all of plaintiffs’ arguments are properly
within the scope of a reply brief to which the government has not had a chance to respond is questionable.
See, e.g., Arakaki v. United States, 62 Fed. Cl. 244, 246
n.9 (2004) (“The court will not consider arguments that
were presented for the ﬁrst time in a reply brief or

App. 77
after brieﬁng was complete.” (citing Novosteel SA v.
United States, 284 F.3d 1261, 1274 (Fed. Cir. 2002); Cubic Def. Sys., Inc. v. United States, 45 Fed. Cl. 450, 467
(1999))). Nonetheless, even if all of plaintiffs’ claim accrual arguments in their reply brief are properly before
the court, they are unpersuasive.5
Plaintiffs ﬁrst explore the topic of claim accrual
through two decisions discussing bank failures. See
ECF No. 39 at 6-9 (citing Ariadne Fin. Servs. Prop. Ltd.
v. United States, 133 F.3d 874 (Fed. Cir. 1998); Plaintiffs in Winstar-Related Cases, 37 Fed. Cl. 174 (1997)
(subsequent history omitted)). According to plaintiffs,
Ariadne stands for the proposition that a takings claim
accrues when the property owner is “ ‘sufﬁciently convinced’ ” that its property has been taken by the government. Id. at 8 (quoting Ariadne, 133 F.3d at 880).
The claim accrual ruling in Campbell is in no way undermined by this proposition. By July 5, 2009, plaintiffs were “sufﬁciently convinced” by the issuance of the
Sale Order that allegedly coercive acts of the government had resulted in a Sale Order that explicitly extinguished their successor liability claims.
Plaintiffs then attempt to ﬁnd support for their attack on the court’s claim accrual analysis by referencing Palazzolo v. Rhode Island, 533 U.S. 606 (2001). ECF
No. 39 at 9. The court ﬁnds no parallel between the administrative exhaustion requirement stated in
5

The court limits its consideration to binding precedent cited
by plaintiffs, see supra note 1, and does not revisit arguments that
the court has addressed in earlier sections of this opinion.

App. 78
Palazzolo, 533 U.S. at 620-21, and the timing in this
case of the alleged coercion by the federal government
of Old GM and the bankruptcy court. For this reason,
plaintiffs’ citation to Palazzolo does not undermine the
court’s reliance on Branch and Acceptance for its claim
accrual analysis.
Finally, plaintiffs turn to Smith v. United States,
709 F.3d 1114 (Fed. Cir. 2013). ECF No. 39 at 10-11.
The statute of limitations issue in Smith was predicated on three judicial takings, i.e., the issuance of orders by three distinct courts that disbarred the
appellant. 709 F.3d at 1116. Giving the Smith opinion
the reading most favorable to plaintiffs here, the Federal Circuit held that a judicial taking occurs, and the
plaintiff ’s takings claim accrues, when the ﬁnal judicial order, such as a disbarment order, is issued. Id. at
1117. Unlike Smith, however, this case does not involve
an allegation of a judicial taking. Thus, any “ﬁnal order” rule that might be discerned in Smith does not
contradict the court’s claim accrual analysis in Campbell.6

6

The claim accrual question in Smith did not focus on the
difference between an order that was not ﬁnal and a ﬁnal order.
Instead, the Federal Circuit weighed the appellant’s arguments
that: (1) accrual occurred only once the United States Supreme
Court issued its judicial takings decision in Stop the Beach Renourishment, Inc. v. Florida Department of Environmental Protection, 560 U.S. 702 (2010); and (2) accrual of new judicial
takings claims took place when the attorney’s appeals of the
courts’ disbarment orders were rejected. Smith, 709 F.3d at 111617.

App. 79
4. Claim Accrual Summary
The court has reviewed all of plaintiffs’ arguments
challenging the court’s dismissal of their takings
claims on timeliness grounds. The alternative accrual
dates set forth in the proposed Second Amended Complaint and plaintiffs’ briefs are not well-founded. Nor
have plaintiffs shown any legal error in the analytical
framework employed by the court in Campbell. Because the court’s claim accrual ruling in Campbell does
not evince legal error, any mistake of fact, or a manifest
injustice, plaintiffs’ motion for the reconsideration of
the court’s RCFC 12(b)(1) dismissal of their claims
must be denied.
B. Property Interest
Plaintiffs also contend that the court erred when
it found that plaintiffs’ complaint did not present a
plausible takings claim. Plaintiffs’ arguments in this
regard are rather amorphous and difﬁcult to categorize. Three distinct topics emerge from plaintiffs’
briefs, however.
First, plaintiffs urge the court to accept, as their
last word on this subject, a ﬁnalized deﬁnition of the
property interest taken by the government during the
GM bankruptcy proceedings. ECF No. 35 at 14. Second,
plaintiffs attempt to convince the court that their property interests were not “highly contingent.” Id. at 7, 1415; ECF No. 39 at 13. Third, plaintiffs suggest that the
property right which was taken by the government
“ ‘inhered’ in Plaintiffs” long before the government

App. 80
began its interventions in the GM bankruptcy proceedings. ECF No. 35 at 15.
The court will address each of these topics in turn.
As a threshold matter, however, the court notes that
plaintiffs’ challenge to the court’s RCFC 12(b)(6) ruling
in Campbell rests largely on an attempt to reframe the
legal right that was allegedly taken by the United
States, and to convince the court that this legal right
is more substantial than the court believed. Although
this reframing of plaintiffs’ claims is superﬁcially supported by attorney argument, the undisputed facts of
the GM bankruptcy ultimately determine the plausibility of plaintiffs’ takings claims. See, e.g., Iqbal, 556
U.S. at 678 (stating that “the tenet that a court must
accept as true all of the allegations contained in a complaint is inapplicable to legal conclusions”); Papasan v.
Allain, 478 U.S. 265, 286 (1986) (“[W]e are not bound
to accept as true a legal conclusion couched as a factual
allegation.”) (citations omitted). Here, to put it bluntly,
the pen is not mightier than the well-established facts
of this case. See Campbell, 134 Fed. Cl. at 770-71 (noting that the background facts of this case are well-established). The particular articulation of plaintiffs’
property interest proffered by plaintiffs in their briefing is of far less importance than the facts underlying
their takings claims.

App. 81
1. Finalized Definition of Plaintiffs’ Property Interest
The court thoroughly examined the nature of
plaintiffs’ property interest in Campbell, and noted
that plaintiffs’ description of that property interest
was not always consistent. 134 Fed. Cl. at 767-69, 77476 & n.11. The court found that the most accurate, and,
indeed, the only possible property interest that could
have been taken from plaintiffs by the government in
the GM bankruptcy was embodied in plaintiffs’
“ ‘rights to assert successor liability claims against
New GM.’ ” Id. at 774 (quoting ECF No. 4 at 5). The
court speciﬁcally held that no other property interest
would satisfy the analytical framework for a coercive
taking, citing A & D Auto, 748 F.3d at 1152-53. Campbell, 134 Fed. Cl. at 775.
Plaintiffs now seek to deﬁne their property interest differently. First, they cite to “their last brief,” ECF
No. 32, which included the following deﬁnition of plaintiffs’ property interest:
Plaintiffs’ legally-protected interest is their
right to compensation – from any source – for
personal injuries caused by product defects in
cars manufactured by Old GM.
Campbell, 134 Fed. Cl. at 775 (quoting ECF No. 32 at
8). Second, plaintiffs elaborate on this preferred description of their property interest, as follows:
Plaintiffs’ essential view, as expressed in
[their] last brief, was that a “cause of action”
can be a cognizable property interest under

App. 82
the Takings Clause when it protects their
right to compensation for bodily injuries
caused by defective cars manufactured by Old
GM.
ECF No. 35 at 14. The court is confessedly at a loss to
discern the ﬁnalized deﬁnition that plaintiffs propose
for the property interest taken by the United States in
the GM bankruptcy. In any case, plaintiffs’ legal conclusion as to the nature of their property interest does
not control here.
It is abundantly clear that before the GM bankruptcy, plaintiffs possessed personal injury claims
against Old GM, and potential successor liability
claims against a successor company, should one be created. As of the entry of the Sale Order, the property
interest that was subtracted from plaintiffs’ potential
and existing rights was the right to bring successor liability claims against New GM. The description of this
property interest in the First Amended Complaint,
ECF No. 4 at 5, is the only accurate statement of the
property interest that is at issue in this suit. For this
reason, the court does not defer to any legal conclusion
that might be discerned in plaintiffs’ motion for reconsideration regarding the ﬁnalized deﬁnition of their
property interest.7

7

Plaintiffs’ proposed Second Amended Complaint, like the
First Amended Complaint, continues to describe plaintiffs’ property interest as their right to bring successor liability claims
against New GM. See ECF No. 35-1 at 2-3, 7-9, 11-16, 20, 31-33,
35-38, 41-44, 46-59.

App. 83
2. Highly Contingent Property Interest
Plaintiffs next argue that the court erred in ﬁnding that their property interest was highly contingent
and, thus, not cognizable under the Takings Clause.
ECF No. 35 at 14-17. In support of this assertion, plaintiffs point to additional factual allegations in the proposed Second Amended Complaint. ECF No. 39 at 13
(citing to ECF No. 35-1 at 4-6, 22-23). Plaintiffs also
contend that Campbell “misplaces reliance” on Acceptance and that Acceptance is distinguishable from
this case. ECF No. 35 at 16-17. Plaintiffs’ argument,
sometimes framed as a contention that the United
States lacked discretion to not rescue Old GM, ECF No.
35 at 14, 17; ECF No. 39 at 13, is not persuasive.
In their motion for reconsideration, plaintiffs
failed to point to any speciﬁc facts in their proposed
Second Amended Complaint which indicated that the
United States lacked discretion to abstain from a rescue of Old GM. Defendant responded that the government reviewed several new allegations of fact in the
proposed Second Amended Complaint and found no
new evidence that the United States lacked discretion
to intervene in Old GM’s ﬁnancial crisis. See ECF No.
37 at 15 (“Plaintiffs’ proposed ‘jurisdictional facts’
simply restate, in conclusory fashion, their position
that the Government did not have discretion in
whether to provide rescue ﬁnancing to GM during the
ﬁnancial crisis.”), 17 (“Nothing in plaintiffs’ proposed
second amended complaint points to new evidence in
support of their conclusion that the Government
lacked discretion in whether to provide rescue

App. 84
ﬁnancing to GM; instead, they simply repeat their positions that the Government had no choice but to exercise its discretion to do so.”). Defendant concluded that
these conclusory statements of fact did not contradict
the court’s ﬁnding that the government’s intervention
was discretionary. Id. at 17-18.
Plaintiffs’ reply brief speciﬁcally identiﬁes the
new allegations of fact in the proposed Second
Amended Complaint which, in their view, establish
that the government lacked discretion to abstain from
an intervention in Old GM’s ﬁnancial crisis.8 ECF No.
39 at 13 (citing ECF No. 35-1 ¶¶ 6-8, 10-14, 75-76). As
the court reads the ﬁrst three paragraphs cited by
plaintiffs, federal authorities are alleged to have had
strong, if not irresistible, motivation to intervene in
Old GM’s ﬁnancial crisis. ECF No. 35-1 ¶¶ 6-8. The
next ﬁve paragraphs cited by plaintiffs allege that a
363 sale, largely funded by the United States Treasury,
was the only alternative to a disastrous liquidation of
Old GM. Id. ¶¶ 10-14. The last two paragraphs cited by
plaintiffs allege that the federal government never seriously considered that liquidation of Old GM could be
permitted, because Old GM was too important to the
nation’s economy. Id. ¶¶ 75-76.

8

Because the speciﬁc paragraphs relied upon by plaintiffs
were not identiﬁed until plaintiffs ﬁled their reply brief, the government was not afforded a reasonable opportunity to respond to
this particular argument. The proposed Second Amended Complaint contains 245 paragraphs, of which approximately 65 are
new or substantially modiﬁed paragraphs. See ECF No. 35-2 (redline version of proposed Second Amended Complaint).

App. 85
Thus, the proposed Second Amended Complaint
contains additional factual allegations which must be
accorded all favorable inferences due plaintiffs. See
Scheuer v. Rhodes, 416 U.S. 232, 236 (1974), abrogated
on other grounds by Harlow v. Fitzgerald, 457 U.S. 800
(1982). These factual allegations support the view that
the United States had little choice but to rescue Old
GM. Plaintiffs’ legal conclusion, however, that the
United States lacked discretion in its decision to fund
the 363 Sale and to create New GM is not entitled to
favorable inferences, however. E.g., Iqbal, 556 U.S. at
678; Papasan, 478 U.S. at 286. Until the Sale Order was
entered by the bankruptcy court on July 5, 2009, the
United States possessed considerable discretion over
its intervention in the GM bankruptcy and the structure and conditions of the 363 Sale. This legal conclusion is supported by numerous factual allegations in
plaintiffs’ proposed Second Amended Complaint, as
well as in the recitation of facts in the decisions of the
bankruptcy court and the district court.
Even if the United States Department of the
Treasury had no feasible options other than injecting
massive funding into GM and structuring a bankruptcy solution that would keep GM largely intact, it
is clear that Treasury exercised discretion at every
step of this process. As noted in Campbell, by the time
that Old GM ﬁled for bankruptcy, the United States
had overpowering leverage over Old GM due to the
government’s infusions of cash into the company. 134
Fed. Cl. at 768. Old GM’s board, as a consequence, acceded to every demand of the United States regarding

App. 86
the content of its bankruptcy ﬁlings, including the company’s request for a 363 sale and the proposed terms of
the Sale Order. See ECF No. 35-1 at 18-34. As the GM
bankruptcy moved forward, the United States effectively controlled the timing of the 363 Sale. Id. at 3741. The government also threatened to let Old GM fail
if the government’s requirements for the timely conclusion of the 363 Sale were not met. Id. at 37-40.
Given this factual background, the court does not
ﬁnd that the United States lacked discretion regarding
the rescue of Old GM. The bankruptcy court considered
and gave credence to the government’s representations
that it would not continue to fund Old GM unless the
363 Sale went through as speciﬁed and as scheduled.
Sale Opinion, ECF No. 4-2 at 30-31. The district court
commented that the extinguishment of plaintiffs’ successor liability claims in the Sale Order was a key element of the 363 Sale insisted upon by Old GM and the
other parties to the GM bankruptcy. In re Motors Liquidation Co., 428 B.R. at 60-62. Although the liquidation of Old GM may have been unthinkable, as
plaintiffs allege, it is clear that the United States exercised considerable discretion as to how it would intervene in Old GM’s ﬁnancial crisis. For this reason,
discretionary acts of the United States affected the
“highly contingent” property interests that plaintiffs
allege were taken by the government in the GM bankruptcy.
Plaintiffs raise only one other substantive challenge to the court’s ﬁnding that their property interest
was too contingent, because of the government’s

App. 87
discretionary control over that property interest, to
sustain a takings claim. Plaintiffs argue that the court
improperly applied Acceptance to conclude that their
property interest was highly contingent. ECF No. 35 at
16-17. According to plaintiffs, “Acceptance is distinguishable . . . because it did not involve Government
actions that were necessary – not discretionary – to
avoid the disastrous national economic consequences
that would result from the liquidation of Old GM.” Id.
at 17. Plaintiffs also contend that Acceptance merely
“stands for the unremarkable proposition that an interest in selling certain products in interstate commerce is not a cognizable property interest for
purposes of the Takings Clause.” Id. (citations omitted).
The court does not agree that Campbell misapplied Acceptance.
First, as noted supra, plaintiffs’ suggestion that
the United States had no discretion over its intervention in Old GM’s ﬁnancial crisis is not accurate. Second, the analogy between the property interest
discussed in Acceptance, and plaintiffs’ right to bring
successor liability claims against New GM, is sound.
These property interests resembled each other because
neither property right would exist absent a discretionary act of the government. In Acceptance, the agency
would need to abstain from exercising its right to reject
a particular type of sale subject to regulatory approval,
and here the federal government would need to abstain from conditioning the 363 Sale on the extinction
of plaintiffs’ successor liability claims. Campbell, 134
Fed. Cl. at 778-79. Notwithstanding any factual

App. 88
distinctions that could be drawn between Acceptance
and this case, highly contingent property interests,
such as plaintiffs’ right to bring successor liability
claims against New GM, fail to support a takings claim
if they are as contingent as the property interest discussed in Acceptance.9
3. Date That Plaintiffs’ Property Interest
“Inhered”
Plaintiffs also challenge the court’s ﬁnding that
plaintiffs’ property interest arose at about the same
time that it was extinguished by operation of bankruptcy law. As the court stated in Campbell:
[A]pplying A & D Auto, the challenged government action in this suit was contemporaneous
with plaintiffs’ emergent right, created
through the government bail-out of General
Motors and the bankruptcy proceedings, to
bring successor liability claims against New
GM. In these circumstances, the powers accorded the bankruptcy court by section 363 inhered in and limited plaintiffs’ property
interest, because that highly contingent interest, from its inception, was targeted for – and
was subject to – extinguishment by the conditions that the government imposed on the 363

9

Nor do plaintiffs address the other precedential cases discussed in Campbell which show that plaintiffs’ property interests
are too contingent to support a takings claim. See 134 Fed. Cl. at
778-79 (citing Bair v. United States, 515 F.3d 1323 (Fed. Cir.
2008); Adams v. United States, 391 F.3d 1212 (Fed. Cir. 2004)).

App. 89
Sale. A highly contingent property interest of
this kind cannot support a takings claim.
134 Fed. Cl. at 776. Plaintiffs argue, instead, that their
property interest inhered at the time of their automobile accidents involving Old GM vehicles. ECF No. 35
at 15-16.
To the extent that plaintiffs’ arguments in this regard are founded on their ﬁnalized (but unclear) deﬁnition of their property interest as their “right to
compensation for bodily injuries,” id. at 14, the court
does not accept this formulation as indicative of the
property interest that might have been taken by the
United States during the GM bankruptcy. See supra.
The only property interest at issue in this suit is plaintiffs’ right to bring successor liability claims against
New GM. That property interest did not exist in 1994,
2004 and 2006, when the accidents at issue in this suit
occurred. See Campbell, 134 Fed. Cl. at 777-78 & n.12.
Plaintiffs’ attempts to repackage the property interest
taken by the United States as a personal injury claim
arising under Michigan state law as early as 1994 does
not comport with the facts of the GM bankruptcy, as
discussed supra.
Plaintiffs have not cited any authority that supports their contentions as to when their property interests inhered. Generic pronouncements as to the nature
of property are not relevant to this issue. Cf. ECF No.
35 at 16 (citing Ruckelshaus v. Monsanto Co., 467 U.S.
986, 1003 (1984); United States v. Gen. Motors Corp.,
323 U.S. 373, 378 (1945)). Nor does plaintiff ’s reliance

App. 90
on Aureus Asset Managers, Ltd. v. United States, 121
Fed. Cl. 206, 213 (2015), alter the court’s analysis. ECF
No. 35 at 14; ECF No. 39 at 14. Aureus does not address
the date when a property interest inheres in a takings
claim plaintiff. None of plaintiffs’ arguments persuade
the court that their property interest inhered before
the United States intervened in the GM bankruptcy.
4. Property Interest Not Cognizable under
the Takings Clause
For all of the above reasons, the court ﬁnds that
plaintiffs’ property interests were too contingent to
support plausible takings claims. The court has considered all of plaintiffs’ arguments to the contrary, and
ﬁnds no reason to reconsider its property interest holding in Campbell or to amend its judgment.10 Because
the court’s property interest ruling in Campbell does
not evince legal error, any mistake of fact, or a manifest
injustice, plaintiffs’ motion for the reconsideration of
the court’s RCFC 12(b)(6) dismissal of their claims
must be denied.

10

The court notes plaintiffs’ disagreement with the distinctions the court drew in Campbell between the property interests
in this case and the property interests discussed in A & D Auto.
ECF No. 35 at 15-16. For the reasons stated in Campbell, plaintiffs’ property interests are more contingent than the contract
rights held by the plaintiffs in A & D Auto. 134 Fed. Cl. at 776-77
& n.12.

App. 91
C. Proposed Second Amended Complaint
In the foregoing analysis of plaintiffs’ motion for
reconsideration, the court considered plaintiffs’ proposed Second Amended Complaint as if it were ﬁled
and as if it superseded the First Amended Complaint.
Dismissal of this case under RCFC 12(b)(1) was still
warranted on timeliness grounds, and dismissal of this
case, in the alternative under RCFC 12(b)(6), was still
warranted because plaintiffs’ takings claims were not
plausible. The court thus ﬁnds that amendment of the
complaint would be futile. Plaintiffs’ motion to amend
the complaint, ECF No. 35, must therefore be denied.
V.

Conclusion

For the reasons stated in this opinion, plaintiffs’
combined motion for reconsideration, motion to amend
the judgment, and motion for leave to ﬁle a second
amended complaint, ECF No. 35, is DENIED.
IT IS SO ORDERED.
s/ Patricia Campbell-Smith
PATRICIA CAMPBELL-SMITH
Judge

App. 92
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

CALLAN CAMPBELL, JAMES H. CHADWICK,
JUDITH STRODE CHADWICK, KEVIN C.
CHADWICK, INDIVIDUALLY AND THROUGH
HIS COURT-APPOINTED ADMINISTRATORS,
JAMES H. CHADWICK AND JUDITH STRODE
CHADWICK, KEVIN JUNSO, NIKI JUNSO,
TYLER JUNSO ESTATE, THROUGH KEVIN
JUNSO, ITS PERSONAL REPRESENTATIVE,
Plaintiffs-Appellants
v.
UNITED STATES,
Defendant-Appellee
-----------------------------------------------------------------------

2018-2014
-----------------------------------------------------------------------

Appeal from the United States Court of Federal
Claims in No. 1:15-cv-00717-PEC, Judge Patricia E.
Campbell-Smith.
-----------------------------------------------------------------------

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
-----------------------------------------------------------------------

(Filed Nov. 22, 2019)

App. 93
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellants Callan Campbell, James H. Chadwick,
et al. filed a combined petition for panel rehearing
and rehearing en banc. A response to the petition was
invited by the court and filed by the United States.
Appellants separately moved for leave to ﬁle a reply in
support of their petition. The petition was referred to
the panel that heard the appeal, and thereafter the
petition for rehearing en banc was referred to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The motion for leave to ﬁle a reply is denied.
The petition for panel rehearing is denied.
The petition for en banc rehearing is denied.
The mandate of the court will issue on December
2, 2019.

App. 94
Circuit Judge NEWMAN dissents from the denial of the
motion for leave to ﬁle a reply.
FOR THE COURT
November 22, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 95
IN THE UNITED STATES COURT
OF FEDERAL CLAIMS
--------------------------------------------- x
:
CALLAN CAMPBELL WEHRY,
KEVIN C. CHADWICK (individ- :
:
ually and through his court:
appointed administrators,
:
JAMES H. CHADWICK AND
JUDITH STRODE CHADWICK), :
:
JAMES H. CHADWICK,
JUDITH STRODE CHADWICK, :
THE TYLER: JUNSO ESTATE :
:
(through KEVIN JUNSO, its
:
personal representative),
:
KEVIN JUNSO, AND NIKI
JUNSO, all on their own behalf :
:
and on behalf of a class of all
:
others similarly situated,
:
Plaintiff,
:
v.
:
:
UNITED STATES,
:
Defendant
:
--------------------------------------------- x

No. 15-CV-00717
(PEC)
Honorable
Patricia E.
Campbell-Smith

SECOND AMENDED CLASS
ACTION COMPLAINT
(Filed Nov. 27, 2017)
Callan Campbell Wehry (“Campbell” or “Wehry”),
Kevin C. Chadwick (individually and through his
court-appointed administrators, James H. Chadwick

App. 96
and Judith Strode Chadwick) (“Kevin Chadwick”),
James H. Chadwick, individually (“James Chadwick”),
Judith Strode Chadwick, individually (“Judith Chadwick,” and together with Kevin Chadwick and James
Chadwick, the “Chadwicks”), the Tyler Junso Estate
(through Kevin Junso, its personal representative)
(“Tyler Junso Estate”), Kevin Junso, individually
(“Kevin Junso”), and Niki Junso (“Niki Junso,” and
together with the Tyler Junso Estate and Kevin Junso,
the “Junsos”) (collectively, the “Plaintiffs”), on their
own behalf and on behalf of a class of all other persons
similarly situated, by and through their attorney of
record, Steve Jakubowski of Robbins, Salomon & Patt,
Ltd., and with knowledge as to their own acts and
events taking place in their presence and upon information and belief as to all other matters, for their
Second Amended Class Action Complaint against the
United States (including the Department of the Treasury and its agents acting at its direction) (the “Government”) under the Takings Clause of [2] the Fifth
Amendment to the United States Constitution (the
“Takings Clause”), allege as follows:
TABLE OF CONTENTS
I.

NATURE OF THIS ACTION ..................

3

II.

JURISDICTION ...................................... 12

III.

CONSTITUTIONAL PROVISION ......... 13

IV.

PARTIES .................................................. 13

V.

FACTUAL ALLEGATIONS .................... 17

App. 97
A. Background to the Government’s
Intervention in Old GM’s Restructuring .................................................. 17
B. The Auto Team Is Formed and Its Influence Over Old GM Is Extended .... 19
C. With the Government’s Support,
Old GM Commences the Exchange
Offers in Hopes of Effectuating an
Out-of-Court Restructuring of Old
GM ....................................................... 23
D. Personal Injury Claims Are Classified by the Government and Old
GM as “Politically Sensitive” Liabilities ................................................ 24
E. The Exchange Offers Expire, the
Sale Agreement Is Finalized Six
Days Later, and the GM Bankruptcy Is Commenced...................... 26
F. The Government Changes the
Treatment of Certain Personal Injury Products Liability Claims After the Filing Date ........................... 34
G. The Sale Is Approved by the Bankruptcy Court But the Sale Order,
by Its Terms, Does Not Become Effective Until Noon on July 9, 2009,
the Order Effective Date ................ 35

App. 98
H. Between the Order Entry Date and
Order Effective Date, the Government Objects to All Efforts to Stay
the Effectiveness of the Sale Order
While Continuing to Threaten Immediate Liquidation If the Sale Order Either Is Stayed Past July 10,
2009 or Fails to Extinguish and Enjoin All Personal Injury Claimants’
Successor Liability Claims .............. 37
I.

VI.

The Sale Closes and All Personal
Injury Claimants’ Rights to Assert
Successor Liability Claims Are Extinguished and Enjoined ................ 41

CLASS ALLEGATIONS .......................... 44

[3]VII. FIRST CLAIM FOR RELIEF: DIRECT
TAKING OF RIGHTS TO ASSERT SUCCESSOR LIABILITY CLAIMS ................ 49
VIII. SECOND
CLAIM
FOR
RELIEF
(Pleaded in the Alternative): CATEGORICAL REGULATORY TAKING OF
RIGHTS TO ASSERT SUCCESSOR LIABILITY CLAIMS .................................... 51
IX.

THIRD CLAIM FOR RELIEF (Pleaded in
the Alternative): NON-CATEGORICAL
REGULATORY TAKING OF RIGHTS TO
ASSERT
SUCCESSOR
LIABILITY
CLAIMS ..................................................... 54

X.

RELIEF REQUESTED ........................... 59

App. 99
I.
NATURE OF THIS ACTION
1. Plaintiffs and the members of the class are
natural persons, court-appointed administrators, decedents’ estates and their representatives, and others
(collectively, the “Personal Injury Claimants”) that
hold allowed prepetition claims (the “Personal Injury
Claims”) in the bankruptcy case of In re Motors Liquidation Company, et al., f/k/a General Motors Corp.,
Case No. 09-50026 (MG) (Bankr. S.D.N.Y) (the “GM
Bankruptcy”) based on deaths or personal injuries
caused by defective motor vehicles (or component parts
thereof ) manufactured, sold, or delivered by General
Motors Corporation and afﬁliates (“Old GM”) before
June 1, 2009, the date Old GM ﬁled its bankruptcy petition for relief.
2. The claims of all Personal Injury Claimants in
the Class are ﬁxed, liquidated, and not disputed by any
party in the GM Bankruptcy. All Class members have
received distributions on account of these allowed
claims that are but a fraction of their stipulated allowed amount.
3. On July 10, 2009 (the “Closing Date”), the
Government closed on and thereby consummated its
purchase of substantially all of Old GM’s operating assets through the wholly-owned, government-sponsored
enterprise that it formed on the eve of Old GM’s bankruptcy ﬁling (“New GM”).

App. 100
[4] 4. The acquisition was authorized by order of
the Bankruptcy Court overseeing the GM Bankruptcy
(the “GM Bankruptcy Court”) pursuant to Sections
363(b) and (f ) of the United States Bankruptcy Code
(11 U.S.C. §§ 363(b), (f )), which together authorize a
bankrupt debtor to sell its property outside of a chapter 11 plan of reorganization “free and clear of any interest in such property.” This bankruptcy sale of Old
GM’s assets was commonly referred to as the “363
Sale” (the “363 Sale” or “Sale”).
5. The order of the GM Bankruptcy Court approving the 363 Sale, a copy of which is attached as
Exhibit 1 hereto (“the “Sale Order”), was entered on
July 5, 2009 (the “Order Entry Date”). Paragraph 70
of the Sale Order, however, provided that “this Order
. . . shall be effective as of 12:00 noon, EDT, on July 9,
2009” (the “Order Effective Date”). On July 5, 2009,
the Bankruptcy Court also entered a Memorandum
Opinion to accompany the Sale Order, a copy of which
is attached hereto as Exhibit 2 (the “Sale Opinion”).
6. The Government’s decision to move forward
with the 363 Sale transaction can be traced to the days
and weeks following the inauguration of President
Obama when a team drawn in large measure from the
private equity world (the “Auto Team”) was formed
and charged with responsibility for evaluating the restructuring plans of GM, negotiating the terms of any
further ﬁnancial assistance, and making day-to-day
decisions on behalf of the Obama administration.

App. 101
7. By late March 2009, according to the leader of
the Auto Team, the Obama administration had conclusively determined that a forced or orderly liquidation
of Old GM was “unthinkable.” It was an option, the
leader of the Auto Team stated, that the Government
“never seriously considered” since Old GM, as America’s second largest industrial company, “was deeply
woven into the very fabric of America, with its generations of workers, its networks of suppliers and dealers,
its historical resonance, and its symbolism.”
[5] 8. To the new administration, this Auto Team
leader stated, Old GM “embodied the intimate connection between the free capital markets and the social
and political contract on which they depend and so it
could not be allowed simply to disappear,” particularly—the Auto Team felt—since “[Old] GM’s problems
were, to a considerable degree, of its own making—and
ﬁxable.”
9. Old GM, however, did not want to ﬁle bankruptcy and worked hard to effectuate an out-of-court
restructuring that would obviate the need for a bankruptcy ﬁling. The Government, as Old GM’s sole funding source, however, said it would not fund Old GM’s
operations past June 1, 2009 except in a bankruptcy
proceeding in which the contemplated 363 Sale to the
Government was approved by the GM Bankruptcy
Court no later than July 10, 2009. This demand forced
Old GM to ﬁle its chapter 11 petition for relief on June
1, 2009.

App. 102
10. The Government’s ﬁnancial intervention in
Old GM’s restructuring, beginning in December 2008
and continuing through the closing of the 363 Sale,
however, was not a discretionary act. Indeed, the Government considered an orderly liquidation of Old GM
to be “unthinkable.”
11. Yet, as the Bankruptcy Court found, liquidation was the only alternative to a bailout by the Government through a 363 Sale. In that regard, the
Bankruptcy Court speciﬁcally found that “[t]here
[we]re no merger partners, acquirers, or investors willing and able to acquire GM’s business [and] [o]ther
than the [Government], there are no lenders willing
and able to ﬁnance GM’s continued operations.” (Ex. 2,
Sale Opinion, at p. 23).
[6] 12.

Further, the Bankruptcy Court found:

•

“The 363 Transaction is the only available means to preserve the continuation of
GM’s business.

•

There is no viable alternative to the 363
Transaction.

•

The only alternative to the 363 Transaction is liquidation.”

(Ex. 2, Sale Opinion, at p. 25).
13. In sum, the Government was the only entity
ﬁnancially capable of bailing out Old GM and preventing its liquidation. The Government was determined to
avoid a liquidation of Old GM because it believed that
Old GM played a central role in the national economy

App. 103
based on its being the nation’s largest auto manufacturer, its employment of approximately 235,000 employees worldwide, its purchases of approximately $50
billion in supplier goods, and its role as one of the country’s largest healthcare providers. Notably, the Auto
Team leader stated, the Government did not adopt
such a position with respect to the Chrysler bailout
and was prepared for Chrysler’s possible liquidation if
a 363 sale could not be arranged.
14. Given the dire national consequences of a liquidation of Old GM, the Government’s decision to bail
out Old GM was not a discretionary act undertaken in
a proprietary capacity, but one necessitated by sovereign concerns regarding the disastrous and irreparable
consequences for the national economy and the entire
U.S. auto supplier industry that the Government believed would result from Old GM’s liquidation. Indeed,
based on the evidence presented at the Sale Hearing
by Old GM and the Government, the Bankruptcy
Court found:
The only alternative to an immediate sale is
liquidation—which would be a disastrous result for GM’s creditors, its employees, the suppliers who depend on GM for their own
existence, and the communities in which GM
operates.
[7] 15. Further, because consents from various
stakeholders holding massive claims against Old GM
would be necessary for an effective out-of-court restructuring, yet could not be obtained, the 363 Sale

App. 104
option became the only course of action available to
save Old GM.
16. Signiﬁcantly, Old GM’s senior management
wanted the Personal Injury Claims assumed in full as
part of any restructuring, including in a 363 Sale to
the Government. The Auto Team, however, being
dominated by scions of the corporate mergers and acquisitions world, viewed bankruptcy as a golden opportunity for the Government to do exactly what these
private equity gurus would be permitted to do in a normal arms-length 363 sale among private parties; that
is, rinse away the successor liability claims of tort
claimants.
17. The Government, however, was acting in a
sovereign capacity, not a proprietary one, and thus its
actions are not necessarily absolved from a claim under the Takings Clause simply because those actions
would—but for the Takings Clause—be permitted in
bankruptcy without the payment of just compensation.
18. Hence, Plaintiffs are not saying that the Government was not permitted to purchase Old GM’s assets in a 363 Sale free and clear of successor liability
claims. Rather, Plaintiffs are saying that, as here,
where there was no essential nexus—as is required
when the Government so drastically extinguishes valuable property rights—between the demand that Personal Injury Claimants’ successor liability claims
against New GM be extinguished and enjoined in an
unstayed Sale Order, combined with a threat to terminate all funding of Old GM, and the Government’s

App. 105
acknowledged ﬁnancial indifference to assumption of
these claims.
19. On May 27 and 28, 2009, Old GM’s board of
directors (“Old GM’s Board”) met to consider whether
to authorize the bankruptcy ﬁling and Old GM’s entry
into a “Master Purchase and Sale Agreement” with
New GM that would set the precise terms of the 363
Sale [8] (the “Sale Agreement”). In that meeting, the
Government represented to Old GM’s Board that if, for
whatever reason, it were to agree before the close of
the Sale to assume Old GM’s liabilities to Personal Injury Claimants, then the Government would neither
attempt to renegotiate a reduction of the purchase
price nor walk from the deal.
20. Despite the Government’s ﬁnancial indifference to assumption of Old GM’s liabilities to Personal
Injury Claimants, in both the 363 Sale proceedings before the GM Bankruptcy Court and the subsequent
stay hearings before the GM Bankruptcy Court and before United States District Court for the Southern District of New York (the “District Court”) between the
Order Entry Date and the Order Effective Date, the
Government threatened that (a) it would not continue
to provide Old GM with debtor in possession ﬁnancing
(“DIP Financing”), critical for Old GM to survive
even a day in bankruptcy, if the Sale Order was not
effective and not subject to a stay pending appeal as of
July 10, 2009, the targeted Closing Date, and (b) it
would not close the acquisition unless the Sale Order
included provisions that enjoined the Personal Injury
Claimants from pursuing successor liability claims

App. 106
against New GM and held the assets transferred to
New GM in the 363 Sale would be “free and clear” of
the “interests in property” that these claims constituted.
21. The GM Bankruptcy Court stated that the
“only truly debatable issues in this case” are “how any
approval order should address successor liability.” (See
Sale Opinion, Ex. 1, at p. 3). But in the face of the Government’s coercive threat to cut off DIP Financing and
force Old GM into immediate liquidation unless the
Government got what it wanted (i.e., a Sale Order that
enjoined Personal Injury Claimants’ successor liability
claims and was not stayed pending appeal), neither the
Bankruptcy Court nor the District Court was willing—
in the words of the [9] Bankruptcy Court—“to gamble
on the notion that the Government didn’t mean it
when it said that it would not keep funding GM.” (See
Sale Opinion, Ex. 2, at p. 3).
22. After the Order Entry Date of July 5, 2009
and continuing through oral argument at a hearing before the District Court in the morning of July 9, 2009
on the motion of certain asbestos claimants for a stay
of the Sale Order pending appeal, the Government continued to threaten that (a) it would not continue to provide Old GM with DIP Financing if the Sale Order
were not effective and not subject to any stay pending
appeal as of the Closing Date, and (b) it would not close
the acquisition unless the Sale Order included provisions that enjoined the Personal Injury Claimants
from pursuing successor liability claims against New
GM.

App. 107
23. These threats were, in the words of the head
of the Auto Team, “the ﬁnancial equivalent of holding
a gun to the head” of the Bankruptcy Court and District Court in order to compel a result regarding the
treatment of successor liability claims in a 363 Sale
that at the time was uncertain and involved novel issues of bankruptcy law. With neither the Bankruptcy
Court nor the District Court willing to stay the Order
Effective Date, the Government, in reliance on the effectiveness of the Sale Order, closed the Sale on July
10, 2009.
24. The Government’s coercive threats regarding
its willingness to let Old GM liquidate rather than provide even a dollar of incremental funding for the beneﬁt of Personal Injury Claimants, coupled with its
independent decision—notwithstanding signiﬁcant
political pressure from consumer advocacy groups—to
close in reliance on the provisions of the Sale Order
that, by their terms, extinguished and enjoined Personal Injury Claimants’ successor liability claims, together violated the Takings Clause because there was
no essential nexus—as is required when the Government so drastically extinguishes valuable property
rights—between [10] those coercive threats and the
Government’s acknowledged ﬁnancial indifference to
assumption of the Personal Injury Claims left behind.
25. Any assertion by the Government that “commercial necessity” drove it to leave Personal Injury
Claims behind with Old GM is false based on how
those claims were to be treated in the solicitation commenced by Old GM on April 27, 2009, with the full

App. 108
support of the Government, for the voluntary exchange
by holders of $27 billion in Old GM’s publicly-traded
debt securities (the “Bondholder Debt”) into Old GM
common stock (the “Exchange Offers”). If consummated, the holders of that debt (the “Bondholders”)
would have received a 10% ownership stake in Old
GM; Personal Injury Claims, however, would have been
paid in full in the ordinary course.
26. Old GM, however, failed to obtain the requisite acceptances for the Exchange Offers, which expired by their terms on May 26, 2009, just six days
before Old GM ﬁled for bankruptcy.
27. In directing that Personal Injury Claimants
receive markedly worse treatment in the Sale than the
full payment proposed for them in the Exchange Offers, while concurrently agreeing that holders of at
least $90 billion of other unsecured debt at Old GM
(including the Bondholders) would receive the same or
far better treatment in the Sale than proposed for
them in the Exchange Offers, the Government singled
out the Personal Injury Claimants to bear the brunt of
its pre-ﬁling goal of squeezing out those creditors (like
the maimed, the disabled, the widows, the orphans,
and other Personal Injury Claimants) that the Government considered marginal because they were not expected to have any ongoing business relationships with
New GM.
[11] 28. The Government’s callous disregard of
the health and welfare of these marginalized claimants, advanced under the false guise of “commercial

App. 109
necessity,” also violated a principal purpose of the Takings Clause, which is to bar the Government from forcing some people alone to bear public burdens which, in
all fairness and justice, should be borne by the public
as a whole. These claimants were victims of Old GM’s
defective products, not the cause of Old GM’s problems.
29. And although on the eve of Old GM’s bankruptcy ﬁling, the Government did condition the closing
of the Sale on the GM Bankruptcy Court’s inclusion of
a provision in the Sale Order that enjoined the successor liability claims of Personal Injury Claimants, it did
so only because Section 363(f ) of the Bankruptcy Code
permitted that outcome, not because elimination of
such claims was necessary or otherwise designed to
protect the Government’s assurance in the financial
viability of New GM and the repayment of the loans
and other assistance.
30. This is not a case where the central fact question before the Court is what remedy (or lack thereof )
the Personal Injury Claimants would have had if the
Government had not closed on the Sale (i.e., “but for”
the Government action). Here, the Government specifically represented to Old GM’s Board of Directors
at a meeting held three days before the filing that if
the Government decided to waive the requirement in
the Sale Agreement that successor liability claims be
extinguished in the Sale, the Government would still
close without any reduction to the purchase price.

App. 110
31. As such, the appropriate “but for” analysis in
this case is that, even though the Government was actually ﬁnancially indifferent to assumption of Personal
Injury Claims by New GM, but for (a) the Government’s arbitrary demand that Personal Injury Claimants’ rights to [12] assert successor liability claims be
eliminated through the Sale Order and (b) the Government’s threat to terminate all funding of Old GM if its
demands were not met, the Personal Injury Claimants’
valuable rights to pursue successor liability claims
against New GM would have been preserved.
32. The economic impact of the Government’s actions on the Personal Injury Claimants has been severe. Instead of receiving full compensation to cover
their medical costs (which alone could be astronomical), their pain and suffering, and their losses—in
many cases—of limbs, mobility, capacity, livelihood,
consortium, or even life itself, the Government deprived them any recompense at the time of the taking
and forced them to wait years before distributions on
their allowed claims in the GM Bankruptcy might ﬁnally trickle down to them.
33. To remedy this wrong, the Government
should be ordered to pay all the allowed claims of Personal Injury Claimants in the GM Bankruptcy, less
whatever fraction of that amount was actually recovered by them in the case, plus pre- and post judgment
interest and reasonable attorneys’ fees and costs.

App. 111
II.
JURISDICTION
34. The Tucker Act, 28 U.S.C. § 1491(a)(1), provides exclusive jurisdiction in the United States Court
of Federal Claims for any claim against the Federal
Government to recover damages founded on the Constitution. Accordingly, this Court has jurisdiction pursuant to 28 U.S.C. § 1491(a).
35. This action was commenced on July 9, 2015,
exactly six years following the Order Effective Date
and the date of the Government’s last threat before the
District Court that it would terminate funding of Old
GM the next day if the District Court were to stay the
[13] effectiveness of the Sale Order pending an appeal
of the successor liability issues. This action, therefore,
is timely brought under 28 U.S.C. § 2501.
III.
CONSTITUTIONAL PROVISION
36. Plaintiffs’ claims are governed by the Takings Clause of the Fifth Amendment to the United
States Constitution, which provides in pertinent part:
“[N]or shall private property be taken for public use,
without just compensation.” U.S. CONST. amend. V.

App. 112
IV.
THE PARTIES
37. Plaintiff Callan Campbell Wehry is a United
States citizen and a resident of the Commonwealth of
Pennsylvania. She is one of thousands of Personal Injury Claimants holding allowed claims in the GM
Bankruptcy. On August 17, 2004, one week before she
was to start college, Callan was a front-seat passenger
in a 1996 GMC Jimmy when the driver of the vehicle
lost control while attempting to make a left turn. The
vehicle entered a driver-side leading roll and rolled 1.5
times before landing on its roof. The defectively designed roof of the car collapsed over Callan’s seat. Callan sustained a cervical spinal cord injury at C6-7,
which rendered her a quadriplegic. Callan was 18
years old at the time of her accident. She has been conﬁned to a wheelchair since her injury. Her medical advisors have advised that she will need a wheelchair for
the rest of her life. Callan holds an allowed claim in the
GM Bankruptcy in the amount of $4,900,000.00. Her
rights to assert successor liability claims against New
GM, like those of all the other Personal Injury Claimants holding allowed claims in the GM Bankruptcy,
were extinguished in the 363 Sale at the express direction of the Government. Callan was married on October 10, 2015, and changed her name Callan Campbell
Wehry.
[14] 38. Plaintiff Kevin Chadwick, individually
and through his court-appointed administrator, James
Chadwick, is United States citizen and a resident of

App. 113
the state of Louisiana. He is one of thousands of Personal Injury Claimants holding an allowed claim in the
GM Bankruptcy. On July 4, 1994, Kevin was driving
his 1988 Chevrolet Beretta when a pickup truck ran a
stop sign and the vehicles crashed. Kevin was paralyzed from the neck down. The injury was caused by a
defective seat belt and a defectively designed hood
latch and hood hinge system that allowed the hood to
invade the passenger compartment and strike Kevin
in the head, causing injury to his brain. Kevin was 21
years old at the time of his accident. He holds an allowed claim in the GM Bankruptcy in the amount of
$2,200,000.00. His rights to assert successor liability
claims against New GM, like those of all the other Personal Injury Claimants holding allowed claims in the
GM Bankruptcy, were extinguished in the 363 Sale at
the express direction of the Government.
39. Plaintiff James H. Chadwick, the father of
Kevin Chadwick and the court-appointed administrator of Kevin Chadwick’s Special Needs Trust, is a
United States citizen and a resident of the state of Louisiana. He is one of thousands of Personal Injury
Claimants holding an allowed claim in the GM Bankruptcy. He holds an allowed claim in the GM Bankruptcy, in his individual capacity, in the amount of
$150,000.00. His rights to assert successor liability
claims against New GM, like those of all the other Personal Injury Claimants holding allowed claims in the
GM Bankruptcy, were extinguished in the 363 Sale at
the express direction of the Government.

App. 114
40. Plaintiff Judith Strode Chadwick, the mother
of Kevin Chadwick, is a United States citizen and a
resident of the state of Louisiana. She is one of thousands of Personal Injury Claimants holding an allowed
claim in the GM Bankruptcy. She holds an allowed
claim in the [15] GM Bankruptcy in the amount of
$150,000.00. Her rights to assert successor liability
claims against New GM, like those of all the other Personal Injury Claimants holding allowed claims in the
GM Bankruptcy, were extinguished in the 363 Sale at
the express direction of the Government.
41. Plaintiff the Tyler Junso Estate, through its
personal representative, Kevin Junso, holds an allowed claim in the GM Bankruptcy in the amount of
$1,487,500.00. It is one of thousands of Personal Injury
Claimants holding allowed claims in the GM Bankruptcy. On April 25, 2006, Tyler and his father, Kevin
Junso, were involved a single car rollover accident
while driving a 2003 GMC Envoy. During the rollover,
the windshield and side windows were knocked out, reducing the strength of the roof structure. The GMC Envoy sustained catastrophic damage to the roof
structure, which buckled inwardly toward Tyler and
Kevin. Despite wearing their seatbelts, both occupants
were partially ejected from the vehicle during the roll
over. Seventeen year old Tyler, the driver, sustained
massive skull and neck injuries and died at the scene
of the accident. Tyler’s head was partially outside the
vehicle during the roll over sequence, due to the broken
window and lateral displacement of the roof structure,
and made contact with both the ground and the roof

App. 115
during the crash. Tyler was 17 years old at the time of
his death. The paramedics found Kevin, still buckled
in on the passenger side, with his left leg out the windshield and his right leg out the passenger side window.
Kevin sustained severe injuries to both of his knees
and lower legs, eventually leading to the amputation
of his right leg below the knee and multiple surgeries
to address the severe ligament damage sustained in
his knees. The Tyler Junso Estate holds an allowed
claim in the GM Bankruptcy in the amount of
$1,487,500.00. Its rights to assert successor liability
claims against New GM, like those of all the [16] other
Personal Injury Claimants holding allowed claims in
the GM Bankruptcy, were extinguished in the 363 Sale
at the express direction of the Government.
42. Plaintiff Kevin Junso is a United States citizen and a resident of the state of Utah. He is one of
thousands of Personal Injury Claimants holding an allowed claim in the GM Bankruptcy. Kevin Junso, in his
individual capacity, holds an allowed claim in the GM
Bankruptcy in the amount of $175,000.00. His rights
to assert successor liability claims against New GM,
like those of all the other Personal Injury Claimants
holding allowed claims in the GM Bankruptcy, were extinguished in the 363 Sale at the express direction of
the Government.
43. Plaintiff Niki Junso is a United States citizen
and a resident of the state of Utah. She is one of thousands of Personal Injury Claimants holding an allowed
claim in the GM Bankruptcy. Niki holds an allowed
claim in the GM Bankruptcy in the amount of

App. 116
$87,500.00 for damages associated with loss of her son
Tyler and lifetime injuries to her husband Kevin. Her
rights to assert successor liability claims against New
GM, like those of all the other Personal Injury Claimants holding allowed claims in the GM Bankruptcy,
were extinguished in the 363 Sale at the express direction of the Government.
44. Defendant United States includes, without
limitation, the Department of the Treasury (“Treasury”) and its agents acting at its direction, such as the
members of the Auto Team.
45. This action is brought by the Plaintiffs
against the United States on behalf of themselves and
on behalf of a class of all others similarly situated.
[17] V.
FACTUAL ALLEGATIONS
A. Background to the Government’s Intervention in the Old GM’s Restructuring.
46. Old GM was founded in September 1908. It
was the global automobile sales leader for 77 consecutive years from 1931 through 2007.
47. On Old GM’s one-hundredth anniversary in
September 2008, however, Old GM faced signiﬁcant ﬁnancial difﬁculties stemming from its inability to obtain debt or equity ﬁnancing from private sources or
public markets to fund its mounting operational losses.

App. 117
48. In testimony before the Senate Banking
Committee on November 18, 2008, Rick Wagoner, Old
GM’s Chief Executive Ofﬁcer (“Wagoner”), said that if
the domestic auto industry were allowed to fail, the societal costs would be catastrophic. He predicted that
three million jobs would be lost within the ﬁrst year,
U.S. personal income would be reduced by $150 billion,
tax revenues of more than $156 billion over three years
would be lost, and consumer and business conﬁdence
would suffer a signiﬁcant blow.
49. In response to this ﬁnancial crisis facing Old
GM, the Government, as the only source of funding to
support Old GM’s prodigious cash needs, obtained the
necessary Congressional authorization under the
Troubled Asset Relief Program (“TARP”) to begin
providing funding to Old GM.
50. TARP was established by Congress, effective
as of October 3, 2008, in the Emergency Economic Stabilization Act of 2008, Pub. L. 110-343, 122 Stat. 3765
(“EESA”). EESA authorized the Secretary of the
Treasury to purchase troubled assets from “ﬁnancial
ﬁrms,” but this deﬁnition did not mention manufacturing companies.
[18] 51. On December 18, 2008, Treasury made
the decision to make TARP money available to the U.S.
auto industry and created TARP’s Automotive Industry Financing Program (“AIFP”).
52. The Government made its ﬁrst $13.4 billion
advance in December 2008. Like all other advances
that followed, this advance was secured by a ﬁrst

App. 118
priority security interest in substantially all the assets
of Old GM.
53. Treasury’s loan agreement with Old GM in
connection with that advance (the “TARP Loan
Agreement”) required Old GM to submit by February
17, 2009, for approval by the “President’s Designee,” a
restructuring plan showing how Old GM would
achieve “long-term viability” using TARP funds.
54. In order for Old GM to access further TARP
funding after March 31, 2009, the TARP Loan Agreement required that the viability plan be acceptable to
Treasury and contain the following three conditions:
a.

Old GM was required to establish a
comprehensive agreement for labor and
retiree cost reductions with the International Union, United Automobile, Aerospace, and Agricultural Implement
Workers of America (“UAW”), which represented nearly all of Old GM’s union employees as well as an estimated 500,000
retirees;

b.

As part of any new labor agreement, the
UAW would have to agree that at least
50% of the approximately $18 billion obligation owed by Old GM to the UAW retiree health care trust, called the
“Voluntary Employee Beneﬁciary Association Plan” (the “VEBA Trust”) would be
funded solely through the issuance of Old
GM common stock; and

App. 119
c.

Old GM would have to commence the Exchange Offers for the purpose of obtaining the agreement of at least 90% of the
Bondholders to exchange their Bondholder Debt for Old GM common stock.

[19] 55. None of the conditions to continued
funding under the TARP Loan Agreement, however, included a requirement that Old GM devise a plan that
would impair the ability of Personal Injury Claimants
to fully recover on their products liability claims.
B. The Auto Team Is Formed and Its Influence
Over Old GM Is Extended.
56. On February 15, 2009, the President convened the Presidential Task Force on the Auto Industry (the “Auto Task Force”) to deal with the bailouts
of GM and Chrysler. Treasury Secretary Timothy
Geithner and National Economic Council Director
Lawrence Summers were named co-chairs of the Auto
Task Force, which had 21 members, including several
Cabinet-level ofﬁcials from across the Executive
Branch.
57. While the Auto Task Force was formed to address the restructuring of GM and Chrysler, a group
known as the Auto Team (the “Auto Team”) was
formed and charged with responsibility to evaluate the
restructuring plans of GM and Chrysler, negotiate the
terms of any further ﬁnancial assistance, and make
day-to-day decisions on behalf of the Auto Task Force.

App. 120
58. Leading the Auto Team was Steven Rattner
(“Rattner”), co-founder of the Quadrangle Group, a
private equity ﬁrm. Rattner’s deputy on the Auto Team
was Ron Bloom (“Bloom”), an investment banker with
signiﬁcant union-related experience who had worked
for Lazard Frères & Co.
59. The other two key members of the Auto Team
who worked on Old GM’s restructuring with Rattner
and Bloom were Matthew Feldman (“Feldman”), who
was head of the corporate restructuring practice at the
law ﬁrm of Wilkie, Farr & Gallagher, and Harry Wilson
(“Wilson”), who was a member of Silver Point Capital,
a hedge fund management ﬁrm.
[20] 60. These four leaders of the Auto Team
played a major role in directing Old GM’s restructuring through the close of the 363 Sale, with Wilson leading the team having responsibility for direct oversight
of Old GM’s ﬁnancial and operational restructuring.
61. In addition to Feldman, the Government retained several preeminent law ﬁrms as outside counsel
to advise the Government on out-of-court restructuring alternatives and the novel option, which had never
been tried before in connection with a Governmentsponsored corporate bailout, of a sale directly to the
Government under Section 363 of the Bankruptcy
Code. None of the Government’s outside or in-house
counsel, however, provided material advice as to
whether the actions of the Government in directing the
extinguishment of Personal Injury Claimants’ rights
to assert successor liability claims against New GM

App. 121
might violate the just compensation requirements of
the Takings Clause.
62. It was the absence of such advice that led
Wilson, in justifying the Government’s decision to
leave Personal Injury Claims behind with Old GM despite there being “some obvious human sensitivities,”
to testify that “our test had to be what a commercial
buyer would do; we had a ﬁduciary duty to use taxpayer dollars in the most appropriate way, and that’s
the judgment that we had to ultimately make.”
63. On February 17, 2009, Old GM submitted its
restructuring plan to the Auto Team, as required by
the TARP Loan Agreement. The Auto Team promptly
sent a memo to the heads of the Auto Task Force with
“ﬁrst-blush impressions” of Old GM’s restructuring
plan. The memo listed four central risks to Old GM’s
plan, none of which mentioned any adverse impact to
Old GM from having to pay Personal Injury Claimants
in full.
[21] 64. On or around March 19, 2009, according
to Rattner, the Auto Team determined that the driving
factor in establishing a target ﬁling date for the GM
Bankruptcy was an upcoming payment due June 1,
2009 to the Bondholders.
65. The Auto Team members reasoned that if Old
GM made that payment, it would be paying 100 cents
on the dollar to bondholders who, as unsecured creditors, were only entitled to a fraction of that amount
given Old GM’s value relative to its capital structure.

App. 122
66. What followed was the Auto Team’s direct involvement in the decisions affecting Old GM, using its
ﬁnancial leverage as Old GM’s only conceivable lender,
to signiﬁcantly inﬂuence the decisions of Old GM
through the closing of the 363 Sale.
67. In March 2009, the Auto Team believed that
Old GM, under the leadership of then Chief Executive
Ofﬁcer Wagoner was unwilling to move toward bankruptcy.
68. Wagoner had been adamantly opposed to
putting Old GM into bankruptcy and had done little, if
any, planning for the possibility because he did not believe that Old GM could survive a bankruptcy.
69. On March 27, 2009, Rattner called Wagoner
and its then-President and Chief Operating Ofﬁcer,
Fritz Henderson (“Henderson”), to separate meetings. At the meeting with Wagoner, Rattner asked for
his resignation, which Wagoner tendered. Separately,
Rattner asked Henderson to serve as Old GM’s CEO,
which Henderson accepted.
70. The Auto Team’s decision to replace Wagoner
with its hand-picked selection, Henderson, sent a clear
message to Old GM’s Board of Directors and senior executive team of Old GM that the Government would
have signiﬁcant inﬂuence over Old GM’s operating and
restructuring decisions.

App. 123
[22] 71. Three days after this management
shake-up, on March 30, 2009, the Obama Administration publicly rejected the restructuring plan Old GM
had submitted on February 17, 2009 as not viable.
72. Concurrently, the Administration issued a
“viability determination fact sheet,” which signaled its
willingness to work with Old GM to effect an out-ofcourt restructuring by stating:
In order to execute a new, more aggressive restructuring plan within 60 days, we will work
with [Old] GM to use all available tools to implement this plan. The best path to achieve
this may well be an expedited, court-supervised process to extinguish unsustainable liabilities, should an out-of-court restructuring
not be possible.
73. With the issuance of the viability determination fact sheet, Treasury also advanced an additional
$6 billion in TARP funds to Old GM, enough to enable
it to survive over the next 60 days.
74. Nothing in the Administration’s viability determination fact sheet mentioned the need to eliminate or reduce the costs associated with Personal
Injury Claims. Quite the opposite. A section entitled
“Support for Consumers and the Auto Industry” reassured consumers that the restructuring would not adversely affect them. It stated:
During this process, the Administration
wants to ensure that consumers have conﬁdence in the cars they buy. . . . Consumers

App. 124
who are considering new car purchases
should have the conﬁdence that even in this
difﬁcult period, their warranties will be honored.
75. By late March 2009, the administration conclusively determined that a forced or orderly liquidation of Old GM was “unthinkable.” According to the
Auto Team’s leader, a forced or orderly liquidation an
option that the Government “never seriously considered” since Old GM, as America’s second largest industrial company, “was deeply woven into the very fabric
of [23] America, with its generations of workers, its
networks of suppliers and dealers, its historical resonance, and its symbolism.”
76. To the new administration, according to the
Auto Team’s leader, Old GM “embodied the intimate
connection between the free capital markets and the
social and political contract on which they depend and
so it could not be allowed simply to disappear,” particularly since the Auto Team felt that” [Old] GM’s problems were, to a considerable degree, of its own
making—and ﬁxable.”
C. With the Government’s Support, Old GM
Commences the Exchange Offers in Hopes
of Effectuating an Out-of-Court Restructuring of Old GM.
77. Even after Wagoner’s removal, Old GM’s executives strongly preferred an out-of-court restructuring to a bankruptcy proceeding.

App. 125
78. One of Henderson’s ﬁrst acts as new CEO
was to advise Old GM executives that his preferred approach was to restructure Old GM through an out-ofcourt restructuring centered around the Exchange Offers, which Old GM considered as “Plan A” and a bankruptcy ﬁling as “Plan B.”
79. On April 27, 2009, with the Government’s express approval, Old GM commenced the Exchange Offers for its $27 billion in unsecured publicly-traded
Bondholder Debt. If consummated, the Bondholders
would have received a 10% ownership stake in Old
GM’s common stock.
80. In a press release accompanying the Exchange Offers, approved by the Government, Old GM
stated that “[t]he exchange offers are a vital component of GM’s overall restructuring plan to achieve and
sustain long-term viability and the successful consummation of the exchange offers will allow GM to restructure out of bankruptcy court.”
[24] 81. The Government supported Old GM’s efforts in obtaining the requisite consents in the Exchange Offers by agreeing to advance an additional $4
billion in ﬁrst priority secured debt to Old GM in May
2009.
82. Had all the Government’s conditions to the
Exchange Offers been satisﬁed, the Government
agreed that it would consent to the Exchange Offers
and convert its entire debt into a majority equity stake
in Old GM’s common stock, thereby eliminating the
need for a bankruptcy ﬁling.

App. 126
83. Consummation of the Exchange Offers also
would have meant that all Personal Injury Claims
would have been paid in full in the ordinary course.
D. Personal Injury Claims Are Classified by
the Government and Old GM as “Politically
Sensitive” Liabilities.
84. On May 1, 2009, Old GM and the Government engaged in a planning meeting to carve up the
myriad of tasks necessary to plan for a possible bankruptcy ﬁling and 363 Sale in the event the Exchange
Offers failed.
85. Among the action items requested by the
Government was development of a list of so-called “politically sensitive” liabilities.
86. These liabilities carried sensitivities for Old
GM and the Government primarily because the manner in which they were handled in any restructuring
had a reputational impact on both Old GM and the
Government.
87. Old GM’s CFO Young stated that this exercise was about identifying liabilities that might present a public relations challenge if New GM did not
assume them.
88. Old GM’s management considered payment
of Personal Injury Claims in the ordinary course to be
an important component of the customer relationship
program for the GM brand and therefore put these
claims on the list of “politically sensitive” liabilities.

App. 127
[25] 89. Shortly thereafter, Old GM sent the Government a memo that identiﬁed approximately $6 billion in such “politically sensitive” liabilities.
90. Included on the list was the $916 million in
Personal Injury Claims that, as of December 31, 2008,
comprised Old GM’s products liability loss reserve (the
“Products Liability Loss Reserve”).
91. Old GM set the Products Liability Loss Reserve based on a rigorous annual review of Old GM’s
historical loss records conducted by Aon Global Risk
Consulting (“Aon”) to determine the projected losses
associated with Personal Injury Claims.
92. This $916 million Products Liability Loss Reserve ﬁgure was then reported on Old GM’s publiclyﬁled audited ﬁnancial statements for the year ending
December 31, 2008.
93. Aon determined that the $916 million Products Liability Loss Reserve could be segregated into
$388.8 million for expected losses associated with existing reported claims and another $376.4 million for
expected losses associated with unreported claims that
would eventually be reported. The remaining $150.8
million was allocated to defense costs for both categories of claims.
94. Because Old GM’s insurance coverage for
these claims was triggered only when the loss per occurrence exceeded $35 million, Old GM was essentially
self-insured for all of these Personal Injury Claims.

App. 128
95. Old GM management recommended assumption of these “politically sensitive” Personal Injury
Claims because it was concerned that rejecting such
claims would adversely impact the company’s reputation.
96. Old GM projected that the cash ﬂow impact
of assuming all Personal Injury Claims represented by
the $916 million Products Liability Loss Reserve
would only be [26] approximately $100 million per year
for the ﬁrst ﬁve years following consummation of the
363 Sale.
E. The Exchange Offers Expire, the Sale
Agreement Is Finalized Six Days Later, and
the GM Bankruptcy Is Commenced.
97. The Exchange Offers failed to garner the requisite acceptances from 90% of the Bondholders and
expired on May 26, 2009.
98. As a condition to additional funding, the Government mandated that Old GM ﬁle its bankruptcy petition for relief on June 1, 2009, the day that a $1
billion interest payment would have been required to
be paid on the Bondholder Debt.
99. By ﬁling bankruptcy, Old GM would be precluded as a matter of law from making this interest
payment while the Bondholders would be precluded by
the bankruptcy “automatic stay” from taking any action against Old GM on account of the defaulted interest payment.

App. 129
100. Old GM’s Board of Directors met on May 29
and 30, 2009 to approve the bankruptcy ﬁling and the
Sale Agreement, which would set the precise terms of
the 363 Sale.
101. Before that Board meeting, the Government
directed that the section of the Sale Agreement governing the assumption of liabilities by New GM exclude
all Personal Injury Claims, whether presently existing
or arising in the future, along with most of the other
“politically sensitive” liabilities.
102. “Personal Injury Claims, however, the Government speciﬁcally represented to the Board at the
meeting that if the Government decided before the
close of the Sale to assume these liabilities, it would
still close the Sale without any change in the consideration paid to Old GM.
[27] 103. At the conclusion of the board meeting,
Old GM’s Board of Directors voted to authorize the ﬁling of the GM Bankruptcy and the concurrent ﬁling of
the Sale Agreement for approval by the Bankruptcy
Court.
104. The Government conditioned additional
funding for Old GM on a “quick-rinse bankruptcy” (as
Rattner called it) that would enable the Government
to consummate the outright purchase by New GM of
substantially all the operating assets of Old GM within
40 days after the bankruptcy ﬁling.
105. Rattner described the Government’s coercive threat that the Sale be consummated within 40

App. 130
days as “the ﬁnancial equivalent putting a gun to the
heads of the bankruptcy judge, GM’s stakeholders, and
of course Team Auto itself.” By this he meant that everyone involved was left with no choice but to submit to
the Government’s “quick-rinse” demands or be saddled
with blame for precipitating Old GM’s liquidation and
the consequent demise of the entire domestic auto industry.
106. Left with no option but to comply with the
Government’s mandate or face certain liquidation, Old
GM ﬁled its bankruptcy petition for relief in the bankruptcy court for the Southern District of New York (the
“Bankruptcy Court”) on June 1, 2009.
107. Contemporaneous with its bankruptcy ﬁling, Old GM ﬁled two important motions. One motion
(the “Sale Motion”) sought authority from the Bankruptcy Court to sell, pursuant to the Sale Agreement,
substantially all Old GM’s operating assets to New GM
pursuant to the strict terms of the Sale Agreement.
108. The Government insisted that Sale Motion
seek Bankruptcy Court authorization of the Sale under Sections 363(b) and (f ) of the United States Bankruptcy Code (11 U.S.C. §§ [28] 363(b), (f )), which
together authorize a bankrupt debtor to sell its property outside of a chapter 11 plan of reorganization “free
and clear of any interest in such property.”
109. The second motion sought approval of a
postpetition credit facility that gave the Government
the right to advance up to an additional $33.3 billion
to Old GM on a ﬁrst priority secured basis, subject to

App. 131
the limiting condition that the entire facility would terminate if the Bankruptcy Court did not approve the
Sale Motion by July 10, 2009, the fortieth day after the
bankruptcy ﬁling (the “DIP Financing Motion”).
110. The DIP Financing Motion was approved by
the Bankruptcy Court and the Government made advances in the intervening days that, by the time of the
Sale, resulted in the Government having a total of
$52.7 billion in ﬁrst priority secured loans outstanding
to Old GM.
111. The $33.3 billion advanced by the Government after Old GM’s bankruptcy ﬁling, however, was
not needed by Old GM to fund its operations during
the 40 day “quick-rinse” cycle mandated by the Government.
112. Rather, its purpose was to give the Government sufﬁcient ﬁrst priority secured debt to enable it
to tender a $48.7 billion credit bid in exchange for substantially all the assets of Old GM.
113. The ﬁnancial expert for Old GM testiﬁed at
the Bankruptcy Court’s hearing on the Sale Motion
that, even under the most optimistic of valuation assumptions, the Government’s $48.7 billion credit bid
would exceed the value of all assets purchased by the
Government in the Sale by $700 million.
114. In crafting the Sale Agreement, the Government unilaterally determined which liabilities of Old
GM would be assumed by New GM (and paid in full)
and which liabilities [29] would be left behind with Old

App. 132
GM (and receive whatever distributions, if any, would
be paid to general unsecured creditors in the GM
Bankruptcy).
115. In cherry-picking which liabilities to assume as successor or leave behind with Old GM, the
Government went well beyond the agreements reached
with Old GM in the Exchange Offers regarding the acceptable aggregate amount of liabilities for assumption by the restructured enterprise.
116. Not only did the Government leave behind
the Bondholder Debt (as contemplated by the Exchange Offers), it also left behind the Personal Injury
Claims that the Government agreed only ﬁve days earlier would be paid in full in the event the Exchange
Offers were successfully consummated.
117. In choosing which additional liabilities to
exclude from the Sale Agreement in addition to the
Personal Injury Claims, however, the Government did
not similarly exclude the vast majority of other unsecured claims, aggregating approximately $41.7 billion
(excluding Bondholder Debt), that also were scheduled
to be paid in full if the Exchange Offers were successfully consummated.
118. Instead, the Government provided in the
Sale Agreement that, notwithstanding the dramatically worse treatment afforded Personal Injury Claimants in the Sale compared with the treatment
contemplated for them in the Exchange Offers, New
GM would assume these other $41.7 billion in liabilities and pay them in full following the closing of the

App. 133
Sale. The $41.7 billion in liabilities to be assumed by
New GM in the Sale were represented by:
a.

$15.5 billion in dealer obligations, warranty obligations, customer deposits,
deferred revenues, and marketing liabilities;

b.

$8.4 billion in post-employment beneﬁts
to union and non-union retirees;

[30] c. $5.4 billion in estimated future pension cash contributions (at present
value);
d.

$5.4 billion in trade payables;

e.

$3.8 billion in payroll, post-employment
beneﬁts and training, and pension obligations owing to Delphi Automotive, a former division of Old GM that had been
spun-off in 1999; and

f.

$3.1 billion in various other operating
liabilities, including rent, taxes, and capital leases.

119. In the Sale, the Government also showed
special favor to $18 billion in prepetition unsecured
claims owed by Old GM to the VEBA Trust, a retiree
beneﬁts trust maintained by Old GM’s most powerful
labor union, the UAW. Speciﬁcally, the Government
agreed that, at the closing of the 363 Sale, New GM
would issue to the VEBA Trust $6.5 billion in New GM
preferred stock along with 17.5% of New GM common
stock. The equity interests granted the VEBA Trust by
New GM were valued as of the closing of the Sale at

App. 134
between $13.15 billion and $14.9 billion, representing
a projected 73%-82% recovery to the VEBA Trust on
account of its $18 billion in unsecured claims against
Old GM.
120. As such, after the Exchange Offers failed
and the Sale Agreement was ﬁled with the Bankruptcy
Court six days later, the Government did not change
the proposed payment in full for treatment of approximately $60 billion in prepetition unsecured liabilities
described above.
121. Nor did the Government propose a worse
treatment for Bondholders in the Sale Agreement despite the fact that the Bondholders’ rejection of the
Exchange Offers directly precipitated Old GM’s bankruptcy ﬁling. In fact, Old GM was projecting that recoveries to Bondholders would nearly double compared
with what had been offered them in the Exchange Offers.
[31] 122. In stark contrast to the same or improved treatment given the nearly $90 billion of combined general unsecured and Bondholder Debt
described above compared with the treatment proposed for these claims in the Exchange Offers, the Government inexplicably slashed the projected recoveries
to Personal Injury Claimants by 80%-90% from the full
payout proposed for them in the Exchange Offers.
123. The Government’s rationalization for this
disparate treatment of liabilities having the same priority was that it only would assume those liabilities
that it determined were “commercially necessary” for

App. 135
New GM to succeed, with one Government ofﬁcial testifying in support that “our animating principle from
the very beginning . . . was what’s the commercial basis, the commercial need for that liability to be brought
to New [GM]; why would a buyer buy that liability if
he or she didn’t have to.”
124. But this attempt to rationalize the grossly
disproportionate treatment of Personal Injury Claims
fails because only ﬁve days before the Sale Agreement
was executed by Government and Old GM, the Government had been willing to consummate an out-of-court
restructuring pursuant to the Exchange Offers that
guaranteed full payment to Personal Injury Claimants
in the ordinary course.
125. More than not agreeing to assume the Personal Injury Claims in the Sale Agreement, however,
the Government went the extra step of (i) conditioning
the closing of the Sale on inclusion of a provision
within the Sale Order that expressly extinguished the
rights of any Personal Injury Claimant to assert successor liability claims against New GM and (ii) threatening to terminate all funding to Old GM unless the
Sale Order were entered by July 10, 2009 and not subject to any stay pending appeal.
[32] 126. This additional condition deprived the
Personal Injury Claimants of their manifest right under the laws of the State of Michigan (where New GM
could be sued by any one of these claimants) to assert
successor liability claims against New GM based on
the seamless transition of operations from Old GM to

App. 136
New GM after the 363 Sale, as illustrated by the following:
a.

Four of Old GM’s eight brands were assumed by New GM (the remainder were
discontinued);

b.

Old GM’s management and employees
continued in their same roles with New
GM;

c.

New GM marketed its operating business
under the identical “GM” brand name and
trademarks;

d.

Most of Old GM’s tangible and intangible
assets were purchased and used by New
GM (including Old GM’s goodwill);

e.

New GM continued to sell cars through
dealers who were dealers of Old GM;

f.

New GM continued to purchase the same
materials from the same suppliers under
the same contractual terms available to
Old GM;

g.

Service relationships with dealers continued under New GM;

h.

New GM’s marketing campaign was designed so that the customer viewed the
transfer as a uninterrupted transition of
the best parts of Old GM to the New GM
from a warranty, services, parts, and experiential perspective;

i.

Press releases announced that, after the
363 Sale, GM “would execute the key

App. 137
elements of its April 27 viability plan,
along with additional initiatives, to
achieve winning ﬁnancial results by putting customers ﬁrst, concentrating on
adding to the Company’s line of awardwinning cars and trucks through four
core brands”;
j.

The Government effected a “loan to own”
strategy that enabled it, as Old GM’s only
viable lender, to obtain majority control
over Old GM prepetition on a fully dilute
basis and to direct a “quick-rinse” bankruptcy sale of Old GM to the Government;
and

k.

In furtherance of its “loan to own” strategy, the Government maintained tight
control over New GM’s board and senior
management after the close of the Sale,
including the right to appoint 10 of the 13
members of New [33] GM’s board of directors (with no more than 5 directors being
legacy directors of Old GM) and to implement any corporate action by majority
written consent.

127. In Foster v. Cone-Blanchard Mach Co., 597
N.W.2d 509 (Mich. 1999), the Michigan Supreme Court
held that the “continuity of enterprise” doctrine is a
well-established doctrine for asserting successor liability claims and “provide[s] a remedy to an injured plaintiff in those cases in which the [seller] corporation
‘legally and/or practically becomes defunct’ . . . and the
injured plaintiff ‘has no place to turn for relief except

App. 138
to the second corporation.’ “ Id. at 511 (citing Turner v.
Bituminous Cas. Co., 244 N.W. 2d 873, 879 (Mich.
1976)).
128. Based on Foster, it is evident that in the absence of the Sale Order’s injunctions against initiation
of successor liability claims against New GM, all Personal Injury Claimants could have successfully
brought such claims against New GM under the “continuity of enterprise” doctrine, as established by the
following indisputable facts:
a.

There was a continuation of the enterprise from Old GM to New GM based on
the continuity of management, personnel,
physical location, assets and general
business operations;

b.

Old GM ceased operating and liquidated
following the Sale;

c.

New GM assumed those liabilities and
obligations that it believed were commercially necessary for the uninterrupted
continuation of normal business operations of Old GM; and

d.

New GM held itself out to the world as
the effective continuation of Old GM.

129. Foster further held that the “continuity of
enterprise” doctrine would not be negated where, as
here, there was no continuity of ownership between the
predecessor and successor corporation.

App. 139
130. As such, it was only the unique ability under federal bankruptcy law to execute sales “free and
clear” of successor liability claims that enabled the GM
Bankruptcy Court to [34] hold, purely as a matter of
bankruptcy law, that—facts aside—New GM would not
be deemed the legal successor to Old GM.
F. The Government Changes the Treatment of
Certain Personal Injury Claims After the
Filing Date.
131. Old GM ﬁled its bankruptcy petition a day
after an identically-patterned 363 sale in the bankruptcy case of Chrysler, LLC was approved by the
bankruptcy court overseeing that case.
132. In the GM Bankruptcy, however, the Government faced stiffer political winds than it had faced
in Chrysler’s regarding the treatment of Personal Injury.
133. This opposition organized with greater force
in the GM Bankruptcy primarily because the bankruptcy court in the Chrysler case, the ﬁling of which
preceded the GM Bankruptcy by exactly one month,
held that all successor liability claims of products liability claims (including those of future accident victims) could be extinguished in a sale under
Bankruptcy Code section 363 if those accidents occurred in cars manufactured prepetition.
134. Following the GM Bankruptcy ﬁling, Old
GM’s senior management continued to advocate for

App. 140
New GM’s assumption of existing Personal Injury
Claims arising from accidents that occurred prepetition, but the Government refused to authorize their assumption by New GM.
135. Within a few days after the commencement
of the GM Bankruptcy, however, the Government
agreed to change the Sale Agreement so that New GM
would indemnify the entire GM dealer network for any
Personal Injury Claims asserted against a member of
that network.
136. The Government and Old GM projected
that this indemnity obligation to dealers would result
in the effective assumption by New GM of approximately $434 million (or 46%) of the Personal Injury
Claims represented by the $934 million Products Liability Loss Reserve as of March 31, 2009.
[35] 137. Consequently, the projected cash ﬂow
impact of assuming the remaining prepetition Personal Injury Claims (which Old GM projected at $500
million, or approximately 54% of the $934 million
Products Liability Loss Reserve recorded by Old GM
on its publicly ﬁled ﬁnancial statements as of March
31, 2009) was reduced from the original estimate of
$100 million per year for the ﬁrst ﬁve years following
consummation of the 363 Sale to approximately $54
million per year.
138. Of this remaining $500 million reserve, approximately $81 million represented projected defense
costs and $419 million represented the projected

App. 141
actual liability to the remaining personal injury claimants whose liabilities were not assumed by New GM.
139. Despite this additional signiﬁcant change to
the allowance of Personal Injury Claims as a result of
the dealer indemnity agreements, and consistent with
its promises to the GM Board in advance of the bankruptcy ﬁling, the Government neither attempted to renegotiate a downward adjustment to the purchase
price nor threatened to walk from the deal.
G. The Sale Is Approved by the Bankruptcy
Court, But the Sale Order, by Its Terms,
Does Not Become Effective Until Noon on
July 9, 2009, the Order Effective Date.
140. On July 5, 2009, following three full days of
hearing, the Bankruptcy Court entered the Sale Order
approving the Sale Agreement. The Sale Order, however, did not become effective, by its terms, until 12:00
p.m., EDT, on July 9, 2009.
141. Throughout the hearings on the Sale, and
thereafter in emails among counsel regarding the form
of Sale Order that would be submitted for approval by
the Bankruptcy Court, the Government refused to
yield one iota in its demand that the Sale Order contain broad language extinguishing all rights to assert
successor liability claims against New GM, including
on account of Personal Injury Claims not explicitly assumed in the Sale Agreement.

App. 142
142. To that end, the Government insisted that
the Sale Order provide that:
[36] a. The closing of the Sale would “vest
New GM with all right, title, and interest
of the Debtors [i.e., Old GM] . . . free and
clear of liens, claims, encumbrances, and
other interests . . . , including rights or
claims . . . based on any successor or
transferee liability”;
b.

“New GM shall not be deemed . . . to: (i)
be a legal successor . . . to the Debtors
. . . , (ii) have, de facto or otherwise,
merged with or into the Debtors; or (iii)
be a mere continuation or substantial
continuation of the Debtors or the enterprise of the Debtors”; and

c.

“all persons and entities are forever prohibited and enjoined from commencing or
continuing in any manner any action or
other proceeding . . . against New GM . . .
with respect to any . . . successor or transferee liability of New GM for any of the
Debtors.”

See Sale Order, Ex. 1, at p. 13, ¶ AA; p. 24, ¶ 10; p. 40,
¶ 46; p. 41, ¶ 47.
143. In pressing its case before the Bankruptcy
Court for an injunction barring the assertion of successor liability claims against New GM, the Government
agreed that such rights are “interests in property” that
could be extinguished in a “free and clear” sale under
section 363(f ) of the Bankruptcy Code. Further, its

App. 143
attorneys expressly concurred on the record with the
assessment that rights to assert successor liability
claims are “interests in property.”
144. The Bankruptcy Court agreed, stating in
the Sale Opinion it would follow the holding of the Second Circuit in In re Chrysler, LLC, 405 B.R. 84 (Bankr.
S.D.N.Y. 2009), aff ’d, 576 F.3d 108 (2d Cir. 2009), that
the Personal Injury Claimants’ rights to assert successor liability claims against the buyer of Chrysler’s assets constitute “interests in property” because these
claims “arise from the property being sold.” In re
Chrysler, LLC, 576 F.3d 108, 126 (2d Cir. 2009). See
Sale Opinion, Ex. 2, at p. 60, n.109 (citing 3 Collier on
Bankruptcy at ¶ 363.06[1] (“the trend seems to be in
favor of a broader deﬁnition [of “interests in property”]
that encompasses other obligations that may ﬂow from
ownership of the property”)).
145. The GM Bankruptcy Court stated that the
“only truly debatable issues in this case” are “how any
approval order should address successor liability.” (See
Sale Opinion, Ex. 1, [37] at p. 3). But in the face of the
Government’s coercive threat to cut off DIP Financing
and force Old GM into immediate liquidation unless
the Government got what it wanted (i.e., a Sale Order
that enjoins Personal Injury Claimants’ successor liability claims and that is not stayed by a reviewing
court pending appeal), neither the Bankruptcy Court
nor the District Court was willing—in the words of the
Bankruptcy Court—“to gamble on the notion that the
Government didn’t mean it when it said that it would

App. 144
not keep funding GM.” (See Sale Opinion, Ex. 2, at p.
3).
146. These threats were, in the words of the head
of the Auto Team, “the ﬁnancial equivalent of holding
a gun to the head” of the Bankruptcy Court and District Court in order to compel a result regarding the
treatment of successor liability claims in a 363 Sale
that at the time was uncertain and involved novel issues of bankruptcy law.
H. Between the Order Entry Date and Order
Effective Date, the Government Objects to
All Efforts to Stay the Effectiveness of the
Sale Order While Continuing to Threaten
Immediate Liquidation If the Sale Order Either Is Stayed Past July 10, 2009 or Fails to
Extinguish and Enjoin All Personal Injury
Claimants’ Successor Liability Claims.
147. Despite the Government’s ﬁnancial indifference to assumption of Old GM’s liabilities to Personal
Injury Claimants, in both the 363 Sale proceedings before the GM Bankruptcy Court and the subsequent
stay hearings before the GM Bankruptcy Court and
District Court between the Order Entry Date and the
Order Effective Date, the Government threatened that
(a) it would not continue to provide Old GM with DIP
Financing, critical for Old GM to survive even a day in
bankruptcy, if the Sale Order was not effective and not
subject to a stay pending appeal as of July 10, 2009,
the targeted Closing Date, and (b) it would not close
the acquisition unless the Sale Order included

App. 145
provisions that enjoined the Personal Injury Claimants from pursuing successor liability claims against
New GM and held the assets transferred to New [38]
GM in the 363 Sale would be “free and clear” of the “interests in property” that these claims were.
148. Between the Order Entry Date and the
Closing Date, the heads of the Center for Auto Safety
(Clarence Ditlow) and the Center for Justice & Democracy (Joanne Doroshow), together with other consumer
advocacy groups, lobbied heavily on Capitol Hill and in
the media in hopes of getting the administration to
waive the condition that the Personal Injury Claimants’ successor liability claims be extinguished in the
Sale. Though, in the words of Ms. Doroshow on July 8,
2009, “[t]here is a lot happening on the Hill that is extremely positive” and “[k]eeping urgent pressure on
the Hill is critical,” political pressure ultimately failed
to alter the Government’s decision to close on the Sale
without changing the treatment afforded Personal Injury Claimants on account of their successor liability
claims against New GM.
149. In the Government’s opposition ﬁled on July
7, 2009 to motions ﬁled after the Order Entry Date
seeking a direct and expedited appeal of the Sale Order
to the Second Circuit or, alternatively, for a stay pending appeal, the Government argued that “any stay
pending appeal must be conditioned upon a substantial supersedeas bond to protect New GM and the debtors’ stakeholders from the potentially disastrous
consequences if the sale does not close promptly.” That
bond, the Government argued, “is plainly in the

App. 146
billions, if not tens of billions, of dollars” and potentially could reach “the $90 or so billion in damages to
these estates in a liquidation scenario as opposed to
under the 363 [Sale] Transaction,” though the minimum should be “at least $7.4 billion.”
150. In denying these motions in a “Bench Decision and Order” dated July 7, 2009 (the “Bench Decision”), the Bankruptcy Court reiterated its concern
that “[t]he continued availability of the ﬁnancing provided by Treasury is expressly conditioned upon approval of this motion by [39] July 10. . . . Without such
ﬁnancing, GM faces immediate liquidation. . . . If I or
any other court were to grant the requested stay, GM
would soon have to liquidate.”
151. The Ad Hoc Committee of Asbestos Personal
Injury Claimants, who—along with the Plaintiffs—
moved for a direct and expedited appeal of the Sale Order before the Bankruptcy Court, ﬁled late in the day
on July 8, 2009 a motion with the District Court for a
stay pending appeal. With the Sale Order set to go effective by its terms at noon on July 9, 2009, the District
Court required briefs in opposition be ﬁled no later
than 4:00 a.m. on July 9, 2009 and set oral argument
for 8:30 a.m. that same day.
152. In the Government’s opposition to the motion for a stay pending appeal ﬁled in the District
Court on July 9, 2009, the Government stated that “[a]
key aspect of the undisputed evidence [before the
Bankruptcy Court at the Sale hearing] was Treasury’s
unwillingness to continue to fund GM’s operations

App. 147
absent the prompt closing of the sale, throwing good
money after bad.”
153. To dispel any doubt of the Government’s position that it would cease funding Old GM and let it
liquidate rather than spend even a dollar of incremental funding for the beneﬁt of Personal Injury Claimants, the Government’s opposition quoted the following
testimony of the Auto Team’s Harry Wilson during the
Sale hearing:
Q: Okay. You testiﬁed, on a few occasions,
that Treasury had no intention to fund
General Motors after July 10th if the sale
order is not entered, is that right?
A:

Yes.

Q: Why not?
A:

Well, it goes to the core principle or concern about any Chapter 11 proceeding,
which is that this business cannot withstand the uncertainty of an open-ended
process or a process of uncertain duration. . . . General Motors’ market share
today is dramatically [40] lower than it
was a year ago before the ﬁnancial distress entered in. Market share this time
last year was about twenty-two percent.
It’s a little bit over eighteen percent now.
That’s a massive erosion. And that was
based on the fears of distress and despite
the intervention of the U.S. Treasury. I
imagine if there was concern about how
that would play out over time, it would

App. 148
only be dramatically larger, in our estimation. So that’s why we cannot take an
open-ended commitment. We have a ﬁduciary duty to the U.S. taxpayers. We’ve
made a judgment that the funding associated with this process was appropriate
but that any incremental funding we are
not willing to provide.
*
A:

*

*

Yes.

Q: And that you and your designates and
your counsel were negotiating a ﬁnal version of the sale order, is that correct?
A:

Yes.

Q: And is it your expectation that that ﬁnal
sale order, when it is submitted to Judge
Gerber, will reﬂect the Treasury’s ﬁnal
position on all of the objections that have
been ﬁled?
A: That’s correct.
Q: And if that ﬁnal order, as it reﬂects Treasury’s resolution of all of the objections
that have been ﬁled, is not entered on or
before July 10th, does Treasury have an
intention to fund?
A.

No.

154. At oral argument later that morning before
the District Court, the Government’s lawyers addressed the District Court and reiterated the Government’s position, as stated in its opposition brief, that

App. 149
“no amount would adequately hedge against the ‘potentially grievous systemic damage to the automobile
industry’ that would result from GM’s liquidation. As
a result, even a stay conditioned on a multibillion dollar bond ‘would be unconscionable.’ ” (emphasis in original, quoting from Bench Decision). In sum, the
Government argued, ﬁnancial destruction would follow in the wake of any tinkering with the Sale Order.
[41] 155. The Court issued a preliminary oral decision following argument heard on July 9, 2009, and
later that morning issued its written opinion denying
the motion for stay pending appeal. In its opinion, the
District Court noted at the outset that “the entry of
even a brief stay would constitute an event of default
and provide the [Government] the right to refuse ﬁnancing. . . . There is thus a substantial risk that the
government would exercise such a right and that GM
would be forced into liquidation with disastrous consequences for GM, its creditors [including the appellants
challenging the successor liability provisions of the
Sale Order], and our country.”
156. In sum, between the Order Entry Date of
July 5, 2009 and continuing through oral argument at
a stay hearing before the District Court on the morning of July 9, 2009, just hours before the Sale Order
was, by its terms, to become effective, the Government
continued to threaten that (a) it would not continue to
provide Old GM with DIP Financing if the Sale Order
were not effective and not subject to any stay pending
appeal as of the Closing Date, and (b) it would not close
the acquisition unless the Sale Order included

App. 150
provisions that enjoined the Personal Injury Claimants from pursuing successor liability claims against
New GM.
I.

The Sale Closes and All Personal Injury
Claimants’ Rights to Assert Successor Liability Claims Are Extinguished and Enjoined.

157. New GM consummated the 363 Sale on the
Closing Date, July 10, 2009.
158. With neither the Bankruptcy Court nor the
District Court willing to stay the Order Effective Date,
the Government, in reliance on the effectiveness of the
Sale Order, closed the Sale on July 10, 2009.
159. New GM paid approximately $91.1 to $93.5
billion for substantially all the assets of Old GM in the
363 Sale, broken down as follows:
a.

a $48.7 billion credit bid of senior secured
debt owed the U.S. Treasury; plus

[42] b. $48.4 billion of assumed liabilities
that would be paid in full, including the
$41.7 billion in liabilities described above
and $6.7 billion additionally owed to the
Government; plus
c.

$7.4 to $9.8 billion in value being given to
Old GM in the form of New GM equity
(stock and warrants); less

d.

$13.4 billion of excess cash on hand at Old
GM from TARP loan advances that would

App. 151
be transferred to New GM at the closing
of the 363 Sale.
160. Based on the various agreements described
above and reﬂected in the Sale Agreement and the record of the proceedings before the Bankruptcy Court,
the post-closing ownership of New GM was as follows:
•

60.83% by the Government on account of
its credit bid;

•

11.67% by the Canadian Government (in
exchange for $9.5 billion in debt to the
Canadian Government assumed by New
GM and immediately converted to common stock);

•

17.5% by the VEBA Trust; and

•

10% by the Old GM bankruptcy estate
(having an estimated value at the Sale
closing of $3.8-$4.8 billion).

161. The Old GM bankruptcy estate also received two tranches of warrants that gave it the right
to purchase up to 15% of New GM common stock,
which Old GM’s ﬁnancial expert testiﬁed had an estimated value at the closing of the 363 Sale of $3.6-$5.0
billion.
162. The equity consideration distributed to Old
GM, however, was not delivered at or around the time
of the closing of the 363 Sale to Personal Injury Claimants or holders of any other general unsecured claims.
163. Stripped of all rights to assert successor liability claims against New GM, the Personal Injury

App. 152
Claims were relegated to the bottom of Old GM’s barrel
and limited to a pro rata share of whatever recoveries,
if any, Old GM would pay to its general unsecured creditors.
[43] 164. Although Old GM was projecting that
total allowed general unsecured claims for distribution
purposes in the GM Bankruptcy, including Bondholder
Debt, would be between $31 billion and $35 billion, recoveries to general unsecured creditors at the time of
the Sale were neither determinable nor guaranteed.
No bar date for the ﬁling of proofs of claim had been
set as of the Sale closing, and when it ﬁnally was set
about four months later, over 70,000 proofs of claim
were ﬁled having an aggregate face value of approximately $270 billion.
165. The aggregate face amount of ﬁled priority
claims alone may have exceeded the value of the entire
$7.4 to $9.8 billion valuation placed on New GM common stock transferred to Old GM in the Sale, which
represented the only projected source of distributions
to Old GM’s creditors based on their relative priorities.
166. As such, on July 10, 2009, at the precise moment that the Government closed on the Sale, the Personal Injury Claimants’ rights to assert successor
liability claims were effectively extinguished and these
claimants had nothing more than a contingent interest
in an indeterminate portion, if any, of the consideration
paid over by New GM in the Sale to Old GM’s bankruptcy estate.

App. 153
167. Old GM’s Plan of Reorganization (the
“Plan”) was not conﬁrmed by the Bankruptcy Court
until March 29, 2011, and did not become effective until March 31, 2011, nearly two years after the closing
of the Sale.
168. The effective date of the Plan was the earliest possible time that any Personal Injury Claimant
would have been eligible to receive on account of their
“Allowed” claims any of the consideration paid to Old
GM’s bankruptcy estate in the Sale.
[44] 169. No additional consideration was given
to the Personal Injury Claimants on account of the extinguishment in the 363 Sale of their rights to assert
successor liability claims against New GM.
VI.
CLASS ALLEGATIONS
170. This action is brought and may be properly
maintained as a class action pursuant to the Rules
23(a) and Rules 23(b)(2)-(3) of the Rules of the Court of
Federal Claims (“RCFC”). This action satisﬁes the numerosity, commonality, typicality, adequacy, predominance, and superiority prerequisites of Rule 23. The
named class representatives seek to maintain this case
as a class action on behalf of a class (the “Class”) deﬁned as follows:
The Class is deﬁned as any person or entity
that is a holder of a claim that is “Allowed” (as
such term is deﬁned in the “Debtors’ Second

App. 154
Amended Joint Chapter 11 Plan” (the “Plan”)
conﬁrmed by order of the United States Bankruptcy Court for the Southern District of New
York in the chapter 11 bankruptcy case captioned In re Motors Liquidation Company, et
al., f/k/a General Motors Corp., et al., Case No.
09-50026 (reg) (the “GM Bankruptcy”), entered on March 29, 2011) in the GM Bankruptcy for death or personal injuries arising
before June 1, 2009 and caused by motor vehicles designed for operation on public roadways, or by the component parts of such motor
vehicles, and in each case, manufactured, sold,
or delivered by General Motors Corporation,
Saturn, LLC, Saturn Distribution Corporation, or Chevrolet-Saturn of Harlem, Inc. (collectively, “Sellers”).
For avoidance of doubt, the Class does not include the following claims (whether or not
such claims represent an “Allowed Claim” in
the GM Bankruptcy): (i) “Asbestos Claims” (as
deﬁned in the Plan); (ii) claims asserted by the
“Ignition Switch Plaintiffs,” “Pre-Closing Accident Plaintiffs,” “Non-Ignition Switch Plaintiffs,” “Economic Loss Plaintiffs,” “Pre-Closing
Accident Victim Plaintiffs,” or “Groman Plaintiffs” (as such terms are used or deﬁned in
that certain judgment of the Bankruptcy
Court dated June 1, 2015 (Dkt. No. 13178)
(the “Sale Enforcement Order”)), whether asserted on one’s own behalf or on behalf of a
class of all others similarly situated; (iii)
claims asserted in any of the “Ignition Switch
Actions” (as such term is used or deﬁned in
the Sale Enforcement Order), whether

App. 155
asserted on one’s own behalf or on behalf of a
class of all others similarly situated; or (iv) Allowed Claims in the GM Bankruptcy that [45]
are exclusively for economic loss to the value
of one’s vehicle or other personal property and
do not include a claim for any personal injuries.
171. The named Plaintiffs are all holders of Allowed Claims in the GM Bankruptcy for death or personal injuries arising before June 1, 2009 that were
caused by motor vehicles designed for operation on
public roadways, or by the component parts of such motor vehicles, and in each case, manufactured, sold or
delivered by one of the Sellers (the “Personal Injury
Claims”).
172. Plaintiffs reserve the right to modify the
Class as may be appropriate based upon the evidence
revealed during the course of discovery.
173. The Class is comprised of several thousand
holders of Allowed Personal Injury Claims in the GM
Bankruptcy, making joinder impractical. The aggregate amount of Allowed Personal Injury Claims in the
GM Bankruptcy is presently estimated at approximately $300 million.
174. There is a well-deﬁned community of interest among Class members and disposition of the Allowed Personal Injury Claims of the Class members in
a single class action will provide substantial beneﬁts
to all parties and to the Court.

App. 156
175. The Class meets the prerequisites of RCFC
23(a). The Class is so numerous that the individual
joinder of all members is impracticable.
176. While the exact number and identities of
the Class members are unknown at this time to the
Plaintiffs, the number and identities of the Class members are known to Wilmington Trust Company
(“WTC”), the administrator of the “Motors Liquidation
Company GUC Trust” (the “GUC Trust”) which was
established under the Plan to, among other things, determine the allowed amount of general unsecured
claims in the GM Bankruptcy, including the Allowed
Personal Injury Claims.
[46] 177. The GUC Trust, through its administrator WTC, has been making distributions to holders
of Allowed Personal Injury Claims and has been responsible for resolving all outstanding disputed Personal Injury Claims.
178. WTC is believed to have separately categorized all Allowed Personal Injury Claims, thereby allowing identiﬁcation of all such claims.
179. As required by RCFC 23(a)(2), common
questions of law and fact exist as to all Class members
and predominate over any questions affecting only individual members. Plaintiffs, like all Class members,
had their rights to assert successor liability claims
against New GM extinguished in the Sale Order, effective upon the closing of the 363 Sale.

App. 157
180. All actions by the Government in causing
the rights of Personal Injury Claimants to assert successor liability claims against New GM to be extinguished upon the closing of the 363 Sale also affected
the Class members equally and coterminously.
181. As such, the principal question of law and
fact in this case, common to all Class members, is
whether the actions of the Government in causing the
rights of Personal Injury Claimants to assert successor
liability claims against New GM to be extinguished in
the 363 Sale constituted a taking of property from
Class members without just compensation, in violation
of the Takings Clause.
182. As required by RCFC 23(a)(3), Plaintiffs’
claims are typical of the claims of the Class members,
as Plaintiffs each hold Allowed Personal Injury Claims
in the GM Bankruptcy and each of their respective
rights to assert successor liability claims against New
GM were extinguished in the 363 Sale at the direction
of the Government.
183. Such action by the Government constituted
a direct taking of such claims from the named Plaintiffs and other Class members without just compensation.
[47] 184. As a result of the Government’s actions
to extinguish the Personal Injury Claimants’ rights to
assert successor liability claims against New GM, instead of being paid in full on their allowed Personal
Injury Claims, the recoveries of the Personal Injury
Claimants were limited to whatever fractional

App. 158
recoveries would be paid to general unsecured creditors in the GM Bankruptcy. At the time of the Sale, the
distributions to these claimants were neither made nor
capable of certain determination.
185. As required by RCFC 23(a)(4), Plaintiffs
will fairly and adequately protect the interests of the
Class members and have no interest antagonistic to
those of the Class members. Plaintiffs have retained
counsel experienced in the litigation of class actions,
with particular experience in the relevant facts and
law applicable to this case because of counsel’s extensive representation of Plaintiffs in the hearings on the
363 Sale.
186. This action is maintainable as a class action
pursuant RCFC 23(b)(1) because, as noted above, the
Government acted or refused to act on grounds generally applicable to the Class, thus making the subject of
this action a course of conduct involving documents,
regulations, policies, and actions applicable to the
Class members as a whole.
187. As required by RCFC 23(b)(2), the questions
of law or fact common to Class members predominate
over any questions affecting only individual members.
The common predominating question in this case, applicable to all Class members, is whether the Government’s decision to extinguish the Class members’
rights to assert successor liability claims against New
GM constituted a taking without just compensation.
188. Further, the question of what damages any
individual member of the Class suffered is common to

App. 159
the Class for it is based on the difference between the
allowed amount of [48] each member’s prepetition Personal Injury Claim in the GM Bankruptcy and the actual recoveries on that claim in the GM Bankruptcy.
189. Consequently, there are no individualized
issues of law. Each Class member had successor liability rights against New GM that were extinguished in
the 363 Sale. Regardless of which of the 50 states that
Class member lived or was injured, each Class member
also had the right to assert successor liability claims
against New GM in Michigan, which was New GM’s
principal place of business and which recognizes rights
to assert successor liability claims under a multitude
of theories, none of which are unique to any particular
member of the Class, including the “continuity of enterprise” doctrine for imposition of successor liability
claims under Michigan law.
190. The expense and burden of individual litigation also would make it difﬁcult, if not impossible,
for individual Class members to obtain redress for the
rights taken from them by the Government. The unnecessary cost to the court system of adjudicating such
individualized litigation also would be substantial, if
not prohibitive.
191. Maintaining this action as a class action
presents fewer management difﬁculties, conserves the
resources of the parties and the court system, and protects the rights of each Class member.
192. Notice of the pendency of this action, and
any resolution thereof, can be readily provided to Class

App. 160
members simply through the well-established notice
and distribution mechanisms established in the GM
Bankruptcy by WTC and the GUC Trust for handling
notices and distributions to holders of allowed Personal Injury Claims in the case.
[49] VII.
FIRST CLAIM FOR RELIEF
PER SE TAKING OF RIGHTS TO ASSERT
SUCCESSOR LIABILITY CLAIMS IN
VIOLATION OF THE TAKINGS CLAUSE
193. Plaintiffs reallege and incorporate by reference herein paragraphs 1 through 192.
194. The Takings Clause requires that the
United States pay just compensation for all property
taken for public use.
195. Each of the respective rights of Class members to assert successor liability claims against New
GM constitute interests in property that were extinguished in the 363 Sale at the direction of the Government.
196. The Government’s actions in directing the
extinguishment in the 363 Sale of the rights of the
Plaintiffs and other Class members to assert successor
liability claims against New GM constituted a per se
taking for which just compensation was not paid.

App. 161
197. The rights of the Plaintiffs and other Class
members to assert successor liability claims against
New GM are rights that exist under state law.
198. The Bankruptcy Court found that the rights
of the Personal Injury Claimants to assert successor
liability claims against New GM are “interests in property” and the Government concurred in that assessment.
199. The Government itself beneﬁted when it directed that the rights of the Plaintiffs and other Class
members to assert successor liability claims against
New GM be extinguished because New GM was
wholly-owned by the Government at the time of the
363 Sale. Even after the consummation of the deals between New GM and other stakeholders contemplated
by the 363 Sale, the Government retained a 60.8% equity ownership stake in New GM.
[50] 200. The Government’s taking of the named
Plaintiffs’ and other Class members’ rights to assert
successor liability claims occurred no sooner than the
July 9, 2009 Order Effective Date since it was only on
that date that the Government had the authority to
close the Sale and thereby, pursuant to the terms of the
Sale Order, deny the Personal Injury Claimants the
right to pursue successor liability claims against New
GM.
201. The Government’s coercive threats regarding its willingness to let Old GM liquidate rather than
provide even a dollar of incremental funding for the
beneﬁt of Personal Injury Claimants, coupled with its

App. 162
independent decision—notwithstanding signiﬁcant
political pressure from consumer advocacy groups—to
close in reliance on the provisions of the Sale Order
that, by their terms, extinguished and enjoined Personal Injury Claimants’ successor liability claims, together violated the Takings Clause because there was
no essential nexus—as is required when the Government so drastically extinguishes valuable property
rights—between those coercive threats and the Government’s acknowledged ﬁnancial indifference to assumption of the Personal Injury Claims left behind.
202. The Government’s callous disregard of the
health and welfare of these marginalized claimants,
advanced under the false guise of “commercial necessity” and “ﬁduciary duty to taxpayers” also violated a
principal purpose of the Takings Clause, which is to
bar the Government from forcing some people alone to
bear public burdens which, in all fairness and justice,
should be borne by the public as a whole. These claimants were victims of Old GM’s defective products, not
the cause of Old GM’s problems.
203. None of the consideration paid to Old GM in
the 363 Sale was either distributed or guaranteed to
be distributed to the Personal Injury Claimants at the
time of the Government’s taking of their rights. The
Personal Injury Claimants had nothing more at the
time of the Sale [51] than a contingent interest in an
indeterminate portion, if any, of the consideration paid
over by New GM in the Sale to Old GM’s bankruptcy
estate.

App. 163
204. Each of the Plaintiffs and each member of
the Class suffered injury as a proximate result of the
Government’s actions.
205. As a direct and proximate result of the acts
of the Government, Plaintiffs and the Class members
have been damaged in the amount of at least $200 million, plus interest thereon at a rate to be established
by this Court.
206. Plaintiffs, for themselves and on behalf of
the Class, have incurred and will incur attorneys’ fees,
costs, and expenses of litigation in an amount as yet
unascertained, and these too are compensable at such
amount to be established by this Court.
207. These damages represent the just compensation due the Plaintiffs and other Class members under the Fifth Amendment as a result of the
Government’s actions in directing the extinguishment
of their rights to assert successor liability claims
against New GM following the 363 Sale.

App. 164
VIII.
SECOND CLAIM FOR RELIEF
(Pleaded in the Alternative)
CATEGORICAL REGULATORY TAKING
OF THE RIGHT TO ASSERT
SUCCESSOR LIABILITY CLAIMS
208. Plaintiffs reallege and incorporate by reference herein paragraphs 1 through 192.
209. The purpose of the Takings Clause is to prevent the Government from forcing some people alone
to bear public burdens which, in all fairness and justice, should be borne by the public as a whole.
[52] 210. A violation of the Takings Clause may
occur when a governmental regulation denies a property owner all economically beneﬁcial use of the property.
211. The Bankruptcy Court found that the rights
of the Personal Injury Claimants to assert successor
liability claims against New GM are “interests in property” and the Government concurred in that assessment.
212. Despite having designated the underlying
claims of Personal Injury Claimants against Old GM
as “politically sensitive” liabilities that, if required to
be assumed by the Government, would neither have
given the Government the right to walk away from the
deal nor reduce the consideration paid to Old GM under the Sale Agreement, the Government directed
that the rights of these claimants to assert successor

App. 165
liability claims against New GM be extinguished in the
Sale Order.
213. In so doing, the Government was not simply
adjusting the beneﬁts and burdens of economic life in
a manner that secures an average reciprocity of advantage to the Personal Injury Claimants. Rather, the
Government singled out this group of claimants to unjustly bear the burden of a broader problem not of their
making that, in all fairness and justice, should be
borne by the public as a whole. These claimants were
victims of Old GM’s defective products, not the cause
of Old GM’s problems.
214. The Government’s taking of the Plaintiffs’
and the other Class members’ rights to assert successor liability claims occurred on the July 10, 2009 closing date of the 363 Sale.
215. None of the consideration paid to Old GM in
the 363 Sale was distributed, or guaranteed to be distributed, to the Personal Injury Claimants at the time
of the Government’s taking of their rights. The Personal Injury Claimants had nothing more at the time
of the Sale [53] than a contingent interest in an indeterminate portion, if any, of the consideration paid over
by New GM in the Sale to Old GM’s bankruptcy estate.
216. The Government’s actions in directing that
the Sale Order extinguish the Plaintiffs’ and other
Class members’ rights to assert successor liability
claims against New GM was a categorical regulatory
taking within the meaning of the Takings Clause.

App. 166
217. Each of the Plaintiffs and each Class member suffered injury as a proximate result of the Government’s actions.
218. This is not a case where the central fact
question before the Court is what remedy (or lack
thereof ) the Personal Injury Claimants would have
had if the Government had not closed on the Sale (i.e.,
“but for the government action”). Here, the Government speciﬁcally represented to Old GM’s Board of Directors at a meeting held three days before the ﬁling
that if the Government decided to assume the “politically sensitive” liabilities owing to Personal Injury
Claimants as part of the Sale, the Government would
still close the deal without any downward adjustment
to the purchase price.
219. Consequently, the appropriate “but for”
analysis in this case is that, even though the Government was actually ﬁnancially indifferent to assumption of Personal Injury Claims by New GM, but for (a)
the Government’s arbitrary demand that Personal Injury Claimants’ rights to assert successor liability
claims be eliminated through the Sale Order and (b)
the Government’s threat to terminate all funding of
Old GM if its demands were not met, the Personal Injury Claimants’ valuable rights to pursue successor liability claims against New GM would have been
preserved.
[54] 220. As a direct and proximate result of the
acts of the Government, Plaintiffs and the Class members have been damaged in the amount of at least $200

App. 167
million, plus pre- and post-judgment interest thereon
at a rate to be established by this Court.
221. Plaintiffs, for themselves and on behalf of
the Class, have incurred and will incur attorneys’ fees,
costs, and expenses of litigation in an amount as yet
unascertained, and these too are compensable at such
amount to be established by this Court.
222. These damages represent the just compensation due the Plaintiffs and other Class members under the Fifth Amendment for the Government’s
categorical taking of their rights to assert successor liability claims against New GM.
IX.
THIRD CLAIM FOR RELIEF
(Pleaded in the Alternative)
NON-CATEGORICAL REGULATORY
TAKING OF THE RIGHT TO ASSERT
SUCCESSOR LIABILITY CLAIMS
223. Plaintiffs reallege and incorporate by reference herein paragraphs 1 through 192.
224. A non-categorical regulatory taking may
arise from the adverse impact a regulation has on an
owner’s use of property, without entirely destroying the
property’s value.
225. Determining whether a non-categorical regulatory taking occurred requires an analysis in this
case of (i) the economic impact of the regulation on the

App. 168
Personal Injury Claimants, (ii) the extent to which the
regulation interferes with the objectively-determined
investment-backed expectations of the Personal Injury
Claimants, and (iii) the character of the government
action and whether the regulation has “gone too far” by
disproportionately burdening a small class of persons
for the public’s beneﬁt.
[55] 226. Each of the respective rights of the
Plaintiffs and other Class members to assert successor
liability claims against New GM constituted interests
in property that were extinguished in the 363 Sale at
the direction of the Government in such manner as to
disproportionately burden the Plaintiffs and other
Class members for the public’s beneﬁt.
227. The Bankruptcy Court found that the rights
of the Personal Injury Claimants to assert successor
liability claims against New GM are “interests in property” and the Government concurred in that assessment.
228. The economic impact of the Government’s
actions on the Personal Injury Claimants has been severe. Instead of receiving full compensation for their
liquidated and undisputed claims to cover their medical costs, their pain and suffering, and their losses—in
many cases—of limbs, mobility, capacity, livelihood,
consortium, or even life itself, the Government deprived these claimants of all recompense at the time of
the taking, forcing them to wait years until marginal
recoveries on their allowed claims in the GM Bankruptcy ﬁnally began to trickle down to them.

App. 169
229. The Personal Injury Claimants also had
reasonable, investment-backed expectations that GM
would stand behind its cars, as Old GM consistently
promised in its marketing campaigns.
230. None of these claimants could have expected such unfair treatment when they bought their
defective vehicle given the assurances made to consumers about the reliability of Old GM.
231. No one from Old GM ever advised its customers that Old GM’s products liability insurance coverage was only triggered when the liability per
occurrence exceeded $35 million (meaning that Old
GM was effectively completely self-insured).
[56] 232. Nor could these claimants have expected that the Government, through a team of appointees with little or no auto industry experience, would
eliminate their rights to assert successor liability
claims, thereby annulling Old GM’s promises of reliability as well as the recommendation of Old GM’s CEO
that these claims be assumed by New GM.
233. Despite having designated the underlying
claims of Personal Injury Claimants as “politically sensitive” liabilities that, if required to be assumed by
New GM, would neither have given the Government
the right to walk away from the deal nor have changed
the consideration payable to Old GM under the Sale
Agreement, the Government demanded that the Personal Injury Claimants’ rights to assert successor liability claims against New GM be extinguished in the

App. 170
Sale Order and threatened to terminate all funding of
Old GM if that did not happen.
234. In treating Personal Injury Claimants
markedly worse in the Sale than was proposed for
them in the Exchange Offers, while at the same time
giving holders of at least $90 billion of other unsecured
debt at Old GM (including the Bondholders) the same
or far better treatment than they would have received
in the Exchange Offers, the Government singled out
the Personal Injury Claimants to bear the brunt of its
campaign on the eve of the bankruptcy ﬁling to
squeeze from the deal liabilities owed to creditors (like
the maimed, the disabled, the widows, the orphans,
and other Personal Injury Claimants) that the Government considered marginal players because they were
not expected to have any ongoing business relationship
with New GM.
235. The Government’s callous disregard of the
health and welfare of these marginalized claimants,
advanced under the guise of “commercial necessity,”
also violated a principal purpose of the Takings Clause,
which is to bar the Government from forcing some people alone to bear public burdens which, in all fairness
and justice, should be borne by the [57] public as a
whole. These claimants were victims of Old GM’s defective products, not the cause of Old GM’s problems.
236. The Government’s actions in demanding extinguishing the Personal Injury Claimants’ rights to
assert successor liability claims against New GM and
threatening to terminate its funding of Old GM if its

App. 171
demands were not met went too far because the total
Allowed Claims of Personal Injury Claimants were
projected at the time of the Sale at no more than approximately $420 million, or about one-half percent of
the purchase price paid by the Government in the Sale.
237. Because approximately $434 million of the
$934 million representing Old GM’s Products Liability
Loss Reserve as of March 31, 2009 was being treated
as assumed by New GM as a result of indemnity agreements reached with dealers after the ﬁling of the GM
Bankruptcy, the projected cash ﬂow impact of the Personal Injury Claims left behind in the 363 Sale would
not have exceeded approximately $55 million per year
over the ﬁve year period following the consummation
of the 363 Sale.
238. Meanwhile, New GM agreed in the Sale to
assume over $48.4 billion in liabilities in full or in substantial part in the Sale, including $5.4 billion in trade
supplier debt (which was assumed in full) and $18 billion of debt to the VEBA Trust (which received common
and preferred stock of New GM at the close of the Sale,
enabling a projected recovery of between 73% and
82%).
239. Assumption by New GM of the Personal Injury Claims, therefore, represented a mere fraction of
the consideration payable by the Government in the
Sale. Given the indifference of the Government to assumption of these liabilities (because it still would
have closed the 363 [58] Sale without a downward

App. 172
adjustment to the purchase price), the Government’s
action went too far.
240. Justice and fairness require that economic
injuries caused by public action be compensated by the
Government, rather than remain disproportionately
concentrated on the relatively small pool of Personal
Injury Claimants whose rights to assert successor liability claims against New GM were extinguished in the
Sale.
241. This is not a case where the central fact
question before the Court is what remedy (or lack
thereof ) the Personal Injury Claimants would have
had if the Government had not closed on the Sale (i.e.,
“but for the government action”). Here, the Government speciﬁcally represented to Old GM’s Board of Directors at a meeting held three days before the ﬁling
that if the Government decided to assume the “politically sensitive” liabilities owing to Personal Injury
Claimants as part of the Sale, the Government would
still close the deal without any downward adjustment
to the purchase price.
242. Consequently, the appropriate “but for”
analysis in this case is that, even though the Government was actually ﬁnancially indifferent to assumption of Personal Injury Claims by New GM, but for (a)
the Government’s arbitrary demand that Personal Injury Claimants’ rights to assert successor liability
claims be eliminated through the Sale Order and (b)
the Government’s threat to terminate all funding of
Old GM if its demands were not met, the Personal

App. 173
Injury Claimants’ valuable rights to pursue successor
liability claims against New GM would have been preserved.
243. As a direct and proximate result of the Government’s actions, Plaintiffs and the Class have been
damaged in the amount of at least $200 million, plus
pre- and post judgment interest thereon at a rate to be
established by this Court.
[59] 244. Plaintiffs, for themselves and on behalf
of the Class, have incurred and will incur attorneys’
fees, expert witness fees, costs, and expenses of litigation in an amount as yet unascertained, and these too
are compensable at such amount to be established by
this Court.
245. These damages represent the just compensation due the Plaintiffs and other Class members under the Fifth Amendment for the Government’s noncategorical taking of these claimants’ rights to assert
successor liability claims against New GM.
X.
RELIEF REQUESTED
WHEREFORE, Plaintiffs, on behalf of themselves
and the members of Class, demand judgment against
the United States as follows:
A. That the Court certify this case as a class action under RCFC 23(b) and ﬁnd that the Plaintiffs
have met the requirements of class representatives

App. 174
and may maintain this action as representatives of the
Class;
B. That the Court certify the Class comprised of
any person or entity identiﬁed in Paragraph 139 of this
Complaint;
C. That the Court award a money judgment to
Plaintiffs and other Class members in an amount to be
determined at trial, estimated at no less than
$200,000,000 in the aggregate, for damages sustained
as a result of the permanent taking of their rights to
assert successor liability claims against New GM, together with plus pre- and post judgment interest
thereon at a rate to be established by this Court, and
any and all further costs, disbursements, and reasonable attorneys’ fees; and
D. That the Court grant such other and further
relief as the Court deems to be just and proper.
[60] Dated: Washington, D.C.
_________, ___, 2017 By: s/ Steve Jakubowski
Steve Jakubowski
Attorney of Record
ROBBINS, SALOMON
& PATT, LTD.
180 North LaSalle Street,
Suite 3300
Chicago, Illinois 60601
Tel: (312) 456-0191
Fax: (312) 782-6690
Email:
sjakubowski@rsplaw.com

App. 175
OF COUNSEL:
ROBBINS, SALOMON & PATT,
LTD.
Robert M. Winter
Catherine A. Cooke
180 North LaSalle Street,
Suite 3300
Chicago, Illinois 60601
Tel: (312) 782-9000
Fax: (312) 782-6690

App. 176
UNITED STATES BANKRUPTCY COURT
SOUTHERN DISTRICT OF NEW YORK
------------------------------------------x
: Chapter 11 Case No.
In re
GENERAL MOTORS CORP., : 09-50026 (REG)
: (Jointly
et al.,
:
Administered)
Debtors.
:
------------------------------------------x
ORDER (I) AUTHORIZING SALE OF ASSETS
PURSUANT TO AMENDED AND RESTATED
MASTER SALE AND PURCHASE
AGREEMENT WITH NGMCO, INC., A U.S.
TREASURY-SPONSORED PURCHASER;
(II) AUTHORIZING ASSUMPTION AND
ASSIGNMENT OF CERTAIN EXECUTORY
CONTRACTS AND UNEXPIRED LEASES
IN CONNECTION WITH THE SALE; AND
(III) GRANTING RELATED RELIEF
Upon the motion, dated June 1, 2009 (the “Motion”), of General Motors Corporation (“GM”) and its
afﬁliated debtors, as debtors in possession (collectively,
the “Debtors”), pursuant to sections 105, 363, and 365
of title 11, United States Code (the “Bankruptcy
Code”) and Rules 2002, 6004, and 6006 of the Federal
Rules of Bankruptcy Procedure (the “Bankruptcy
Rules”) for, among other things, entry of an order authorizing and approving (A) that certain Amended and
Restated Master Sale and Purchase Agreement, dated
as of June 26, 2009, by and among GM and its Debtor
subsidiaries (collectively, the “Sellers”) and NGMCO,
Inc., as successor in interest to Vehicle Acquisition

App. 177
Holdings LLC (the “Purchaser”), a purchaser sponsored by the United States Department of the Treasury (the “U.S. Treasury”), together with all related
documents and agreements as well as all exhibits,
schedules, and addenda thereto (as amended, the
“MPA”), a copy of which is annexed hereto as Exhibit
“A” (excluding the exhibits and schedules thereto);
(B) the sale of the Purchased Assets1 to the Purchaser
free and clear of liens, claims, encumbrances, and
interests (other than Permitted Encumbrances), including rights or claims based on any successor or
transferee liability; (C) the assumption and assignment of the Assumable Executory Contracts; (D) the
establishment of certain Cure Amounts; and (E) the
UAW Retiree Settlement Agreement (as deﬁned below); and the Court having jurisdiction to consider the
Motion and the relief requested therein in accordance
with 28 U.S.C. §§ 157 and 1334 and the Standing Order
M-61 Referring to Bankruptcy Judges for the Southern
District of New York of Any and All Proceedings Under
Title 11, dated July 10, 1984 (Ward, Acting C.J.); and
consideration of the Motion and the relief requested
therein being a core proceeding pursuant to 28 U.S.C.
§ 157(b); and venue being proper before this Court pursuant to 28 U.S.C. §§ 1408 and 1409; and due and
proper notice of the Motion having been provided in
accordance with this Court’s Order, dated June 2, 2009
(the “Sale Procedures Order”), and it appearing that
1

Capitalized terms used herein and not otherwise deﬁned
shall have the meanings ascribed to such terms in the Motion or
the MPA.

App. 178
no other or further notice need be provided; and a hearing having been held on June 30 through July 2, 2009,
to consider the relief requested in the Motion (the
“Sale Hearing”); and upon the record of the Sale
Hearing, including all afﬁdavits and declarations submitted in connection therewith, and all of the proceedings had before the Court; and the Court having
reviewed the Motion and all objections thereto (the
“Objections”) and found and determined that the relief sought in the Motion is necessary to avoid immediate and irreparable harm to the Debtors and their
estates, as contemplated by Bankruptcy Rule 6003 and
is in the best interests of the Debtors, their estates and
creditors, and other parties in interest and that the legal and factual bases set forth in the Motion establish
just cause for the relief granted herein; and after due
deliberation and sufﬁcient cause appearing therefor,
it is
FOUND AND DETERMINED THAT
*

*

*

Transfer of Purchased Assets Free and Clear
7. Except for the Assumed Liabilities, pursuant
to sections 105(a) and 363(f ) of the Bankruptcy Code,
the Purchased Assets shall be transferred to the Purchaser in accordance with the MPA, and, upon the
Closing, shall be free and clear of all liens, claims, encumbrances, and other interests of any kind or nature
whatsoever (other than Permitted Encumbrances), including rights or claims based on any successor or

App. 179
transferee liability, and all such liens, claims, encumbrances, and other interests, including rights or claims
based on any successor or transferee liability, shall attach to the net proceeds of the 363 Transaction in the
order of their priority, with the same validity, force, and
effect that they now have as against the Purchased
Assets, subject to any claims and defenses a Seller or
any other party in interest may possess with respect
thereto.
8. Except as expressly permitted or otherwise
speciﬁcally provided by the MPA or this Order, all persons and entities, including, but not limited to, all debt
security holders, equity security holders, governmental, tax, and regulatory authorities, lenders, trade creditors, dealers, employees, litigation claimants, and
other creditors, holding liens, claims, encumbrances,
and other interests of any kind or nature whatsoever,
including rights or claims based on any successor or
transferee liability, against or in a Seller or the Purchased Assets (whether legal or equitable, secured or
unsecured, matured or unmatured, contingent or noncontingent, senior or subordinated), arising under or
out of, in connection with, or in any way relating to, the
Sellers, the Purchased Assets, the operation of the Purchased Assets prior to the Closing, or the 363 Transaction, are forever barred, estopped, and permanently
enjoined (with respect to future claims or demands
based on exposure to asbestos, to the fullest extent constitutionally permissible) from asserting against the
Purchaser, its successors or assigns, its property, or
the Purchased Assets, such persons’ or entities’ liens,

App. 180
claims, encumbrances, and other interests, including
rights or claims based on any successor or transferee
liability.
9. This Order (a) shall be effective as a determination that, as of the Closing, (i) no claims other than
Assumed Liabilities, will be assertable against the
Purchaser, its afﬁliates, their present or contemplated
members or shareholders, successors, or assigns, or
any of their respective assets (including the Purchased
Assets); (ii) the Purchased Assets shall have been
transferred to the Purchaser free and clear of all
claims (other than Permitted Encumbrances); and
(iii) the conveyances described herein have been effected; and (b) is and shall be binding upon and govern
the acts of all entities, including, without limitation,
all ﬁling agents, ﬁling ofﬁcers, title agents, title companies, recorders of mortgages, recorders of deeds, registrars of deeds, registrars of patents, trademarks, or
other intellectual property, administrative agencies,
governmental departments, secretaries of state, federal and local ofﬁcials, and all other persons and entities who may be required by operation of law, the
duties of their ofﬁce, or contract, to accept, ﬁle, register,
or otherwise record or release any documents or instruments, or who may be required to report or insure
any title or state of title in or to any lease; and each of
the foregoing persons and entities is directed to accept
for ﬁling any and all of the documents
*

*

*

App. 181
47. Effective upon the Closing and except as may
be otherwise provided by stipulation ﬁled with or announced to the Court with respect to a speciﬁc matter
or an order of the Court, all persons and entities are
forever prohibited and enjoined from commencing or
continuing in any manner any action or other proceeding, whether in law or equity, in any judicial, administrative, arbitral, or other proceeding against the
Purchaser, its present or contemplated members or
shareholders, its successors and assigns, or the Purchased Assets, with respect to any (i) claim against the
Debtors other than Assumed Liabilities, or (ii) successor or transferee liability of the Purchaser for any of
the Debtors, including, without limitation, the following actions: (a) commencing or continuing any action
or other proceeding pending or threatened against the
Debtors as against the Purchaser, or its successors, assigns, afﬁliates, or their respective assets, including
the Purchased Assets; (b) enforcing, attaching, collecting, or recovering in any manner any judgment, award,
decree, or order against the Debtors as against the Purchaser, its successors, assigns, afﬁliates, or their respective assets, including the Purchased Assets; (c)
creating, perfecting, or enforcing any lien, claim, interest, or encumbrance against the Debtors as against the
Purchaser or its successors, assigns, afﬁliates, or their
respective assets, including the Purchased Assets; (d)
asserting any setoff, right of subrogation, or recoupment of any kind for any obligation of any of the Debtors as against any obligation due the Purchaser or its
successors, assigns, afﬁliates, or their respective assets, including the Purchased Assets; (e) commencing

App. 182
or continuing any action, in any manner or place, that
does not comply, or is inconsistent with, the provisions
of this Order or other orders of this Court, or the agreements or actions contemplated or taken in respect
thereof; or (f) revoking, terminating, or failing or refusing to renew any license, permit, or authorization to
operate any of the Purchased Assets or conduct any of
the businesses operated with such assets. Notwithstanding the foregoing, a relevant taxing authority’s
ability to exercise its rights of setoff and recoupment
are preserved.
*

*

*

Exhibit A
AMENDED AND RESTATED MASTER
SALE AND PURCHASE AGREEMENT
EXECUTION COPY
AMENDED AND RESTATED
MASTER SALE AND PURCHASE AGREEMENT
BY AND AMONG
GENERAL MOTORS CORPORATION,
SATURN LLC,
SATURN DISTRIBUTION CORPORATION
AND
CHEVROLET-SATURN OF HARLEM, INC.,
as Sellers

App. 183
AND
NGMCO, INC.,
as Purchaser
DATED AS OF
JUNE 26, 2009
TABLE OF CONTENTS
DESCRIPTION

PAGE

ARTICLE I DEFINITIONS..........................................2
Section 1.1
Section 1.2

Deﬁned Terms........................................2
Other Interpretive Provisions .............23

ARTICLE II PURCHASE AND SALE .......................23
Section 2.1
Section 2.2
Section 2.3
Section 2.4

Purchase and Sale of Assets; Assumption of Liabilities ........................23
Purchased and Excluded Assets .........23
Assumed and Retained Liabilities .......28
Non-Assignability ................................32

ARTICLE III CLOSING; PURCHASE PRICE..........33
Section 3.1
Section 3.2
Section 3.3
Section 3.4
Section 3.5

Closing .................................................33
Purchase Price .....................................34
Allocation .............................................35
Prorations ............................................35
Post-Closing True-up of Certain
Accounts ...............................................36

App. 184
ARTICLE IV REPRESENTATIONS AND WARRANTIES OF SELLERS ........................................37
Section 4.1
Section 4.2
Section 4.3
Section 4.4
Section 4.5
Section 4.6
Section 4.7
Section 4.8
Section 4.9
Section 4.10
Section 4.11
Section 4.12
Section 4.13
Section 4.14
Section 4.15
Section 4.16
Section 4.17
Section 4.18
Section 4.19
Section 4.20
Section 4.21
Section 4.22

Organization and Good Standing .......37
Authorization; Enforceability .............37
Noncontravention; Consents ...............37
Subsidiaries .........................................38
Reports and Financial Statements;
Internal Controls .................................38
Absence of Certain Changes and
Events ..................................................39
Title to and Sufﬁciency of Assets ........41
Compliance with Laws; Permits .........41
Environmental Laws ...........................42
Employee Beneﬁt Plans ......................42
Labor Matters ......................................44
Investigations; Litigation ....................45
Tax Matters .........................................45
Intellectual Property and IT Systems......................................................46
Real Property .......................................47
Material Contracts ..............................48
Dealer Sales and Service Agreements for Continuing Brands .............49
Sellers’ Products ..................................49
Certain Business Practices .................49
Brokers and Other Advisors ...............50
Investment Representations ...............50
No Other Representations or Warranties of Sellers ..................................51

App. 185
ARTICLE V REPRESENTATIONS AND WARRANTIES OF PURCHASER ..................................51
Section 5.1
Section 5.2
Section 5.3
Section 5.4
Section 5.5
Section 5.6
Section 5.7
Section 5.8
Section 5.9

Organization and Good Standing .......51
Authorization; Enforceability .............52
Noncontravention; Consents ...............52
Capitalization ......................................53
Valid Issuance of Shares .....................54
Investment Representations ...............54
Continuity of Business Enterprise .......55
Integrated Transaction .......................55
No Other Representations or Warranties of Sellers ..................................55

ARTICLE VI COVENANTS .......................................56
Section 6.1
Section 6.2
Section 6.3
Section 6.4
Section 6.5
Section 6.6
Section 6.7
Section 6.8
Section 6.9
Section 6.10
Section 6.11
Section 6.12
Section 6.13
Section 6.14

Access to Information ..........................56
Conduct of Business ............................57
Notices and Consents ..........................60
Sale Procedures; Bankruptcy Court
Approval...............................................61
Supplements to Purchased Assets ........62
Assumption or Rejection of Contracts ....................................................62
Deferred Termination Agreements;
Participation Agreements ...................65
[Reserved] ............................................66
Purchaser Assumed Debt; Wind
Down Facility .......................................66
Litigation and Other Assistance .........66
Further Assurances .............................67
Notiﬁcations ........................................68
Actions by Afﬁliates.............................69
Compliance Remediation ....................69

App. 186
Section 6.15 Product Certiﬁcation, Recall and
Warranty Claims .................................69
Section 6.16 Tax Matters; Cooperation ...................69
Section 6.17 Employees; Beneﬁt Plans; Labor
Matters ................................................74
Section 6.18 TARP ....................................................79
Section 6.19 Guarantees; Letters of Credit .............79
Section 6.20 Customs Dutie .....................................79
Section 6.21 Termination of Intellectual Property Rights ...........................................79
Section 6.22 Trademarks .........................................80
Section 6.23 Preservation of Records ......................81
Section 6.24 Conﬁdentiality. ...................................81
Section 6.25 Privacy Policies ....................................82
Section 6.26 Supplements to Sellers’ Disclosure
Schedule ...............................................82
Section 6.27 Real Property Matters ........................82
Section 6.28 Equity Incentive Plans ........................84
Section 6.29 Purchase of Personal Property Subject to Executory Contracts .................84
Section 6.30 Transfer of Riverfront Holdings, Inc.
Equity Interests or Purchased
Assets; Ren Cen Lease ........................84
Section 6.31 Delphi Agreements ..............................85
Section 6.32 GM Strasbourg S.A. Restructuring ...... 85
Section 6.33 Holding Company Reorganization ....... 85
Section 6.34 Transfer of Promark Global Advisors Limited and Promark Investment Trustees Limited Equity
Interests ..............................................86
Section 6.35 Transfer of Equity Interests in
Certain Subsidiaries ...........................86

App. 187
ARTICLE VII CONDITIONS TO CLOSING ............86
Section 7.1
Section 7.2
Section 7.3

Conditions to Obligations of Purchaser and Sellers ...............................86
Conditions to Obligations of Purchaser ...................................................87
Conditions to Obligations of Sellers .......................................................91

ARTICLE VIII TERMINATION ................................93
Section 8.1
Section 8.2

Termination .........................................93
Procedure and Effect of Termination .......................................................94

ARTICLE IX MISCELLANEOUS .............................95
Section 9.1

Section 9.2
Section 9.3
Section 9.4
Section 9.5
Section 9.6
Section 9.7
Section 9.8
Section 9.9
Section 9.10
Section 9.11
Section 9.12
Section 9.13
Section 9.14
Section 9.15

Survival of Representations, Warranties, Covenants and Agreements and
Consequences of Certain Breaches .........95
Notices .................................................95
Fees and Expenses; No Right of
Setoff ....................................................97
Bulk Sales Laws ..................................97
Assignment ..........................................97
Amendment .........................................98
Waiver ..................................................98
Severability ..........................................98
Counterparts; Facsimiles ....................98
Headings ..............................................98
Parties in Interest ...............................98
Governing Law ....................................99
Venue and Retention of Jurisdiction .......................................................99
Waiver of Jury Trial ............................99
Risk of Loss ..........................................99

App. 188
Section 9.16
Section 9.17
Section 9.18
Section 9.19

Enforcement of Agreement .................99
Entire Agreement ..............................100
Publicity .............................................100
No Successor or Transferee Liability ...................................................100
Section 9.20 Time Periods ......................................101
Section 9.21 Sellers’ Disclosure Schedule .............101
Section 9.22 No Binding Effect ..............................101
EXHIBITS
Exhibit A
Exhibit B
Exhibit C
Exhibit D
Exhibit E
Exhibit F
Exhibit G
Exhibit H
Exhibit I
Exhibit J-1

Exhibit J-2

Exhibit J-3

Form of Parent Warrant A
Form of Parent Warrant B
UAW Active Labor Modiﬁcations
Form of UAW Retiree Settlement
Agreement
Form of VEBA Warrant
Certain Excluded Owned Real Property
Certain Retained Workers’ Compensation Claims
Form of Sale Procedures Order
Form of Sale Approval Order
Form of Deferred Termination Agreement for Saturn Discontinued Brand
Dealer Agreements
Form of Deferred Termination Agreement for Hummer Discontinued Brand
Dealer Agreements
Form of Deferred Termination Agreement for non-Saturn and non-Hummer
Discontinued Brand Dealer Agreements and Excluded Continuing Brand
Dealer Agreements

App. 189
Exhibit K
Exhibit L
Exhibit M
Exhibit N
Exhibit O
Exhibit P
Exhibit Q
Exhibit R
Exhibit S
Exhibit T
Exhibit U
Exhibit V
Exhibit W
Exhibit X
Exhibit Y
Exhibit Z

Form of Participation Agreement
Form of Subdivision Master Lease
Form of Assignment and Assumption of
Willow Run Lease
Form of Ren Cen Lease
Form of Equity Registration Rights
Agreement
Form of Bill of Sale
Form of Assignment and Assumption
Agreement
Form of Novation Agreement
Form of Government Related Subcontract Agreement
Form of Intellectual Property Assignment Agreement
Form of Transition Services Agreement
Form of Assignment and Assumption of
Real Property Leases
Form of Assignment and Assumption of
Harlem Lease
Form of Master Lease Agreement
Form of Certiﬁcate of Designation of
Purchaser for Preferred Stock
VEBA Note Term Sheet
*

*

*

Section 2.3 Assumed and Retained Liabilities.
(a) The “Assumed Liabilities” shall consist only
of the following Liabilities of Sellers:
(i) $7,072,488,605 of Indebtedness incurred
under the DIP Facility, to be restructured pursuant to the terms of Section 6.9 (the “Purchaser
Assumed Debt”);

App. 190
(ii) all Liabilities under each Purchased
Contract;
(iii) all Intercompany Obligations owed or
due, directly or indirectly, by Sellers to (A) any
Purchased Subsidiary or (B) any joint venture or
other entity in which a Seller or a Purchased Subsidiary has any Equity Interest (other than an Excluded Entity);
(iv) all Cure Amounts under each Assumable Executory Contract that becomes a Purchased
Contract;
(v) all Liabilities of Sellers (A) arising in the
Ordinary Course of Business during the Bankruptcy Case through and including the Closing
Date, to the extent such Liabilities are administrative expenses of Sellers’ estates pursuant to
Section 503(b) of the Bankruptcy Code and (B) arising prior to the commencement of the Bankruptcy
Cases to the extent approved by the Bankruptcy
Court for payment by Sellers pursuant to a Final
Order (and for the avoidance of doubt, Sellers’ Liabilities in clauses (A) and (B) above include Sellers’
Liabilities for personal property Taxes, real estate
and/or other ad valorem Taxes, use Taxes, sales
Taxes, franchise Taxes, income Taxes, gross receipt
Taxes, excise Taxes, Michigan Business Taxes and
Michigan Single Business Taxes), in each case,
other than (1) Liabilities of the type described in
Section 2.3(b)(iv), Section 2.3(b)(vi) and Section 2.3(b)(ix), (2) Liabilities arising under any
dealer sales and service Contract and any Contract related thereto, to the extent such Contract
has been designated as a Rejectable Executory

App. 191
Contract, and (3) Liabilities otherwise assumed in
this Section 2.3(a);
(vi) all Transfer Taxes payable in connection
with the sale, transfer, assignment, conveyance
and delivery of the Purchased Assets pursuant to
the terms of this Agreement;
(vii) (A) all Liabilities arising under express
written warranties of Sellers that are speciﬁcally
identiﬁed as warranties and delivered in connection with the sale of new, certiﬁed used or preowned vehicles or new or remanufactured motor
vehicle parts and equipment (including service
parts, accessories, engines and transmissions)
manufactured or sold by Sellers or Purchaser prior
to or after the Closing and (B) all obligations under Lemon Laws;
(viii) all Liabilities arising under any Environmental Law (A) relating to conditions present
on the Transferred Real Property, other than those
Liabilities described in Section 2.3(b)(iv), (B) resulting from Purchaser’s ownership or operation of
the Transferred Real Property after the Closing or
(C) relating to Purchaser’s failure to comply with
Environmental Laws after the Closing;
(ix) all Liabilities to third parties for death,
personal injury, or other injury to Persons or damage to property caused by motor vehicles designed
for operation on public roadways or by the component parts of such motor vehicles and, in each case,
manufactured, sold or delivered by Sellers (collectively, “Product Liabilities”), which arise directly
out of accidents, incidents or other distinct and
discreet occurrences that happen on or after the

App. 192
Closing Date and arise from such motor vehicles’
operation or performance (for avoidance of doubt,
Purchaser shall not assume, or become liable to
pay, perform or discharge, any Liability arising or
contended to arise by reason of exposure to materials utilized in the assembly or fabrication of
motor vehicles manufactured by Sellers and delivered prior to the Closing Date, including asbestos,
silicates or ﬂuids, regardless of when such alleged
exposure occurs);
(x) all Liabilities
relating to, in respect
workers’ compensation
except for Retained
Claims;

of Sellers arising out of,
of, or in connection with
claims against any Seller,
Workers’ Compensation

(xi) all Liabilities arising out of, relating to,
in respect of, or in connection with the use, ownership or sale of the Purchased Assets after the Closing;
(xii) all Liabilities (A) speciﬁcally assumed
by Purchaser pursuant to Section 6.17 and (B)
arising out of, relating to or in connection with the
salaries and/or wages and vacation of all Transferred Employees that are accrued and unpaid (or
with respect to vacation, unused) as of the Closing
Date;
(xiii) (A) all Employment-Related Obligations and (B) Liabilities under any Assumed Plan,
in each case, relating to any Employee that is or
was covered by the UAW Collective Bargaining
Agreement, except for Retained Workers Compensation Claims;

App. 193
(xiv) all Liabilities of Sellers underlying any
construction liens that constitute Permitted Encumbrances with respect to Transferred Real
Property; and
(xv) those other Liabilities identiﬁed on Section 2.3(a)(xv) of the Sellers’ Disclosure Schedule.
(b) Each Seller acknowledges and agrees that
pursuant to the terms and provisions of this Agreement, Purchaser shall not assume, or become liable to
pay, perform or discharge, any Liability of any Seller,
whether occurring or accruing before, at or after the
Closing, other than the Assumed Liabilities. In furtherance and not in limitation of the foregoing, and in
all cases with the exception of the Assumed Liabilities,
neither Purchaser nor any of its Afﬁliates shall assume, or be deemed to have assumed, any Indebtedness, Claim or other Liability of any Seller or any
predecessor, Subsidiary or Afﬁliate of any Seller whatsoever, whether occurring or accruing before, at or after the Closing, including the following (collectively,
the “Retained Liabilities”):
(i) all Liabilities arising out of, relating to, in
respect of or in connection with any Indebtedness
of Sellers (other than Intercompany Obligations
and the Purchaser Assumed Debt), including
those items identiﬁed on Section 2.3(b)(i) of the
Sellers’ Disclosure Schedule;
(ii) all Intercompany Obligations owed or
due, directly or indirectly, by Sellers to (A) another
Seller, (B) any Excluded Subsidiary or (C) any
joint venture or other entity in which a Seller or

App. 194
an Excluded Subsidiary has an Equity Interest
(other than a Transferred Entity);
(iii) all Liabilities arising out of, relating to,
in respect of or in connection with the Excluded
Assets, other than Liabilities otherwise retained
in this Section 2.3(b);
(iv) all Liabilities (A) associated with noncompliance with Environmental Laws (including
for ﬁnes, penalties, damages and remedies); (B)
arising out of, relating to, in respect of or in connection with the transportation, off-site storage or
off-site disposal of any Hazardous Materials generated or located at any Transferred Real Property; (C) arising out of, relating to, in respect of or
in connection with third-party Claims related to
Hazardous Materials that were or are located at
or that migrated or may migrate from any Transferred Real Property, except as otherwise required
under applicable Environmental Laws; (D) arising
under Environmental Laws related to the Excluded Real Property; or (E) for environmental Liabilities with respect to real property formerly
owned, operated or leased by Sellers (as of the
Closing), which, in the case of clauses (A), (B) and
(C), arose prior to or at the Closing, and which, in
the case of clause (D) and (E), arise prior to, at or
after the Closing;
(v) except for Taxes assumed in Section
2.3(a)(v) and Section 2.3(a)(vi), all Liabilities
with respect to any (A) Taxes arising in connection
with Sellers’ business, the Purchased Assets or the
Assumed Liabilities and that are attributable to
a Pre-Closing Tax Period (including any Taxes

App. 195
incurred in connection with the sale of the Purchased Assets, other than all Transfer Taxes), (B)
other Taxes of any Seller and (C) Taxes of any
Seller Group, including any Liability of any Seller
or any Seller Group member for Taxes arising as a
result of being or ceasing to be a member of any
Seller Group (it being understood, for the avoidance of doubt, that no provision of this Agreement
shall cause Sellers to be liable for Taxes of any
Purchased Subsidiary for which Sellers would not
be liable absent this Agreement);
(vi) all Liabilities for (A) costs and expenses
relating to the preparation, negotiation and entry
into this Agreement and the Ancillary Agreements
(and the consummation of the transactions contemplated by this Agreement and the Ancillary
Agreements, which, for the avoidance of doubt,
shall not include any Transfer Taxes), including
Advisory Fees, (B) administrative fees, professional fees and all other expenses under the Bankruptcy Code and (C) all other fees and expenses
associated with the administration of the Bankruptcy Cases;
(vii) all Employment-Related Obligations not
otherwise assumed in Section 2.3(a) and Section
6.17, including those arising out of, relating to, in
respect of or in connection with the employment,
potential employment or termination of employment of any individual (other than any Employee
that is or was covered by the UAW Collective Bargaining Agreement) (A) prior to or at the Closing
(including any severance policy, plan or program
that exists or arises, or may be deemed to exist or
arise, as a result of, or in connection with, the

App. 196
transactions contemplated by this Agreement) or
(B) who is not a Transferred Employee arising after the Closing and with respect to both clauses
(A) and (B) above, including any Liability arising
out of, relating to, in respect of or in connection
with any Collective Bargaining Agreement (other
than the UAW Collective Bargaining Agreement);
(viii) all Liabilities arising out of, relating to,
in respect of or in connection with Claims for infringement or misappropriation of third party intellectual property rights;
(ix) all Product Liabilities arising in whole
or in part from any accidents, incidents or other
occurrences that happen prior to the Closing Date;
(x) all Liabilities to third parties for death,
personal injury, other injury to Persons or damage
to property, in each case, arising out of asbestos
exposure;
(xi) all Liabilities to third parties for Claims
based upon Contract, tort or any other basis;
(xii) all workers’ compensation Claims with
respect to Employees residing in or employed in,
as the case may be as deﬁned by applicable Law,
the states set forth on Exhibit G (collectively, “Retained Workers’ Compensation Claims”);
(xiii) all Liabilities arising out of, relating to,
in respect of or in connection with any Retained
Plan;
(xiv) all Liabilities arising out of, relating to,
in respect of or in connection with any Assumed
Plan or Purchased Subsidiaries Employee Beneﬁt

App. 197
Plan, but only to the extent such Liabilities result
from the failure of such Assumed Plan or Purchased Subsidiaries Employee Beneﬁt Plan to
comply in all respects with TARP or such Liability
related to any changes to or from the administration of such Assumed Plan or Purchased Subsidiaries Employee Beneﬁt Plan prior to the Closing
Date;
(xv) the Settlement Agreement, except as
provided with respect to Liabilities under Section
5A of the UAW Retiree Settlement Agreement;
and
(xvi) all Liabilities arising out of, related to
or in connection with any (A) implied warranty or
other implied obligation arising under statutory or
common law without the necessity of an express
warranty or (B) allegation, statement or writing
by or attributable to Sellers.
*

*

*

Section 9.6 Amendment. This Agreement may not
be amended, modiﬁed or supplemented except upon
the execution and delivery of a written agreement executed by a duly authorized representative or ofﬁcer of
each of the Parties.
*

*

*

